<html>
<title> - EXAMINING CLIMATE CHANGE AND THE MEDIA</title>
<body><pre>[Senate Hearing 109-1077]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 109-1077

                 EXAMINING CLIMATE CHANGE AND THE MEDIA

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                            DECEMBER 6, 2006

                               __________

  Printed for the use of the Committee on Environment and Public Works




      Available via the World Wide Web: http://www.access.gpo.gov/
                            congress.senate

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
52-324 PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED NINTH CONGRESS
                             SECOND SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
JOHN W. WARNER, Virginia             JAMES M. JEFFORDS, Vermont
CHRISTOPHER S. BOND, Missouri        MAX BAUCUS, Montana
GEORGE V. VOINOVICH, Ohio            JOSEPH I. LIEBERMAN, Connecticut
LINCOLN CHAFEE, Rhode Island         BARBARA BOXER, California
LISA MURKOWSKI, Alaska               THOMAS R. CARPER, Delaware
JOHN THUNE, South Dakota             HILLARY RODHAM CLINTON, New York
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
JOHNNY ISAKSON, Georgia              BARACK OBAMA, Illinois
DAVID VITTER, Louisiana
                Andrew Wheeler, Majority Staff Director
                 Ken Connolly, Minority Staff Director

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

                            DECEMBER 6, 2006
                           OPENING STATEMENTS

Bond, Hon. Christopher S., U.S. Senator from the State of 
  Missouri.......................................................    15
Boxer, Hon. Barbara, U.S. Senator from the State of California...    10
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     1
Jeffords, Hon. James M., U.S. Senator from the State of Vermont..     5
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................    13
Voinovich, Hon. George V., U.S. Senator from the State of Ohio...    11

                               WITNESSES

Carter, R.M., Ph.D., Marine Geophysical Laboratory, James Cook 
  University, Australia..........................................    20
    Prepared statement...........................................    74
Deming, David, Ph.D., University of Oklahoma, College of Earth 
  and Energy.....................................................    17
    Prepared statement...........................................    54
Gainor, Dan, The Boone Pickens Free Market Fellow, director, 
  Business & Media Institute.....................................    24
    Prepared statement...........................................    85
Oreskes, Naomi, professor, Department of History and Program in 
  Science Studies, University of California, San Diego...........    22
    Prepared statement...........................................    83
Schrag, Daniel, Ph.D., Laboratory for Geochemical Oceanography, 
  Department of Earth and Planetary Sciences, Harvard University.    18
    Prepared statement...........................................    66

                          ADDITIONAL MATERIAL

Articles:
    Ancient Lessons for Our Future Climate, Daniel P. Schrag and 
      Richard B. Alley...........................................    72
    A New York Times-line, Business & Media Institute............    87
    Climate Warming in North America: Analysis of Borehold 
      Temperatures, David Deming, Science, Vol. 268, June 16, 
      1995.......................................................    55
Charts:
    Carbon Dioxide Concentrations from an Antarctic Ice Core.....    68
    Northern Hemisphere Ice Coverage.............................    70
Map, Southeastern U.S. Coastlines and Coastlines if Half of the 
  Greeland Ice Sheet Melted......................................    71
    Photographs of the Quelccaya Ice Cap Between 1977 and 2002...    69
Report, Fire and Ice, Business & Media Institute.................    88

 
                 EXAMINING CLIMATE CHANGE AND THE MEDIA

                              ----------                              


                      WEDNESDAY, DECEMBER 6, 2006

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m. in room 
406, Senate Dirksen Building, the Hon. James M. Inhofe 
(chairman of the committee) presiding.
    Present: Senators Inhofe, Isakson, Bond, Voinovich, Boxer, 
Thune, Jeffords, Lautenberg.

 OPENING STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM 
                     THE STATE OF OKLAHOMA

    Senator Inhofe. The hearing today is the fourth global 
warming hearing that I have held as Committee Chairman. This 
time, we are going to examine the media's role in presenting 
the science of climate change.
    I have to say, Senator Boxer, that we had decided to have 
this fourth hearing before the Republicans lost the majority on 
that fateful Tuesday. So we are going to go ahead and have 
this, and I am sure that we will have an opportunity to explore 
this much more under your chairmanship.
    Poorly conceived policy decisions may result from the 
media's over-hyped reporting. Much of the mainstream media has 
subverted its role as an objective source of information on 
climate change into a role of an advocate. We have seen 
examples of this overwhelmingly one-sided reporting by 60 
Minutes reporter Scott Pelley, ABC's Bill Blakemore, CNN's 
Miles O'Brien, who I believe is here with us today or will be, 
Time Magazine, the Associated Press, Reuters, just to name a 
few.
    There are three types of climate research: first, the hard 
science of global warming by climate scientists; second, the 
computer modelers; and finally, the researchers who study the 
impacts.
    Rather than focus on the hard science of global warming, 
the media has instead becomes advocates of hyping 
scientifically unfounded climate alarmism. I am not the only 
one who believes that. Here are just a few examples of 
believers. Now these are people who believe, well, first of all 
let us clarify what the issue is.
    I think all of us know that we are going through cycles, 
and we have throughout recorded history where it gets warmer 
and gets cooler. We are going through a warmer cycle now, and I 
have contended, as many scientists have, that this is due to 
natural causes. But if you don't believe that and believe that 
it is due to anthropogenic gases or manmade gases or methane or 
CO<INF>2</INF>, then you are in that camp. So, some of the 
people who believe that still believe the media is wrong in the 
way they have been reporting it.
    Mike Hulme, the director of the U.K.-based Tyndall Centre 
for Climate Change Research, a group that believes humans are 
the driving force behind global warming, chastised the media 
and environmentalists last month for choosing to use ``the 
language of fear and terror to scare people.''
    Hulme noted that he has found himself ``increasingly 
chastised by global warming activists because his public 
statements have not satisfied the activists' thirst for 
environmental drama and exaggerated rhetoric.''
    Second, a report in August 2006 from the U.K.'s Labor-
Leaning Institute for Public Policy Research also slammed the 
media presentation of climate science as--this is what they 
said; these are people who are believers in the other side of 
this about manmade global warming--``a quasi-religious register 
of doom, death, judgment, heaven and hell, using words such as 
catastrophe, chaos, and havoc.''
    The report also compared the media's coverage of global 
warming to ``the unreality of Hollywood films.'' Now these are 
the believers we are talking about.
    In addition, NBC newsman, Tom Brokaw's one-sided 2006 
Discovery Channel, his 1-hour program, a global warming 
documentary, was criticized by a Bloomberg News TV review that 
noted, ``You will find more dissent,'' referring to the 
presentation that was made by Tom Brokaw, ``You will find more 
dissent at a North Korean political rally than in this 
program.''
    The media often fails to distinguish between predictions 
and what is actually being observed on the Earth today. We know 
from an April 23, 2006 article, in the New York Times by Andrew 
Revkin that ``Few scientists agree with the idea that the 
recent spate of potential Hurricanes, European heat waves, 
African droughts, and other weather extremes are, in essence, 
our fault, a result of manmade emission. There is more than 
enough natural variability in nature to match the difference.'' 
Again, we are talking about someone who generally would be on 
the other side.
    The New York Times is essentially saying no recent weather 
events including Hurricane Katrina is because of manmade global 
warming, yet most of the media fails to understand this 
fundamental point and instead focuses on global warming 
computer model projections of futures as if they were proven 
fact. This is perhaps the easiest scientific area for the media 
to exaggerate and serve as advocates for alarmism. Climate 
modelers project all kinds of scary scenarios. This allows the 
media to pick and choose which one they want to show and 
demonstrate and characterize as being true. Hysteria sells, and 
people are out there doing it.
    Clearly, we cannot today somehow disprove catastrophic 
predictions of our climate in the year 2100, but if the 
observations of what is happening today are not consistent with 
what global warming models predict should occur, then what we 
do know is that our understanding of the globe is incomplete. 
The fact is the biosphere is extremely complex, and startling 
discoveries happen every year.
    This point was driven home earlier this year when the 
journal, Nature, reported that trees emit methane. Now this is 
something that was brand new. They had not used the fact that 
trees emit methane. Methane is a type of anthropogenic gas, 
similar to CO<INF>2</INF>. If this does affect climate, it 
would affect climate. Yet, the models didn't even have this. 
This is a great discovery. Trees are everywhere, and we didn't 
use this as a basic fact about our planet.
    Some portions of this committee are focused on alarmism 
rather than a responsible path forward on this issue. If your 
goal is to limit emissions, whether for traditional pollution 
or CO<INF>2</INF>, the only effective way to go about it is the 
use of cleaner, more efficient technologies that will meet the 
energy demands of this century and behind.
    In the Bush administration, their Asia-Pacific Partnership 
is on target for this type of an approach. It stresses the 
sharing of new technology among member nations including three 
of the world's top 10 emitters who are exempt from Kyoto. We 
are talking about China, India, and South Korea. China, by the 
end of 2009, will become the world's largest CO<INF>2</INF> 
emitter.
    What is disappointing is that the President's program gets 
more positive press in other countries than it does here in the 
United States.
    So the alarmism is not just coming in the media, it is 
advancing. They are becoming more desperate because former 
supporters of their views are now changing their position. 
Former advocates such as David Bellamy, Britain's famed 
environmental campaigner, was one of the most vocal back in the 
late 1990s on CO<INF>2</INF> and manmade gases contributing to 
climate change.
    David Bellamy and also Claude Allegre, a French 
geophysicist and a former Socialist Party leader in France. I 
don't know anyone else who has this in their credentials. He is 
a member of both the French and the United States Academies of 
Science. Allegre now says the cause of warming remains unknown, 
and alarmism ``has become a very lucrative business for some 
people. In short, their motivation is money.''
    I agree with Allegre, probably the only thing that I agree 
with him on, that it is money.
    [The prepared statement of Senator Inhofe follows:]
       Statement of Hon. James M. Inhofe, U.S. Senator from the 
                           State of Oklahoma
    Today's hearing is the fourth global warming hearing I have held as 
committee chairman. We will examine the media's role in presenting the 
science of climate change. Poorly conceived policy decisions may result 
from the media's over-hyped reporting. Much of the mainstream media has 
subverted its role as an objective source of information on climate 
change into the role of an advocate. We have seen examples of this 
overwhelmingly one sided reporting by ``60 Minutes'' reporter Scott 
Pelley, ABC News's Bill Blakemore, CNN's Miles O'Brien, Time Magazine, 
the Associated Press and Reuters, to name just a very few outlets.
    There are three types of climate research: first, the hard science 
of global warming by climate scientists, second, the computer modelers, 
and finally the researchers who study the impacts. Rather than focus on 
the hard science of global warming, the media has instead become 
advocates for hyping scientifically unfounded climate alarmism--and I'm 
not the only one who believes this. Here are just two examples of 
believers in man-made global warming who have been critical of the 
media.
    First, Mike Hulme, the Director of the U.K. based Tyndall Centre 
for Climate Change Research--a group that believes humans are the 
driving force of global warming--chastised the media and 
environmentalists last month for choosing to use the ``language of fear 
and terror'' to scare the public. Hulme noted that he has found himself 
``increasingly chastised'' by global warming activists because his 
pubic statements ``have not satisfied [the activist] thirst for 
environmental drama and exaggerated rhetoric.''
    Second, a report in August 2006 from the UK's Labour-leaning 
Institute for Public Policy Research also slammed the media 
presentation of climate science as--and I am quoting again here--``a 
quasi-religious register of doom, death, judgment, heaven and hell, 
using words such as `catastrophe', `chaos' and `havoc.' '' The report 
also compared the media's coverage of global warming to ``the unreality 
of Hollywood films.''
    In addition, former NBC Newsman Tom Brokaw's one sided 2006 
Discovery Channel global warming documentary was criticized by a 
Bloomberg News TV review that noted ``You'll find more dissent at a 
North Korean political rally than in this program'' because of its lack 
of scientific objectivity.
    The media often fails to distinguish between predictions and what 
is actually being observed on the Earth today. We know from an April 
23, 2006 article in the New York Times by Andrew Revkin, that ``few 
scientists agree with the idea that the recent spate of potent 
Hurricanes, European heat waves, African drought and other weather 
extremes are, in essence, our fault (a result of manmade emissions.) 
There is more than enough natural variability in nature to mask a 
direct connection, [scientists] say.''
    The New York Times is essentially saying, no recent weather 
events--including Hurricane Katrina--is because of manmade global 
warming. Yet most of the media fails to understand this fundamental 
point and instead focus on global warming computer model projections of 
the future as if they were proven fact. This is perhaps the easiest 
scientific area for the media to exaggerate and serve as advocates for 
alarmism. Climate modelers project all kinds of scary scenarios of the 
future and the media then erroneously presents these scenarios as a 
scientifically based. But these computer models are not hard science.
    Clearly, we cannot today somehow disprove catastrophic predictions 
of our climate in the year 2100. But if the observations of what is 
happening today are not consistent with what global warming models 
predict should occur, than what we do know is that our understanding of 
the globe is incomplete. The fact is, the biosphere is extremely 
complex and startling discoveries happen every year. This point was 
driven home earlier this year when the Journal Nature reported that 
trees emit methane, a potent greenhouse gas. Trees are everywhere, yet 
we didn't even know this most basic fact about our planet.
    It is unfortunate that so many are focused on alarmism rather than 
a responsible path forward on this issue. If your goal is to limit 
emissions, whether of traditional pollution or CO<INF>2</INF>, the only 
effective way to go about it is the use of cleaner, more efficient 
technologies that will meet the energy demands of this century and 
beyond.
    The Bush administration's Asia-Pacific Partnership is the right 
type of approach--it stresses the sharing of new technology among 
member nations including three of the world's top 10 emitters who are 
exempt from Kyoto--India, South Korea, and China, which in 2009 will 
become the world's largest CO<INF>2</INF> emitter. What is 
disappointing is that the President's program gets more positive press 
in other countries than it does here.
    So the alarmism not just continuing in the media, it's advancing. 
They are becoming more desperate because former supporters of their 
views are now changing their position. Former advocates such as David 
Bellamy, Britain's famed environmental campaigner, and Claude Allegre, 
a French geophysicist and former Socialist Party Leader who is a member 
of both the French and U.S. Academies of Science. Allegre now says the 
cause of warming remains unknown and the alarmism ``has become a very 
lucrative business for some people.'' In short, their motivation is 
money. And he's right . . . its about money.

    Senator Inhofe. Senator Jeffords, what we did was recess 
the business meeting, at which time as soon as we have 10 
people here, we will go back in it for our three nominations. 
In the meantime, we have started this. We now have one, two, 
three, four, five, six, seven. We have seven members.
    If you would like to be recognized now for your opening 
statement, feel free to do so.
    Senator Jeffords. Thank you, Mr. Chairman.
    Senator Inhofe. Let me say this before you do. I liked you 
equally when you were Republican as when you caucused with the 
Democrats. In the years we served together in the House and in 
the Senate and your chairmanship of this committee when I was 
the Ranking Member, then my chairmanship when you are the 
Ranking Member, equally enjoyable, and while we differ in our 
philosophies and our views, you have always been fair. You have 
been a good personal friend. I just appreciate so much the 
service that you have rendered to your State and to the country 
in both the House and the Senate.
    Senator Jeffords. Well, thank you for those very kind 
words, Mr. Chairman.

OPENING STATEMENT OF HON. JAMES M. JEFFORDS, U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    I am going home. As my friend, Robert Frost, once said, 
``Home is the place where, when you have to go there, they have 
to take you in.''
    [Laughter.]
    Senator Jeffords. My farm is on the west side of Killington 
Peak in the small village of Shrewsbury, VT. The snow comes 
early there. I filled the woodshed for the winter already. My 
snowshoes are hanging on the hook in the shed. Hopefully, I 
will get to see the birches covered in snow next week. I miss 
my farm.
    Before we part ways, I would like to recognize a few 
people. Mr. Chairman, I thoroughly enjoyed working with you. 
Incredibly, when we disagree, it has always been in good spirit 
and our bond of friendship has carried us through these 5 
years. You have been so kind to me in so many ways. Thank you. 
You have a wonderful staff.
    I have many friends on both sides of the dais. I wish you 
all well. This is one of the best committees in Congress. I 
hope the years ahead are as productive as I think they have 
been.
    I am happy now to know that Vermont will continue to be 
represented on this wonderful committee. Senator Sanders will 
easily fill the shoes of former Chairman Bob Stafford and me. 
All of Vermont is proud to have him in the Senate.
    I have been blessed to have an excellent staff serving me 
through the years here on the committee. I can't list them all, 
but there are a few here today. When I mention your names, will 
you please stand up and wave your hand?
    We already miss a few staff that have moved on including 
Alison Taylor, Geoff Brown, and Malcolm Woolf.
    Caroline Ahearn, David Sandretti, Nicole Parisi-Smith, 
Amanda Fox, Rachel Winnik, and Eric Thu have served me 
exceptionally well.
    Carolyn Dupree, who came with me from the HELP Committee, 
has been so committed to EPW and to me. She is one of the great 
ones.
    Jo-Ellen Darcy, Catharine Ransom, Margaret Wetherald, Chris 
Miller, Michael Goo, Mary Frances Repko, and J.C. Sandberg have 
all had legendary careers to date in the Senate, and I hope 
they continue.
    Cara Cookson from Cabot, VT, has served her home State with 
great honor.
    Diane Derby, another great Vermonter, has been an 
outstanding spokesperson and advisor to me for many years. She 
handled committee communications and my own press and was able 
to make this plain-spoken Senator sound august and intelligent. 
My hat is off to you, Diane.
    Bill Kurtz, my Chief of Staff, my friend, my golf 
companion, is simply one of the greatest people that has ever 
served me and the State of Vermont.
    Finally, I would like to thank my old pal, Ken Connolly.
    [Applause.]
    Senator Jeffords. Since 1993, he has been with me, and we 
have had some amazing times together. When Ken started with me 
those many years ago, he was single. He didn't have three 
children, and he didn't have any gray hair. I think we can only 
blame the Senate for the gray hair, not me. Ken helped me put 
together the greatest EPW staff of all time, and I thank him 
for that.
    As for the topic at hand, global warming, I can only say 
that I am sorry I was not able to do more to change the minds 
of the skeptics that remain in our Nation. The climate is 
warming. It is due to human activity, and only a change in 
human behavior will ensure that my grandson, Patton Henry 
Jeffords, will not suffer the consequences.
    As I rise from this chair, I do so knowing that its future 
occupant is a strong and courageous leader.
    I salute you, Senator Boxer, for your tireless effort to 
improve the lot of mankind. I will be watching from my quiet 
mountain retreat and praying that under your leadership, the 
committee will continue to be as great tomorrow as it has been 
in the past.
    In parting, I would like to cite one of Robert Frost's 
refrains, my favorite man:

    ``Whose woods these are I think I know. His house is in the 
village, though. He will not see me stopping here to watch his 
woods fill up with snow.
    ``The woods are lovely, dark and deep. But I have promises 
to keep. And miles to go before I sleep. And miles to go before 
I sleep.''

    Thank you, Mr. Chairman.
    [Applause.]
    [The prepared statement of Senator Jeffords follows:]

      Statement of Hon. James M. Jeffords, U.S. Senator from the 
                            State of Vermont

    Mr. Chairman, I'm going home. As my friend Robert Frost 
once said, ``Home is the place where, when you have to go 
there, they have to take you in.''
    My home is on the west side of Killington Peak in the small 
village of Shrewsbury, Vermont. The snow comes early there. 
I've filled the woodshed for the winter. My snowshoes hang on 
the hook in the shed. Hopefully I'll get out to see the birches 
covered in snow next week. I miss my home.
    Before we part ways, I'd like to recognize a few people.
    Mr. Chairman, I've thoroughly enjoyed working with you. 
When we disagree, it's always been in good spirit, and our bond 
of friendship has carried us through these 5 years. You've been 
so kind to me in so many ways. Thank you. You have wonderful 
staff.
    I have many friends on both sides of this dais. I wish you 
all well. This is one of the best committees in Congress. I 
hope the years ahead are productive.
    I am happy to know that Vermont will continue to be 
represented on this wonderful committee. Senator-elect Sanders 
will easily fill the shoes of former Chairman Bob Stafford and 
me. All of Vermont is proud to have him in the Senate.
    I've been blessed to have an excellent staff serving me 
through the years here on the committee. I can't list them all, 
but there are a few here today, and as I mention your name 
please stand up or wave your hand.
    We already miss a few staff members who have moved on, 
including Alison Taylor, Geoff Brown, Erik Smulson and Malcolm 
Woolf.
    We have Caroline Ahearn, David Sandretti, Nicole Parisi-
Smith, Amanda Fox, Rachel Winnik and Eric Thu, who have served 
me exceptionally well. Carolyn Dupree, who came with me from 
the HELP Committee, has been so committed to EPW and to me, 
she's one of the great ones. Jo-Ellen Darcy, Catharine Ransom, 
Margaret Wetherald, Chris Miller, Michael Goo, Mary Francis 
Repko, J.C. Sandberg have all had legendary careers to date in 
the Senate, and I hope they continue. Cara Cookson, from Cabot, 
Vermont, has served her home State with great honor. And Diane 
Derby, another great Vermonter, has been an outstanding 
spokesperson and advisor to me for many years. She handled 
committee communications and my own press and was able to make 
this plain-spoken Senator sound august and intelligent. My 
hat's off to you, Diane.
    Bill Kurtz, my Chief of Staff, my friend, my golf 
companion, is simply one of the greatest people ever to serve 
me and the State of Vermont.
    Finally, I'd like to thank my old pal, Ken Connolly. Since 
1993, he's been with me, and we've had some amazing times 
together. When Ken started with me those many years ago he was 
single, he didn't have three children and he didn't have gray 
hair. I think we can only blame the Senate for the graying 
hair. Ken helped me put together the greatest EPW staff of all 
time, and I thank him for that.
    As for the topic at hand, global warming, I can only say 
that I am sorry that I was not able to do more to change the 
minds of the few skeptics that remain in our Nation. The 
climate is warming, it is due to human activity, and only a 
change in human behavior will ensure that my grandson, Patton 
Henry Jeffords, will not suffer the consequences.
    As I rise from this chair, I do so knowing that its future 
occupant is a strong and courageous leader. I salute you, 
Senator Boxer, for your tireless efforts to improve the lot of 
humankind. I will be watching from my quiet mountain retreat, 
and praying that under your leadership this committee will 
continue to be as great tomorrow as it has been in the past.
    In parting, I would like to cite one last Robert Frost 
refrain:
    ``Whose woods these are I think I know.
    His house is in the village though;
    He will not see me stopping here
    To watch his woods fill up with snow.
    The woods are lovely, dark and deep.
    But I have promises to keep
    And miles to go before I sleep.
    And miles to go before I sleep.''
    Thank you, Mr. Chairman.

    Senator Inhofe. Thank you, Senator Jeffords. That was 
beautiful.
    When you were introducing your staff, it occurred to me 
that so many people and probably the vast majority of the 
people in this room don't realize how close we have been with 
our staffs and how often we are in agreement. We went through 
the Transportation Reauthorization Bill, a really long and 
arduous thing, and the Water Bill which we unfortunately are 
losing now. It is not due to this committee. We worked 
together. Senator Boxer and Senator Jeffords and all of us on 
this side worked tirelessly and tried to get it done, and our 
staffs worked closely together.
    I just hope people realize that while we do have some 
subjects where we disagree, we have many more where we were in 
total agreement during the years that we served together.
    Senator Boxer. Mr. Chairman?
    Senator Inhofe. Yes, Senator Boxer.
    Senator Boxer. Can I have a point of personal privilege 
just for a moment to respond to our friend's comments?
    Senator Inhofe. Of course.
    Senator Boxer. First of all, how touched we are with what 
you said. I totally appreciate the fact that you mentioned how 
wonderful our Chairman has been to you. He is a good man. I 
think we have proven the fact that we don't have to agree on 
everything in order to get along and to respect each other and 
to work together. I think our Chairman pointed out actually 
there are some issues in which we can work really closely, and 
we will do that.
    I just want to say you have set the tone for me. I really 
have two goals for this committee, and I know you share them so 
I am going to say what they are. One is to protect the health 
of our families, our children, and the planet. The other is to 
bring bipartisanship back to this committee in a way that we 
really, truly reach out to each other because I know we can 
find common ground. I know that I have found that common ground 
with the Chairman. I have found that common ground with Senator 
Thune on certain issues. No one expected we could team up, and 
we did, and we will find it with others.
    I know the members on our side, many new members who are 
coming, are very excited about the traditions of this committee 
and to really get things done for the people. We are so lucky 
with the portfolio that we have. In many ways, yes, some 
contentious things, but there are a lot of things that we need 
to do to keep on growing in this country, and the public works 
side of it certainly enables us to make a contribution.
    But Senator Jeffords, you are loved; you are beloved. Your 
staff has served you magnificently, and it has been my 
privilege to work with them and with you. I will never forget 
our friendship and your courage and your dedication.
    Thank you.
    Senator Inhofe. Just a moment, Senator Isakson, did you 
have any comments to make along this line before we go to 
Senator Lautenberg?
    Senator Isakson. With regard to our distinguished colleague 
from Vermont, I do have a comment. I think John and I are the 
two, I won't say youngest but we are certainly the two newest 
members of the Senate on this committee. I had the privilege of 
being elected with John in 2004, and I had the privilege of 
meeting and getting to know Senator Jeffords.
    I just want to take this occasion to thank him for the many 
kindnesses he extended to me as a new member of the Senate, 
thank him for that which I have learned from him, and remind 
him that Frost wrote a lot of great poems. One of my favorite 
lines from Frost's work is ``Two roads diverged in a yellow 
wood, and I took the one less traveled by, and that has made 
all the difference.''
    If there is anybody on this committee who is emblematic of 
taking a different road and making a difference, it certainly 
is you, and I commend you on your contribution to the 
committee, your contribution to the Senate, and I wish you a 
lot of luck in those snowshoes and fireplaces in Vermont.
    Senator Inhofe. Thank you, Senator Isakson.
    Senator Lautenberg.
    Senator Lautenberg. Thank you, Mr. Chairman.
    I have a special feeling for Vermont and Vermonters since I 
have owned a little place up there since 1968. My kids and I 
love the mountains, the Green Mountains, and the people who 
inhabit them. They are a particular breed, and they are not 
unlike the actual character of Vermont: hardy, tough, 
beautiful, attractive.
    Jim Jeffords comes with a line of distinguished Senators 
who have served here from Vermont on this committee. Bob 
Stafford and I were good friends. The fact that we are going to 
be having Senator Sanders with us, that gives me some 
encouragement that the Vermont influence will not diminish 
here, and I look at Pat Leahy. The Vermonters have a way of 
being direct without being offensive.
    Fairness has always been a cornerstone of Senator Jeffords' 
being. We are good pals. We are going to miss the heck out of 
you. But Jim, if I come up to Vermont, it is not snowshoes; I 
still like skiing. I hope that we will be able to cross paths 
along the way. God bless and thank you for the wonderful 
service you have given to this committee and this country.
    Senator Jeffords. Thank you.
    Senator Inhofe. Thank you, Senator Lautenberg.
    Senator Voinovich.
    Senator Voinovich. I echo the comments of your other 
colleagues, Jim. You and I have been working together for 8 
years. This is my 8th year on the committee. I must say that 
even though we have had some major differences of opinion, our 
relationship has been on the highest level, and I want you to 
know that I respect you for your integrity and for your 
advocacy on those things that you really believe in and feel 
are important to your State and to our country.
    I think that one of the things that impresses me with this 
body is that we have people like you who speak from the heart 
and really care about making a difference. I want you to know 
that we are going to miss your presence on this committee. I 
hope you enjoy your retirement and as you look in on this 
committee's work this year, that you not become too frustrated.
    Thank you so much for everything you have done for your 
State and for our country and for your friendship with me.
    Senator Jeffords. Thank you.
    Senator Inhofe. Thank you, Senator Voinovich.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    I too want to express my appreciation to Senator Jeffords 
for his service.
    You wouldn't remember this, but I do. In 1988, I and 
somebody I was working for, we went to Vermont and campaigned 
for your election to the Senate back then. I am not a collector 
of such things, but I was going through some stuff the other 
day, and I actually have a Jeffords pin or button I think from 
that 1988 campaign. In any event, that was a long time ago, and 
I have only been here a couple of years.
    Like Johnny, I appreciate very much your kindness. I think 
that is something that there just isn't enough of around here. 
I appreciate the fact that you have always been a gentleman and 
also that you are a principled individual. That is something 
too that is important to me. I think people in public life want 
to accomplish certain things, and I think you can do it in a 
way, a principled way but do it with an element of kindness 
too. I think those are two qualities that you have really 
embodied in your service here.
    So thank you, and I congratulate you. As you retire and go 
off and do hopefully more fun and pleasant things than battling 
some of the issues we battle around here, I wish you well. 
Thank you.
    Senator Inhofe. Thank you, Senator Thune.
    As I had said earlier, we have recessed our business 
meeting. We will go back to it as soon as we get 10 people in 
here to make a quorum.
    The nominees are not going to be here, but we have 
announced who they are. But on the witnesses that are here 
today, we are going to welcome them and enjoy their opening 
statements.
    Prior to that, I would ask if there are other members who 
want to make a statement in conjunction with the subject of the 
hearing today.
    Senator Boxer.

OPENING STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR FROM THE 
                      STATE OF CALIFORNIA

    Senator Boxer. Mr. Chairman, I am glad we are holding a 
hearing on global warming today. As you alluded to, next year 
this committee will continue to examine how to contain global 
warming. We have a big job since out of the 56 biggest emitters 
of carbon dioxide, American is now No. 1. We are 53d out of the 
56 nations in our efforts to contain global warming. So we have 
a lot of work to do.
    I would like to raise a concern that I have about the focus 
on the media this morning. The free expression of the media is 
a deeply held valued in this country, and the one thing I would 
hope we don't want to do is to chill the free expression of the 
media. I have a concern about focusing a full Senate Committee 
hearing on whether we agree with the vast spectrum of media 
outlets when it comes to the presentation of global warming 
issues. In a free society in what is the greatest democracy in 
the world, I don't believe it is proper to put pressure on the 
media to please a particular Senate Committee view, one way or 
the other.
    It is clear that the dissenting views on global warming get 
plenty of attention in the media, and we have a witness today 
who will speak to that issue. At the same time, there is a 
consensus view of scientists, and that view is that global 
warming is happening and human activities are making a 
significant contribution. The Bush administration itself says 
that.
    Now there is a serious risk to the world. It is not just 
the consensus view among leading scientists including 11 
National Academies of Science throughout the world including 
our own; it is a wide consensus view. For example, let us look 
at the business community.
    Lord Brown, CEO of British Petroleum, has said of global 
warming, ``Companies composed of highly skilled and trained 
people can't live in denial of mounting evidence gathered by 
hundreds of the most reputable scientists in the world.''
    Let us look at the CEO of Wal-Mart, Lee Scott, who just 
said this year, ``Global warming is real now, and it must be 
addressed.''
    JPMorgan Chase, the fourth largest banking company in the 
world, has a policy that states, ``JPMorgan Chase advocates the 
reduction of greenhouse gas emissions.''
    There is even a Pentagon report that says climate change 
should ``be elevated beyond a scientific debate to a national 
security concern.'' That is our Pentagon.
    And so, I think if you look at both what is being said in 
the media as well as the broad spectrum of voices on this 
issue, it seems more than clear that global warming is a 
serious concern. A consensus has developed that we need to act.
    My other sadness with this hearing is again we are arguing 
over who believes what rather than moving toward solving the 
problem. What we need to do next is focus our attention on how 
we can fight this serious threat. I believe that fighting 
global warming will have many benefits to our society beyond 
addressing the media issue. We discussed this a little bit at 
one of our other hearings, Mr. Chairman.
    The new technologies we are developing will produce jobs. 
The alternative fuels we are developing burn cleaner and will 
aid us with the critical goal of energy independence. Avoiding 
the dislocation that could be caused by global warming induced 
floods and other disasters will lead us to a more stable world.
    I have great faith in this country, and though we have been 
slow to address the threat, I am convinced, convinced that we 
can do what it takes to change course and protect the future 
for our children and our grandchildren.
    Mr. Chairman, this certainly is not going to be the last 
word, what we do today, but I am glad we are having this 
hearing because I think it gives us a chance to tell our 
constituents where we each stand on this question. Through a 
series of hearings, we are going to call forward people from 
both sides of the issue. We are going to call on other 
Senators, Senators in this committee. We are going to call on 
business leaders. We are going to call on faith-based 
organizations, many of whom have contacted us and want to work 
with us, faith-based organizations who believe we have to 
protect God's planet.
    So I think this issue is going to take on, in many ways, a 
life of its own, and I only hope and I do pray that enough of 
us on this committee will be able to work together to reach 
some consensus on beginning to contain global warming.
    Thank you.
    Senator Inhofe. Thank you, Senator Boxer, for that 
excellent statement.
    On this side, any opening statements, Senator Isakson?
    Senator Voinovich?

  OPENING STATEMENT OF HON. GEORGE V. VOINOVICH, U.S. SENATOR 
                     FROM THE STATE OF OHIO

    Senator Voinovich. Mr. Chairman, I have been a member of 
this committee, as I mentioned in my remarks with regard to 
Senator Jeffords, for 8 years, and I have had a chance to 
participate in numerous climate change hearings in this 
committee as well as the Governmental Affairs Committee. When 
Senator Lieberman was Chairman of that committee, he took that 
committee and had hearings on global warming and climate 
change. I have heard vigorous debate on both sides of the 
issue.
    Unfortunately, the media and those involved politically in 
this issue have raised the rhetoric to such a point that it is 
difficult for consensus. Far too often, we talk past each other 
because it doesn't promote or defend a certain agenda and any 
other point of view that is not orthodox is moot or, worse, 
unworthy to be heard.
    I remember, Mr. Chairman, when we had Michael Crichton here 
testifying, who wrote the book, State of Fear, and Mr. Crichton 
discussed the issue of the media's impact on this whole climate 
change issue. I asked him the question. You remember we had 
lunch with him afterward, and I said: Are they going to make a 
movie? Some of his books have been made movies.
    He said: You have got be kidding me. There is no way they 
will make a movie on State of Fear because the perspective that 
I outline in this book about the media's influence doesn't fit 
in with what most people in Hollywood think the issue is about.
    That is a good example, I think, of how the media does 
impact upon this.
    Then I remember when I first came here, Bjorn Lomborg who 
is from Denmark, who is a great environmentalist, and who 
studied Kyoto and came back and said that with the costs 
involved and the result that we would get from it, really if 
you look at the money spent on that, you could do far more with 
the money in terms of bringing potable water to African nations 
and health and education.
    There is no question that the media has had some impact on 
what we are doing. The reality is that not all climate change 
skeptics are denialists or ideologues, and those in the 
environmental movement are not all alarmists. We can learn a 
lot and achieve more if we listen a little more to each other, 
and I suspect that is what Americans believe and what they 
expect us to work together on in terms of this issue.
    I think one of the things, Senator Boxer, that has bothered 
me a bit about this committee is that so often we get together 
and we discuss some of these issues and because of special 
interest groups on both sides, because of media interest, we 
don't listen to each other. I happen to believe that there is a 
problem, that we have to deal with climate change, OK. The 
issue is how do we go about dealing with the issue.
    I think we also have to become well aware of the fact that 
what we do also is going to be impacted dramatically by the 
developing countries. For example, we know that China is 
building a new coal-fired plant every week, every single week, 
and many of them lack modern pollution control devices. We are 
talking about energy for cities like the size of Dallas. 
Researchers say, for example, that our Great Lakes that I am 
very interested in, 20 percent of the mercury now is coming 
from China.
    So this is a worldwide problem. I think any time we deal 
with it, we have to realize that we have a role to play, but we 
also must recognize that others have a role to play and the 
more we can engage them in this debate, the better off we are 
going to be and the better off the world is going to be.
    Senator Inhofe. Thank you, Senator Voinovich.
    Senator Lautenberg did you have any comments?

  OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, U.S. SENATOR 
                  FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Disappointingly, I may have some 
comments. Mr. Chairman, I want to start off by putting away the 
gloves. I am not going to lock the cabinet, but the fact of the 
matter is we just had one of those moments in the U.S. Senate 
when our hearts take a lead in our views. I am talking about 
someone as noble as Jim Jeffords is and how wonderful it is as 
he leaves this place that we all detail our feelings about how 
nice it is to work with someone who has such balance.
    I don't think the people who are new to come here were 
elected to cross the bipartisan divide but rather they are here 
to accomplish something, and we have to get on with that. We 
have to be frank with one another.
    Mr. Chairman, I want to thank you for providing us an 
opportunity today to prove to the American people or at least 
inform the American people that we don't think that global 
warming is really a hoax, that it is real, that is out there in 
front of us. To ignore it and to dismiss it as a bad joke 
doesn't, in my view, do the public any good and certainly does 
not speak well in my view of the Senate or those who are 
advocating push it away and maybe we will be lucky and it won't 
come back.
    I think everybody knows that I look at the world through my 
grandchildren's eyes and think about what I would like to see 
for the future.
    But for the last 6 years, the way the Administration has 
behaved toward the environment I think has negatively affected 
our world. We just heard from our distinguished friend from 
Ohio that this is a worldwide problem and that we are concerned 
now about China building all these plants and disregarding good 
environmental control. America is purportedly the leader in the 
world, so it is not for us to point our fingers at other 
countries and say they are going to do terrible things to the 
environment unless we lead the way, unless we convey a message 
that we really are concerned about the environment and it means 
something to us.
    Joined by Exxon, American Petroleum Institute, and others, 
there has been a misleading of the American people about the 
threats that global warming poses to our communities and our 
countries and the continents. The reason people are making 
movies and writing books focusing on the environment is because 
major changes in our environment like global warming are 
happening, and the evidence is so clear in front of us. Think 
about it.
    We have all seen pictures of the polar bears. The mighty 
polar bears are now reduced to ragged herds, searching, 
foraging for food. Their environment is being less hospitable 
to them, and they are out there searching for ways to stay 
alive. I don't know whether anybody has not ever seen a picture 
of a polar bear, but I have seen them up there, alive and 
powerful. Now to see them looking like almost enlarged alley 
cats is pathetic. Global warming is melting our glaciers, 
leading to record temperatures, changing our weather, changing 
the conditions of our oceans. For heavens sake, what does it 
take to say there is something amiss out there?
    The oil companies and the other polluters have borrowed a 
page from the tobacco industry's playbook: create fake science 
in order to undermine real science.
    But it is time to focus on, if I may borrow the words, an 
inconvenient truth. Global warming is real. It is caused by 
man; entirely, perhaps not but significantly, of course.
    The Bush administration has spent 6 years avoiding any real 
action. The Administration has declined to put mandatory caps 
on carbon emission and opposed the significant improvement of 
cap and trade standards. They refuse to let California set 
tailpipe emissions on carbon dioxide for their cars. In the 
past year alone, politicians, not scientists, have kept NOAA 
and NASA experts from discussing and releasing their work on 
global warming. Now when scientists can't tell the public what 
they have learned, then we will have to rely on the media to 
uncover the truth.
    I plead with those in the media: Speak up for heavens sake. 
Call it; say it like it is. That is the power of your 
profession.
    The power of science is that it is beholden to no one. It 
is not Democrat, Republican, or Independent. I am hopeful with 
a change here and the chairs are going to shift. I have great 
respect for our Chairman, and I have also, as some might have 
noticed, some great differences, occasional differences. But 
the fact of the matter is there is mutual respect because I 
know that Senator Inhofe ultimately has the same issues in mind 
as I have, and that is to make our Nation a healthier place, 
but we see it through different colored glasses. What I want to 
do and hope that we can is really reduce the threat that global 
warming brings to my grandchildren, to your grandchildren, and 
to your grandchildren, so the future generations can look at 
what we have done to contribute to their well-being and not to 
destroy reality.
    [The prepared statement of Senator Lautenberg follows:]
     Statement of Hon. Frank R. Lautenberg, U.S. Senator from the 
                          State of New Jersey
    Thank you, Mr. Chairman.
    I want to first thank Senator Jeffords for his service to Vermont 
and to our nation. He has worked for safer, smarter transportation, 
better health care options, and to protect our environment. He has 
served with distinction. He will be missed in this Committee and the 
Senate.
    Mr. Chairman, now I want to thank you for providing us an 
opportunity today to prove to you that global warming is not a hoax--it 
is real. I saw a movie recently called Hoot. It's a story about a boy 
and his friends who save a group of owls from losing their habitat. I 
liked Hoot because it tells the truth: the way we behave affects the 
world. For the last six years, the way the Bush administration has 
behaved towards the environment has negatively affected our world. 
Joined by Exxon, the American Petroleum Institute, and others, the 
administration has misled Americans about the threats global warming 
poses to our communities, our country, and the continents.
    The reason people are making movies and writing books focusing on 
the environment is because major changes in our environment--like 
global warming--are happening, and people want to know the truth. The 
truth is that global warming is no hoax. There is no conspiracy. What 
you hear, what you read, what you see, is reality. Global warming is 
melting our glaciers, leading to record temperatures, changing our 
weather, and changing the conditions of our oceans. The oil companies 
and other polluters have borrowed a page from the tobacco industry's 
playbook: creating fake science in order to undermine real science.
    But it's time to focus on an inconvenient truth: global warming is 
real, caused by man, and the Bush administration has spent six years 
avoiding real action. The administration has declined to put mandatory 
caps on carbon emissions, opposed a significant improvement of CAFE 
standards, and refused to let California set tailpipe emissions 
standards on carbon dioxide for their cards. In the past year alone, 
politicians--not scientists--have kept NOAA's and NASA's experts from 
discussing and releasing their work on global warming. And when 
scientists can't tell the public what they've learned, then we will 
have to rely on the media to uncover the truth.
    The power of science is that it's beholden to no one: it is not 
Democratic or Republican. I am hopeful that, in the aftermath of 
November's elections, and with a new Congress, America's scientists 
will be able to tell their own story--and we can use their expert 
advice and help to reduce global warming.
    Thank you, Mr. Chairman.

    Senator Inhofe. Thank you, Senator Lautenberg. I would now 
ask that the statements of Senators Thune and Bond be included 
in the record.
    [The prepared statement of Senator Thune was not available 
at time of print.]
    [The prepared statement of Senator Bond follows:]
    Statement of Senator Christopher S. Bond, U.S. Senator from the 
                           State of Missouri
    Thank you Mr. Chairman for holding this hearing on climate change 
and the media. Certainly, we have heard, and will hear more today, 
examples of the media's focus on climate change advocates.
    What I want to focus on is what the media is not covering, what the 
media needs to cover and what this committee needs to focus upon if it 
is serious about considering climate change strategies. That is the 
human toll current climate change fighting strategies will impose on 
people, on families, and on workers.
    We cannot, I cannot, and I will fight, fighting climate change on 
the backs of the poor. The weak, the infirm, the vulnerable, are all in 
the crosshairs of proposals put forward by climate change advocates.
    Proposals that cap, ration or tax carbon energy and its waste will 
raise the cost of our most basic needs--heating, cooling, lighting--
that no family, rich or poor, can do without. However, it will be the 
poor that will suffer most when heating bills go up in the winter. 
Fixed income seniors will suffer most when air conditioning bills go up 
in the summer. Families, especially blue-collar, middle class families 
will suffer most when their bread-winner loses their job.
    These are the untold stories, the unreported stories that I 
challenge the media, and now the committee, to tell. Maybe we should 
not be surprised that the press is not talking about how current 
climate change proposals will hurt everyday people, because advocates 
surely are not talking about it.
    ``An Inconvenient Truth'' runs about 95 minutes. In it you will 
find about an hour and 20 minutes on global warming and its 
environmental impacts, 10 minutes of what to do about global warming 
and about 5 minutes on how much those proposals might cost. Nothing on 
forcing low-income families to choose between heat and eat.
    Read the book ``Field Notes from a Catastrophe: Man, Nature and 
Climate Change'' and you'll get chapters on the Golden Toad and the 
Mountain Ringlet Butterfly. It bills itself as ``the most important 
book about life on Earth in over forty years.'' But it provides no 
advice to fixed-income seniors forced to chose between prescription 
drug medicine and air conditioning their homes in the Summer.
    The book ``The Weather Makers: How Man is Changing the Climate and 
What it Means for Life on Earth'' does devote 30 of its 300 pages to 
solutions. But advice on walking, biking and hybrids will hardly meet 
the needs of blue-collar Midwestern manufacturing workers put out of 
work by higher energy costs.
    It is no surprise that advocates do not want to talk about the 
severe human toll of their current proposals.
    The ``Economist'' estimates the costs of adequate emissions 
controls at 1 to 5 percent of global GDP. That works out to between 
$440 billion and $2.2 trillion. Assuming America's fair at 25 percent 
would cost us $100 to $500 billion per year.
    And who will pay that $100 to $500 billion? You and me and everyone 
less fortunate than us because every electric utility, every car maker, 
every maker of a product we can't do without will pass that cost right 
on to us. We might as well be raising the cost of milk, diapers and 
prescription drugs.
    Do not tell me the costs are bearable because the average cost per 
family is low. Some groups will say that current proposals are 
affordable at only $100 per family per year. Of course, they do not say 
that no one will pay $100--that some will pay less and some will pay a 
whole lot more.
    They cannot tell us whether these nationwide cost figures will 
impose unbearable disproportionate regional harm--how they may spare 
the natural gas burning Northeast and West Coast but hit hard the coal 
burning Midwest.
    They cannot tell us whether their plans will impose 
disproportionate harm on certain blue-collar workers--how they may 
spare California high-tech and New York finance but will hit hard 
middle-class workers dependent on power from coal and natural gas, 
manufacturing, chemical, fertilizer and automotive jobs.
    If this committee wants to get past the rhetoric and seriously 
consider climate change fighting proposals, it must come up with these 
answers--we must debate these issues.
    We need to know what regions of the country, what States, what 
cities will be affected by proposals. What sectors of the economy, what 
types of jobs, their locations, who holds them and who will lose them? 
What types of workers, blue collar, union, are most at risk? What types 
of people, families, young, old, struggling, will face burdens too 
high?
    General legislation that leaves the details and dirty work to 
others, like those recently passed at the State level, that abdicate 
these questions, abdicate our responsibility to pass judgment on these 
issues, are unacceptable. We have a responsibility to those we may hurt 
to know more, consider more, and do more.
    Some have said that they want to make this committee an environment 
committee, not an anti-environment committee. We must be an environment 
committee, but we cannot be an anti-poor committee, an anti-blue collar 
committee, an anti-family committee. Then we will be able to see if we 
can work together.
    Thank you.

    Senator Inhofe. We will ask the witnesses to please come to 
the table. We have Dr. David Deming from the University of 
Oklahoma, College of Earth and Energy; Dr. Daniel Schrag, 
Laboratory of Geochemical Oceanography, Department of Earth and 
Planetary Sciences, Harvard University; Dr. R.M. Carter, Marine 
Geophysical Laboratory, James Cook University, Australia; Dr. 
Naomi Oreskes, director of Science Studies Program, University 
of California at San Diego and professor, Department of History 
and Program in Science Studies; and Dan Gainor, The Boone 
Pickens Free Market Fellow and director, Business & Media 
Institute.
    It is not the purpose of this meeting and while I 
appreciate very much the comments that are being made, I do 
have documentation that I would be glad to share with anyone 
after the meeting on the plight of the polar bears--they are 
doing quite well--also a long list of scientists who certainly 
agree on the point that we are going through a warming cycle, 
but it is not related to manmade emissions.
    What I would like to ask you to do, the five panelist 
members, since we took a little longer on opening is to each 
one try to confine your remarks to 5 minutes. Your entire 
statement will be made a part of the record.
    I think particularly we might give a little bit longer to 
Dr. Carter. He came all the way from Australia for this 
meeting. So we appreciate that very, very much, Dr. Carter.
    At any time that we happen to have 10 members here, we will 
go back to our meeting.
    Senator Boxer, I don't think that is going to happen, 
judging from who isn't here right now. So let me just announce 
that after the first vote today, we will go to the President's 
room and have our business meeting at that time if we don't 
have 10 here, if that is all right.
    We will start with you, Dr. Deming, and thank you for being 
here from the great University of Oklahoma.

   STATEMENT OF DAVID DEMING, Ph.D., UNIVERSITY OF OKLAHOMA, 
                  COLLEGE OF EARTH AND ENERGY

    Mr. Deming. Mr. Chairman, members of the committee, and 
distinguished guests, thank you for inviting me to testify 
today.
    I am a geologist and geophysicist. I have a Bachelor's 
Degree in geology from Indiana University and a Ph.D. in 
geophysics from the University of Utah. My field of 
specialization in geophysics is temperature and heat flow. In 
recent years, I have turned my studies to the history and 
philosophy of science.
    In 1995, I published a short paper in the academic journal, 
Science. In that study, I reviewed how borehole temperature 
data recorded a warming of about 1 C in North America over the 
last 100 to 150 years. The week the article appeared, I was 
contacted by a reporter for National Public Radio. He offered 
to interview me but only if I would state that warming was due 
to human activity. When I refused to do so, he hung up on me.
    I had another interesting experience around the time my 
paper in Science was published. I received an astonishing e-
mail from a major researcher in the area of climate change. He 
said, ``We have to get rid of the Medieval Warm Period.''
    The Medieval Warm Period was a time of unusually warm 
weather that began around 1000 A.D. and persisted until a cold 
period known as the Little Ice Age took hold in the 14th 
Century. Warmer climate brought a remarkable flowering of 
prosperity, knowledge, and art to Europe during the high Middle 
Ages. The existence of the Medieval Warm Period had been 
recognized in the scientific literature for decades, but now it 
was a major embarrassment to those maintaining that the 20th 
Century warming was truly anomalist. It had to ``be gotten rid 
of.''
    In 1769, Joseph Priestley warned that scientists overly 
attached to a favored hypothesis would not hesitate to ``warp 
the whole course of nature.'' In 1999, Michael Mann and his 
colleagues published a reconstruction of past temperature in 
which the Medieval Warm Period simply vanished. This unique 
estimate became known as the hockey stick because of the shape 
of the temperature graph.
    Normally in science when you have a novel result that 
appears to overturn previous work, you have to demonstrate why 
the earlier work was wrong, but the work of Mann and his 
colleagues was initially accepted uncritically even though it 
contradicted the results of more than 100 previous studies. 
Other researchers have since reaffirmed that the Medieval Warm 
Period was both warm and global in its extent.
    There is an overwhelming bias today in the media regarding 
the issue of global warming. In the past 2 years, this bias has 
bloomed into an irrational hysteria. Every natural disaster 
that occurs is now linked with global warming no matter how 
tenuous or impossible the connection. As a result, the public 
has become vastly misinformed on this and other environmental 
issues.
    Earth's climate system is complex and poorly understood, 
but we do know that throughout human history, warmer 
temperatures have been associated with more stable climates and 
increased human health and prosperity. Colder temperatures have 
been correlated with climatic instability, famine, and 
increased human mortality.
    The amount of climatic warming that has taken place in the 
past 150 years is poorly constrained and its cause, human or 
natural, is unknown. There is no sound scientific basis for 
predicting future climate change with any degree of certainty. 
If the climate does warm, it is likely to be beneficial to 
humanity rather than harmful. In my opinion, it would be 
foolish to establish national energy policy on the basis of 
misinformation and irrational hysteria.
    Thank you.
    Senator Inhofe. Thank you very much. Thank you, Dr. Deming.
    Dr. Schrag.

 STATEMENT OF DANIEL SCHRAG, Ph.D., LABORATORY FOR GEOCHEMICAL 
   OCEANOGRAPHY, DEPARTMENT OF EARTH AND PLANETARY SCIENCES, 
                       HARVARD UNIVERSITY

    Mr. Schrag. Thank you, Mr. Chairman, and thank you to all 
the Senators for hearing us today. I am going to depart from my 
written comments and just speak from them more generally.
    First of all, let me say that I think one of the problems 
with media coverage of climate change is that it is being 
covered in a very political era where the issue has become 
quite divided across partisan lines. I think that is very 
unfortunate. This is really a bipartisan issue. Moreover, I 
think science reporters are often very concerned about making 
sure that both sides are discussed as opposed to framing the 
issue.
    I see the issue quite differently. I am an earth scientist 
who studies the history of the climate on all time scales and 
also modern climate dynamics. Let me just start a little bit 
with the way I think this issue should be discussed. I attached 
some figures that I am going to refer to in these comments.
    Let me start with some observations about the climate 
system, about the atmosphere that are absolutely 
incontrovertible. There is no serious objection to them at all 
even by the serious scientific skeptics. Carbon dioxide levels 
today are the highest they have been for at least the last 
650,000 years and that is by direct observation from measuring 
gas bubbles in ice cores. We can't go further back than that 
because that is the oldest ice core we have. But indirectly by 
measuring chemistry of the ocean which tells us something about 
the ph and therefore the carbon dioxide in the atmosphere, we 
can say that levels that we are seeing today and levels that we 
will see this century are higher than they have been for tens 
of millions of years.
    If you look at the Figure 1 that I have attached, you will 
see this represented where today and relative to the last 
650,000 years, the carbon dioxide concentration is far above 
anything we have ever seen. That is everybody in this room 
today is seeing an atmosphere unlike any human being ever in 
the history of the world.
    Now the question in front of us is: What is that going to 
do? We know that this carbon dioxide rises due to burning of 
fossil fuel primarily with some contribution from deforestation 
as well. The good news is that the Earth is actually cushioning 
us a little bit. Only about 60 percent of the CO<INF>2</INF> we 
emit from burning fossil fuel ends up in the atmosphere. Some 
of it is taken up by the ocean. Some of it is taken up by 
terrestrial plants.
    Unfortunately, the natural world can't absorb it fast 
enough. We are burning fossil fuels too quickly, and the 
CO<INF>2</INF> is rising faster and faster.
    As Senator Voinovich said, the developing countries, in 
particular China today, are burning more and more coal. 
Currently about 46 percent of the world's coal is being used in 
China, and that is contributing more and more. They will soon 
pass us as the largest emitter of carbon dioxide.
    Now the important thing here is then what is this going to 
do for the climate. We know that carbon dioxide is a greenhouse 
gas. It absorbs infrared radiation. In fact, in the laboratory, 
the way we measure carbon dioxide is by its infrared absorption 
properties. It absorbs heat coming from the surface, acting 
like a thermal blanket. That is not a controversy. We can look 
at our neighboring Venus and look at its atmosphere which is 
almost 100 times thicker and composed almost entirely of carbon 
dioxide. It is 460 C at the surface mostly because of carbon 
dioxide.
    The question is: What is a smaller increase in carbon 
dioxide going to do on the Earth? We have a variety of 
information about this. We have models, and I think the 
Chairman has referred to some of the uncertainty in these 
models. I actually share those concerns about these climate 
models. Climate models are the best physics, the best 
observations we have from the last 100 years of observations. 
We take those models and the best physics we can, incorporate 
them into a physical model, a computer model that we then try 
to use to predict the future.
    But try to understand it this way, that the carbon dioxide 
levels today are higher than they have ever been in human 
history, higher than they have been probably for 30 or 40 
million years of Earth history. What that means is it is 
unreasonable to expect scientists like me to predict exactly 
what is going to happen when we are taking the Earth into a 
state that we haven't seen for 30 million years. The 
expectation that we will be able to predict exactly what is 
going to happen is unreasonable.
    I will say this though; I look at Earth history and try to 
use climate variations in the past to estimate how sensitive 
the Earth is to changes in carbon dioxide, and the general rule 
that I see is that the Earth is always more sensitive than the 
models whether you are talking about the difference between the 
last Ice Age and today, and that is Figure 3 here.
    If you look at Figure 3, the Northern Hemisphere, when most 
of North America was covered with ice, where I live in Boston, 
it was covered with a mile of ice, a very different world. The 
average temperature difference was 5 C for the whole world. We 
are talking about 3 to 5 C warming this century potentially. 
That is what some of the models say if we double or triple 
atmospheric CO<INF>2</INF> this century.
    Exactly how this will affect our climate? Very difficult to 
say, but there is no question that it will be dramatic and 
significant.
    To me, we can look warm climates 40 or 50 million years ago 
when crocodiles lived up in Greenland, when there were palm 
trees in Wyoming, sea level was 300 feet higher because there 
was no ice anywhere on the planet, a very warm world. We think 
CO<INF>2</INF> levels were something like two to four times 
higher than today, a very different world. We are not going to 
get back to that world in a hundred years--it takes longer for 
that for the ice to melt--but we are heading that direction. We 
are returning the atmosphere to a state it hasn't been in since 
that time.
    It is an experiment on the planet. That is the way I think 
is the right framing of this problem. We are doing an 
experiment on the planet. It is uncontrolled. We don't know 
exactly what is going to happen. The question is, it is an 
insurance question, how much are we going to risk? What is it 
worth to us? What is the cost of fixing this problem relative 
to the possibility that we will really do something bad?
    Senator Inhofe. Dr. Schrag, will you please wind up now in 
fairness to the other witnesses?
    Mr. Schrag. Yes, I will wind up right now, absolutely.
    I think the framing of this as an insurance problem is 
important. Ultimately, we don't buy insurance because we know 
our house is going to burn down. We do it because we can't 
afford it if it did burn down.
    What it comes down to then is: What is the cost of the 
premium? What does it cost to fix the problem? I think we heard 
Senator Bond earlier talk about 1 percent or 4 percent of GDP. 
I think recently there have been estimates that are much lower 
than that, 0.4 to 1 percent. The point is that it is actually 
relatively affordable. As Senator Boxer said, there are 
actually issues. There are many ways this will actually help 
our economy and help our national security.
    Senator Bond was exactly correct in asking how is this 
going to affect poor people. How is this going to affect 
different States? There are solutions, for example, for Ohio 
which depends heavily on coal.
    Senator Inhofe. OK, Dr. Schrag, thank you very much.
    Mr. Schrag. Thank you.
    Senator Inhofe. Dr. Carter coming all the way from the 
other side of the world, thank you very much.

STATEMENT OF R.M. CARTER, Ph.D., MARINE GEOPHYSICAL LABORATORY, 
                JAMES COOK UNIVERSITY, AUSTRALIA

    Mr. Carter. Mr. Chairman, Senators, ladies and gentlemen, I 
thank you for the invitation to speak to you. I am aware, 
coming from a long way away, of the privilege that it 
represents.
    I am particularly pleased to meet Senator Boxer for the 
first time because, unbeknownst to her, we have something in 
common, and that is a brother-in-law of mine who lives in her 
electorate. So I just stopped there briefly on the way to 
Washington, and I wonder why you spend time in Washington 
rather than that lovely part of California?
    Climate change is a complex thing, and human-caused climate 
change is even more complex. It is important at the outset to 
appreciate there is no theory of climate in the sense that 
there is a sense of gravity, a Newtonian theory of gravity, for 
example.
    I like to look at it this way; there are three realities of 
climate change. The first reality is the reality that Dr. 
Schrag has just been speaking about, the science reality, and 
it is based upon facts and experiment and empirical testing.
    The second reality is virtual reality, and you have a very 
distinguished practitioner of it in the States, Dr. Jim Hansen, 
and many colleagues who spend their time devising computer 
models that are so mind-bogglingly complex that ordinary 
scientists like me can't begin to penetrate them. But the 
important thing to understand is that they do not produce 
predictions of future climate. They are virtual realities. They 
produce imaginary worlds. We learn a huge amount from them, but 
we do not gain predictions from them.
    The third reality is the cause of this hearing, mostly 
behind me but some gentlemen in front of me, the press. It is 
the public opinion, the general common view of climate change.
    Now those three realities are very different things and two 
of them are in complete conflict. The two are the science 
reality where there is vigorous debate as indeed there should 
be in any mature science or young science, I should say. There 
is vigorous debate on virtually every aspect of climate change. 
Yet, in the public arena now, it has become a political issue 
which is a done deal. Everybody knows the planet is 
overheating, and we have got to save it.
    How did that come about? How is it possible for there to be 
such a disjunct between the public understanding and the 
scientific situation? The answer to that has to be the press 
because the press carry the privilege of informing the public 
and informing them on climate change. The three players that 
they should be paying attention to are the Intergovernmental 
Panel on Climate Change, the IPCC; the non-governmental 
organizations with an environmental bent like Greenpeace and 
the World Wildlife Fund; and individual scientists like Dr. 
Schrag and others. They are the three big sets of voices.
    So the press' job then, is to translate what it hears from 
those people out to the public. The press is failing, and let 
me tell you why. They are failing to translate the uncertainty 
of the science. There is huge uncertainty in every aspect of 
climate science.
    The second thing they are failing to do is they are not 
transmitting many essential facts and especially facts that are 
relevant to the human influence. Let me give you two because I 
only have time for two.
    The first is that if you look at the ice core evidence, you 
will discover that yes, changes in carbon dioxide are 
accompanied by changes in temperature, but you will also 
discover that the change in temperature precedes the change in 
carbon dioxide by several hundred years to a thousand or so 
years. Reflect on that and reflect when you last heard somebody 
say that they thought lung cancer caused smoking, because that 
is what you are arguing if you argue on the glacial time scale 
that changes in carbon dioxide cause temperature changes. It is 
the other way around.
    The second example is--it will come as a surprise to some 
people in this room--using the official statistics of the 
Climate Research Unit of the University of East Anglia, which 
are the statistics that the IPCC use, there has been no 
increase in global temperature for the last 7 years. Since 
1998, global average temperature has remained unchanged, yet 
over those 7 years, carbon dioxide has been continuing its 
spiral upwards.
    Other things that the press do, briefly, and they are 
detailed more in my paper to the committee, are they make a 
great deal of alarmist stories about climate change. We all 
understand why; it sells newspapers. They play the man and the 
women, not the ball. It is not the science that gets discussed. 
It is the motivation or who is paying for the science.
    They use what I call couldism, mightism, and perhapsism. 
Droughts could go up; we might get more storms; and perhaps sea 
level is going to rise.
    They substitute he says/she says type of coverage for 
assessing complex scientific issues where there are not just 
two sides to the argument. There are multiple sides to the 
argument. But a reporter is trained from being knee-high, as 
far as I can tell, that the way you produce balanced coverage 
is to get a spokesman on the one hand and a spokesman on the 
other hand. Climate science is hugely more complicated than 
that. It requires the reporter to be able to make some 
judgments of his or her own.
    Finally, why am I concerned that this public hysteria--I 
agree with my colleague, Dr. Deming, on this--on climate change 
is such a problem? The reason it is a problem is it is 
diverting our attention from what is a real climate problem, 
and that is natural climate change, not human-caused climate 
change. Every experienced person who studies climate over the 
long haul understands rapid climate changes and especially 
coolings, can happen in a matter of a few years to a few 
decades. We do not understand what causes them. We do 
understand that a rapid cooling is going to be economically far 
more damaging than a gradual warming.
    Therefore, any policy should be based on adaptation to 
climate change, not on trying to prevent it. Trying to mitigate 
natural climate change is an exercise in utter futility. You 
might as well try to stop the clouds scudding across the sky.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Dr. Carter. Thank you very much.
    Dr. Oreskes.

 STATEMENT OF NAOMI ORESKES, PROFESSOR, DEPARTMENT OF HISTORY 
 AND PROGRAM IN SCIENCE STUDIES, UNIVERSITY OF CALIFORNIA, SAN 
                             DIEGO

    Ms. Oreskes. Thank you very much. It is an honor to have 
the opportunity to speak to you today about the history of 
climate history.
    I am a professor of history at the University of 
California, San Diego where I teach and do research on the 
history of modern science. I hold a Bachelor's of Science in 
mining geology from the Royal School of Mines, part of the 
University of London, and a Ph.D., from Stanford University 
where I completed a graduate special program in geological 
research and the history of science.
    In recent months, the suggestion has been made that concern 
over anthropogenic global warming is just a fad or a fashion. 
The history of science clearly shows otherwise. Scientific 
attention to global warming has lasted over a century, has 
involved thousands of scientists, and extended across six 
continents. It has spanned the disciplines of physics, 
chemistry, meteorology, and oceanography, and included some of 
the most illustrious and trusted scientists of the 20th 
Century, and it has included scientific advisors to numerous 
U.S. Presidents, both Democratic and Republican.
    Let me explain. Scientists have been studying carbon 
dioxide and climate for a long time. John Tyndall first 
established in 1859 that carbon dioxide is a greenhouse gas. 
From this, the great Swedish geochemist Svante Arhenius deduced 
in the 1890s that carbon dioxide released to the atmosphere 
from burning fossil fuels could alter Earth's climate.
    By the 1930s, British engineer Guy Callendar had compiled 
empirical evidence that this effect was already discernible.
    Callendar's concern was pursued in the United States in the 
1950s by the great American physicist Gilbert Plass, a pioneer 
in upper atmosphere spectroscopy; by geochemist Hans Suess, a 
pioneer of radiocarbon dating who worked closely with the U.S. 
Atomic Energy Commission; and by the great oceanographer Roger 
Revelle, a one-time commander in the U.S. Navy Hydrographic 
Office.
    By the 1960s, Charles David Keeling's systematic 
measurements demonstrated conclusively that atmospheric 
CO<INF>2</INF> was indeed rising, work for which he was awarded 
the National Medal of Science by the Bush administration in 
2002.
    These basic facts of history are well documented, but what 
is less well known is that by the mid-1960s, a number of 
scientific advisory panels had expressed concern about global 
warming, and this concern was communicated by some of America's 
most illustrious scientists to Presidents Lyndon Johnson, 
Richard Nixon, and Jimmy Carter.
    One early warning came in 1965 from the Environmental 
Pollution Board of the President's Science Advisory Committee, 
which warned that by the year 2000, ``There will be about 25 
percent more CO<INF>2</INF> in our atmosphere than at present 
and this will modify the heat balance of the atmosphere to such 
an extent that marked changes in climate could occur.''
    Accordingly, President Lyndon Johnson stated in a special 
message to Congress: ``This generation has altered the 
composition of the atmosphere on a global scale through a 
steady increase in carbon dioxide from the burning of fossil 
fuels.''
    A second warning came in 1966 from the U.S. National 
Academy of Sciences Panel on Climate and Weather Modification 
head by geophysicist Gordon MacDonald, who later served on 
Richard Nixon's Council on Environmental Quality.
    In the wake of the Arab oil embargo, Alvin Weinberg, the 
director of the Oak Ridge National Laboratory, realized that 
climatological impacts might limit oil production before 
geology did.
    In 1979, the subject was addressed by the JASON Committee, 
the reclusive group of highly cleared scientists who gather 
annually to evaluate scientific and technical problems for the 
U.S. Government and whose members have included some of the 
most brilliant scientists of our era, including physics Nobel 
Laureates Hans Bethe and Murray Gell-Mann.
    The JASON scientists predicted that atmospheric carbon 
dioxide might double by the year 2035, resulting in mean global 
temperature increases of 2 to 3 C and polar warming of as much 
as 10 to 12 C. This report also reached the White House where 
Frank Press, Science Advisor to President Carter, asked the 
National Academy of Sciences for a second opinion. An Academy 
Committee headed by MIT meteorologist Jule Charney affirmed the 
JASON conclusion: ``If carbon dioxide continues to increase, we 
find no reason to doubt that climate changes will result and no 
reason to believe that these changes will be negligible.''
    It was precisely these concerns that led in 1992 to the 
U.N. Framework Convention on Climate Change which called for 
immediate action to reverse the trend of mounting greenhouse 
gas emissions. One early signatory was U.S. President George 
H.W. Bush who called on world leaders to translate the written 
document into ``concrete action to protect the planet.''
    Three months later, the Convention was unanimously ratified 
by the U.S. Senate. Since then, scientists around the world 
have worked assiduously to flesh out the details of this 
broadly affirmed picture.
    The purpose of my 2004 study of the scientific literature, 
published in the peer-reviewed journal, Science, was to assess 
how much disagreement remained in the scientific community 
about the basic reality of global warming and its human causes. 
The answer surprised me. Not one scientific paper in the sample 
disagreed with the consensus position. Scientists, my study 
showed, are still arguing about the details, but the overall 
picture is clear. There is a consensus among both the leaders 
of climate science and the rank and file of active climate 
researchers.
    Now I should acknowledge that one skeptic has challenged my 
study and others have repeated his claim. This man is a social 
anthropologist in Liverpool who, to my knowledge, has never 
published his arguments regarding my study in a peer-reviewed 
journal. This past October, he admitted that he had made 
significant mistakes in his criticisms, and he now agrees with 
my general conclusion about the state of climate science.
    In an interview with the Australian Broadcasting 
Commission, he acknowledged, ``I do not think that anyone is 
questioning that we are in a period of global warming. Neither 
do I doubt that the overwhelming majority of climatologists is 
agreed that the current warming period is mostly due to human 
impact.''
    The scientific evidence is clear: The predictions made 
decades ago by Arrhenius, Callendar, Plass, Suess, Revelle, 
Charney, MacDonald, Weinberg, White, the JASON Committee, and 
many others have come true.
    I thank you very, very much for your time.
    Senator Inhofe. Thank you, Dr. Oreskes.
    Mr. Gainor.

  DAN GAINOR, THE BOONE PICKENS FREE MARKET FELLOW, DIRECTOR, 
                   BUSINESS & MEDIA INSTITUTE

    Mr. Gainor. Thank you, Chairman Inhofe, Senators, and 
ladies and gentlemen.
    We are here to discuss the media coverage of the climate 
change debate, but there is only one problem; there is almost 
none of that debate actually in the media. Journalists who 
pledged to be neutral long ago gave up their watchdog roles to 
become lapdogs for one position. The media became alarmist, 
claiming the planet is at a tipping point as if at any moment 
everything would go over the edge.
    An April 2006 issue of Time Magazine pushed readers over 
that edge with 24 pages of advocacy, claiming, ``The debate is 
over. Global warming is upon us with a vengeance.''
    CBS's Scott Pelley, who covers the environment, actually 
compared climate change skeptics with Holocaust deniers and 
claimed, ``There becomes a point in journalism where striving 
for balance becomes irresponsible.''
    In an effort to provide balance to that irresponsible 
comment, let us recall the media's record on climate change. 
Reporters told us roughly 30 years ago that a similar fate 
awaited mankind. Then, journalists were convinced we would all 
freeze to death.
    In an April 1975 article entitled The Cooling World, 
Newsweek advised us that ``the Earth's climate seems to be 
cooling down.''
    A May 1975 New York Times piece cautioned, ``Scientists 
Ponder Why World's Climate Is Changing: A Major Cooling Widely 
Considered to be Inevitable.''
    The Washington Post, U.S. News and World Report, and 
Science News all chimed in that cool was suddenly very hot. One 
award-winning piece in Fortune said if the trend continued, it 
could ``affect the whole human occupation of the Earth.''
    The irony of this scare is that just years before, we had 
been warned the Earth was warming. In March 1929, the Los 
Angeles Times told readers, ``Most geologists think the world 
is growing warmer and that it will continue to get warmer.''
    The New York Times took a similar approach with a headline 
that said, ``America in Longest Warm Spell Since 1776.''
    And less than 10 years before that, the Times detailed the 
exploits of Captain Donald MacMillan's Arctic expedition and 
how ``MacMillan Reports Signs of New Ice Age.''
    In more than 100 years, the major media have warned us of 
at least four separate climate cataclysms: an ice age, warming, 
another ice age, and another bout of warming. If you count the 
current catch-all term of climate change, that would be five 
separate media predictions. Even by their count, they are 0 for 
3.
    The hubris that convinces supposedly unbiased journalists 
they are providing the truth on climate change has led them to 
criticize America for its stance on the issue including the 
Kyoto Treaty, but they typically leave out the 95 to nothing 
vote against Kyoto by this very Senate or the many billions of 
dollars such an agreement would cost America. This attitude has 
resulted in a media obsession with Al Gore's film, An 
Inconvenient Truth. At least 75 TV shows covered Gore or the 
film in just 3 months this summer, more than three and a half 
times the length of the movie.
    The Today Show's Matt Lauer even lent his status to a SciFi 
Network program that listed global warming among other 
potential threats to our species, including asteroids, aliens, 
and evil robots.
    Scientists who dare question the almost religious belief in 
climate change--and yes, they do exist--are ignored or 
undermined in news reports as are policymakers and pundits who 
take similar views. The few journalists who sometimes give 
another side, like the New York Times' Andrew Revkin, emphasize 
funding sources for that side of the debate and rarely bother 
to question the billions of dollars that go into promoting 
global warming.
    This goes against the basic tenets of journalism to be 
skeptical of all sides of an issue. It also violates the 
ethical code of the Society of Professional Journalists which 
urges the media to ``support open exchange of views, even views 
they find repugnant.'' That code calls for reporters to 
``distinguish between advocacy and news reporting.''
    But that wasn't the media response when Chairman Inhofe 
read some of our report, Fire and Ice, on the Senate floor in 
September. Newsweek responded with a roughly 1,000 word 
clarification of its 1975 global cooling report but added it 
made this mistake as recently as 1992. Newsweek still claimed 
``the story wasn't `wrong' in the journalistic sense of 
`inaccurate.' '' But at least it owned up to the error after 31 
years.
    In the New York Times editorial that responded to Senator 
Inhofe's comments, the Times summarized, ``Cooling, warming, we 
never get right.'' That is the inconvenient truth.
    Thank you.
    Senator Inhofe. Thank you very much for the excellent 
statement.
    Without objection, I am going to enter into the record, Dr. 
Carter, a paper that you wrote called Human-Caused Global 
Warming because I find it to be very interesting as a 
supplement to your testimony.
    In order to accommodate Senator Boxer, we are going to 
expand the time for questioning. We will have a first round of 
7 minutes and then we will have a round after that of 5 
minutes. We are going to try our best, though, to conclude it 
in 1 hour from now because we have other uses for the room.
    Let me start off with the University of Oklahoma which 
shouldn't surprise too many people.
    I would like to have you, Dr. Deming, just repeat and just 
take a second to do it what you said about your call from the 
NPR to make sure everybody understands it.
    Mr. Deming. It was the week that my paper in the journal 
Science, had been published. I came into my office. There was a 
voice mail there from a reporter from National Public Radio. He 
said he wanted to talk to me about the paper, and I called him 
back, very excited. I thought I am going to be on the radio, 
and it is going to be wonderful, and it will help my career, 
and I will get all sorts of favorable publicity, and blah, 
blah, blah.
    I called him back, and to my surprise, he focused on the 
very last sentence in my paper where I said, I made the 
statement I thought was remarkably uncontroversial. I said the 
amount of warming that we have observed is within the range of 
natural variability for the last 10,000 years, and it is 
impossible to say at this point in time if it is due to human 
activity or a natural variation.
    And he said, did you really mean to say that?
    I said, well, of course, I did because I say what I mean.
    He said, well. He said, then I guess we have no story. He 
said, because if you had said it was due to human activity, 
that is what everyone is interested in.
    Then he hung up on me.
    Senator Inhofe. That is one of the problems that we have 
that is very serious.
    You also mentioned and as I said in my opening statement, 4 
years ago when I became Chairman of this committee, I assumed 
that it was anthropogenic gases that were causing this because 
that was all I had seen in the media since IPCC came out and, 
of course, Michael Mann was the one you heard from more than 
anything else.
    When we started looking at the science, you commented on 
the hockey stick. Isn't it true that if he had been honest in 
his portrayal, using a hockey stick for the blades charted at 
the 20th Century and included Medieval Warming Period, that it 
would have two blades of approximately the same size?
    Mr. Deming. As I understand the hockey stick, that period 
of time, the medieval time period is included, but the result 
they get is different from virtually almost what everyone else 
has found, and it has subsequently been criticized for having 
the result as an artifact of the methodology.
    As I understand the hockey stick, it is based primarily on 
tree ring thicknesses which are probably one of the most 
problematical indicators we have of past temperatures. The area 
in which I am most familiar, borehole temperatures clearly 
indicate that there has been a Medieval Warm Period and also 
that----
    Senator Inhofe. And a Little Ice Age, and I think also 
history, which Dr. Oreskes may want to address.
    Mr. Deming [continuing]. Polar sea maximum when 
temperatures were even warmer than the Medieval Warm Period 
about 5,000 years ago. Since that time, which used to be 
called, by the way, the Climatic Optimum. Before the warming 
scare, it used to be commonly acknowledged that warm 
temperatures are beneficial and cold temperatures are 
detrimental. Since that time, temperature, of course, has been 
undergoing variation, but it has been more or less 
systematically declining.
    Senator Inhofe. Thank you very much.
    Dr. Schrag, I think the only criticism I would have of your 
presentation is you said it is unfortunate that it has become 
very political and yet you have made appearance after 
appearance with Al Gore. I mean Al Gore clearly believes that 
global warming is his ticket to the White House. You appeared 
at the premiere of The Day After Tomorrow with not just Al Gore 
but also have made appearance with MoveOn.org and many of these 
highly political groups.
    If it is unfortunate that it has become political, why are 
you participating in those politics? Cut it short now.
    Mr. Schrag. Yes, in the discussion of the movie, The Day 
After Tomorrow, I felt the movie was so distorted in terms of 
its climate science, that I welcomed any opportunity to try to 
explain to the public what was fact and what was fiction. I 
think if you actually see my comments on that film, you will 
agree with that.
    I welcome the opportunity to appear in any Republican or 
Democratic forum on this, and I do that regularly at Harvard, 
briefing.
    Senator Inhofe. I appreciate that very much. I would like 
to have you, for the record, give me some of these comments on 
the science. My staff should have done this, and I should have 
been aware of it, but I would like to see some of the comments 
that you made concerned the flawed science of that movie.
    Mr. Schrag. Yes, well, the movie was really preposterous, 
essentially. The movie suggested that warming would lead to a 
shutdown of the thermohaline circulation which is actually 
possible. That part of it was correct. However, it happened in 
3 days, and it resulted in a global ice age.
    In fact, a shutdown of the thermohaline circulation would 
have a minor effect on temperatures, probably only in the 
coastal regions of Northern Europe, and it might only mitigate 
future warming. It might reduce the impact of future warming. 
It certainly wouldn't cause a cooling. I would actually suggest 
that this is one example where certain climate scientists have 
probably, in my view, this is an unlikely thing to occur.
    Senator Inhofe. Thank you very much, very much.
    Dr. Carter, I have been a vocal critic of the IPCC for some 
time, and I actually dedicated one whole 1-hour speech on the 
floor of the Senate that I am sure no one listened to about the 
IPCC. Can you tell me your views about the IPCC's credibility 
and how it can be improved or lack of credibility?
    Mr. Carter. Well, of course, the IPCC started off with 
great hopes and intentions like most offshore bodies. The 
problem is today that after it has been going I guess for 15 
years or so, it is basically unaccountable to anybody. The 
sovereign governments that receive its assessment reports use 
those assessment reports for their own climate policy.
    You could reflect on the thought of a sovereign government 
using an international body to set its next budget. I don't 
know why it is the governments have decided in this area of the 
environment that they defer to international advice where in 
every other part of their national management, of course, they 
use their own judgment.
    There is a lot of very good science in the IPCC volumes, 
but that is in the volumes. The problem is, as you, I am sure, 
heard many people say, it is the summary for policymakers.
    Senator Inhofe. It is the summary, the political summary.
    Mr. Carter. That is a political document, but that is all 
that most governments use in setting policy.
    Lord Lawson, the former Chancellor of the Exchequer in the 
United Kingdom, his view on this is that you should just shut 
the IPCC down. I would like to agree with him, but politically 
that is clearly not feasible.
    So I think you have to do something to make them 
accountable. I think AP-6, the Asia-Pacific Climate Accord, is 
the way to go. It is going to have to receive scientific and 
technical advice. It won't want to set up its own bodies 
because it is cumbersome and expensive and so on to provide 
that advice, but it will need an audit body of some sort. I 
think the IPCC could well contribute to AP-6 advice on climate 
change, but that then needs to be thoroughly audited by a group 
of independent scientists and engineers.
    Senator Inhofe. Thank you very much.
    Senator Boxer, this first round is going to be an 8-minute 
round, not a 7-minute round.
    Professor Oreskes, you have spoken about consensus about 
climate change, so I want to make sure that I understand what 
you mean. Is the definition of consensus that No. 1, the globe 
is warming and No. 2, that man's activities have contributed to 
that?
    Ms. Oreskes. Correct.
    Senator Inhofe. All right, I would like to be invited to be 
part of your consensus because I have said this and I have 
acknowledged that we are in a period where there has been 
warming now, as it was pointed out by Dr. Carter, not really 
since 1998 but generally a warming period.
    I have said many times that there are human contributions 
to this such as the expanded cities, the land use policies, the 
agriculture, the heat island effect. These things do have an 
effect. I understand that. My only concern has been 
CO<INF>2</INF> specifically.
    Now I am going to stop right here and wait for the next 
round of questions in deference to my future Chairman. I want 
to make sure we get everything covered.
    Senator Boxer, 8 minutes.
    Senator Boxer. Eight minutes, thank you very much.
    A couple of comments, Senator Voinovich, I was very moved 
by what you said about working together and recognizing China 
is a threat, and I think I agree with Senator Lautenberg's 
remarks that the best way to engage other nations is to become 
a role model and at the same time pulling them along. I hope in 
the Foreign Relations Committee, maybe we can team up and do 
some work in reaching out to China because clearly China is 
going to surpass us in 2009 as the largest emitter of carbon 
dioxide. I think that is key, and I thank you for bringing it 
up.
    I also think attacking the press doesn't make the truth go 
away. So you can attack and flail away, but it doesn't work. A 
lot of politicians and their death rattles turn against the 
press. It doesn't work at the end of the day. It can be 
certainly frustrating, but at the end of the day, it is a free 
press that keeps us strong.
    I also think attacking individuals for speaking out at 
forums is anti-democratic, and I just feel that way, regardless 
of what forum. That is what differentiates us from others. We 
don't say to people you can't have an opinion, regardless of 
what your profession is. I encourage all my people at home, Dr. 
Carter, and maybe you do too, and I encourage your brother, 
however he feels on this subject, to speak out, to go to forums 
to be educated and lead.
    Since you, Dan Gainor, you put up the Times, let me put up 
a series of mainstream press. I want to show you this. I am 
going to ask Dr. Schrag, because I asked you before if you 
would read these articles, to comment on whether you think 
there is anything in these articles that is hysterical, as my 
Chairman says, hysterical.
    The first one is the Tulsa World. We go to Oklahoma, Mr. 
Chairman. Mr. Chairman, I think you would be interested. Tulsa 
World, September 26, 2006: Global Warming Reaching Record: 
Earth's Temperature Highest in Millennia. Researchers say 
Earth's temperature has climbed to levels not seen in thousands 
of years; and warming has begun to affect plants, animals, 
researchers report in Tuesday's issue of proceedings of the 
National Academies of Sciences.
    So that is one. Let us go quickly with these because we 
have 8 minutes and eight charts. OK, here we go.
    Business Week, not your liberal bastion of a magazine: 
Global Warming Consensus Growing Among Scientists, Governments, 
Business. We must act fast to combat climate change. This has 
already sparked efforts to limit CO<INF>2</INF> emissions. Many 
companies are now preparing for a carbon-constrained world.
    They cite a Pentagon report that tells of a plausible 
scenario in which the conveyor shuts off. They also quote 
Senator McCain as saying: The facts are there. We have to 
educate our fellow citizens about climate change.
    Let us go to the next one. This is the L.A. Times: 
Academies Warn of Warming. Science organizations from 11 
countries including the United States call for global action 
against the changing climate.
    It goes on to explain that.
    Let us go to the next one. Washington Post: Growing 
Activity of Oceans. This is important because Dr. Deming made a 
very important point that the oceans are our friend and they 
sequester the carbon dioxide. But look what is happening to the 
oceans: Growing acidity of oceans may kill corals.
    That is quoted also from a report from the National Center 
for Atmospheric Research in the National Oceanic and 
Atmospheric Administration, and that is the Bush 
administration.
    Let us go to the next one. This is the Financial Times: No 
Need to Become a Sitting Duck; Hurricane Zones: Businesses Can 
and Should Plan for Events Outside Their Control.
    Even the U.S. Pentagon says climate change should be 
elevated beyond a scientific debate to a national security 
concern. That is the Pentagon. That is the Bush administration, 
the current Administration.
    This is the New York Times: Yelling Fire on a Hot Planet. 
Between the poles of real time catastrophe and non-event lies 
the prevailing scientific view.
    Let me repeat that. The New York Times: Between the poles 
of real time catastrophe and non-event lies the prevailing 
scientific view. Without big changes in emission rates, global 
warming from the buildup of greenhouse gases is likely to lead 
to substantial and largely irreversible transformation of 
climate, ecosystems, and coastlines.
    So talk about the middle position, Dr. Deming, there you 
go.
    The next one, United Press International, CDC, this is 
important. This is the Bush administration's CDC. This is this 
month, Mr. Chairman.
    Climate Change a Health Threat, December 5: The rising 
scientific certainty of climate change should mobilize 
environmental health professionals to take aggressive action, a 
Center for Disease Control and Prevention director said at a 
meeting here Monday.
    Climate change is perhaps the largest looming public health 
challenge we face, certainly in the environmental health field, 
Dr. Howard Frumkin, director of CDC's National Center for 
Environmental Health.
    Given credible indications there is a danger there, we need 
to act to protect people from that danger. It is standard 
public health practice, said Frumkin, Bush administration's 
CDC.
    So, Dr. Schrag, in this example, I tried to pull together 
from all over the country business magazines, the mainstream 
press, an article from Tulsa. Is there anything in here?
    You have read them all because I have asked you because I 
consider you to be one of this country's leading experts on 
this. Is there anything in here that you think is hysterical, 
that is in any way out of the mainstream of scientific thought 
on this subject?
    Mr. Schrag. No, Senator Boxer; I actually think that, in 
general, those articles do a very excellent job describing the 
general scientific evidence for those various issues.
    I would just add that I think the business articles, 
Business Week and an article you didn't cite, one from the 
Economist recently that was a cover article--both of these are 
not typically political journals--they did an excellent job 
reporting on this partly because they weren't science 
reporters. They were business reporters, and business reporters 
have good experience making decisions under uncertainty, and 
that is what we are dealing with here. Again, it is the risks 
that we care about.
    Senator Boxer. Dr. Deming, I think it was interesting on 
the NPR story because as a former reporter myself, you tried to 
get what you consider a balanced view, but I thought what you 
said was really interesting and worthy of reporting because 
that last sentence was pretty balanced. You said we are not 
sure why this is happening, and I think that is important 
because I thought your position is we absolutely know it has 
nothing to do with human activity and actually that is not what 
you said at the end. So I was encouraged by that.
    I want to ask you, Dr. Deming, the National Academies of 
Science of 11 nations including the U.S. National Academies 
have said climate change is real. It is likely most of the 
warming in recent decades could be attributed to human 
activity. Am I right that you do not agree with this 
conclusion?
    Mr. Deming. What you said, I think, has two parts. You said 
that, first of all, climate change is real and second that it 
is due primarily to human activity. I think the first----
    Senator Boxer. I didn't say this. The National Academies of 
11 nations said this.
    Mr. Deming. Right, I understand.
    Senator Boxer. Do you agree with this or not?
    Mr. Deming. Well, I agree with the first part. I don't know 
of anyone who disagrees with it because climate changes on all 
time scales.
    Senator Boxer. How about the second part?
    We all agree climate change is occurring; you are right.
    Mr. Deming. It changes; you are right. Here in Washington, 
DC, every summer, it gets hotter; in the winter, it gets 
colder.
    Senator Boxer. We are not talking about that. We are 
talking about, as you know, over time. We understand that.
    But I am asking you: Do you agree with the statement, it is 
likely that most of the warming in recent decades can be 
attributed to human activity? Do you agree or disagree?
    Mr. Deming. I think it is highly problematical.
    Senator Boxer. You don't agree or you do agree?
    Mr. Deming. Well, I don't think my answer would fit into 
either of those categories because----
    Senator Boxer. So you don't disagree with this. You don't 
disagree with this then. You don't flat-out disagree with this 
statement of the 11 nations National Academies of Sciences that 
it is likely that most of the warming in recent decades can be 
attributed to human activity. You don't flat-out disagree.
    Mr. Deming. Well, let me see if I can phrase my answer in a 
way that links up.
    Senator Boxer. Dr. Deming, please try to help me out here. 
Do you agree or disagree?
    Mr. Deming. Well, I am trying, but you keep interrupting 
me.
    Senator Inhofe. Senator Boxer, you over your time. We are 
going to come back to you, and I will give you time to give 
your answer under my time if that is all right.
    Senator Boxer. Yes.
    Senator Inhofe. I know that Senator Isakson has to go. 
Senator Isakson, why don't you go ahead and take what time that 
you need?
    Senator Isakson. Thank you, Mr. Chairman.
    I want to thank Senator Voinovich for giving me this 
opportunity to jump in. I have to be on a very important call 
in 4 minutes, but I have one very important question. I 
appreciate everything everybody said, but I heard something 
fascinating and I want to make sure I heard it right.
    Dr. Carter, did you say that the ice cores demonstrated 
that warming preceded the increases in CO<INF>2</INF>?
    Mr. Carter. Yes, and that is not controversial. There is no 
climate scientist that will disagree with that. There are a 
number of papers in Nature, Science, and other such journals.
    Senator Isakson. Before you go any further, excuse me for 
interrupting. I apologize for being rude.
    Does anybody disagree with that statement?
    Mr. Schrag. Well, I would like to say that it is a little 
bit more complicated than that, unfortunately.
    Senator Isakson. Most everything is.
    Mr. Schrag. It is. Unfortunately, I wish it weren't in this 
case. The bubbles in the ice that trap the CO<INF>2</INF> have 
actually a different age than the ice that surrounds it, and 
that is just the nature of the way they form. As a result, 
there is a big uncertainty on the exact age of those bubbles. 
It is that the error is a few thousand years. Therefore, it is 
very difficult to say exactly which. To the best of errors, 
within the error, they are essentially synchronous.
    Now, the important point that I think is misleading about 
this is that on thousand-year time scales, on many thousand-
year time scales, CO<INF>2</INF> is very much connected with, 
linked to ocean temperature. They go up together, and they go 
down together. Therefore, talking about one driving the other 
is silly. They are connected. The ocean warms. It releases 
carbon dioxide which causes more warming which warms the ocean. 
It is a cycle. They are connected.
    On shorter time scales, this isn't the case, and we are 
dealing with a shorter time scale.
    Senator Isakson. Dr. Carter, I cut you off to get that 
response. Go ahead. I am sorry.
    Mr. Carter. Well, on short time scales, it is the case. Of 
course, the statements I was making are similar to those that 
Dr. Schrag was making. They are within scientific error. So the 
best estimates by the best scientists are that the change in 
temperature precedes the change in carbon dioxide in the ice 
cores.
    Getting to the short time scale, now that is true in the 
ice cores. It is also true on the annual temperature cycle. 
David Deming referred to that, that it gets colder here in the 
Washington winter as I have noticed, having just come from the 
Great Barrier Reef, and warmer in summer.
    You all know the famous Keeling Curve from Hawaii of 
CO<INF>2</INF> which goes up like this, and that jiggle-jaggle 
in it is the annual cycle of CO<INF>2</INF>. Now when you 
compare that, you find again that temperature changes 5 months 
before carbon dioxide changes. So both on the short time scale 
and on the large time scale, that is the reality.
    But I do not disagree with what Dr. Schrag just said. This 
is a complex system. It is interacting both ways. But for what 
it is worth, temperature changes first; carbon dioxide changes 
second.
    Senator Isakson. The reason I asked the question is--and I 
am going to have to go, Mr. Chairman of all the things 
everybody said, I think your statement, Dr. Carter, and then 
your response demonstrates that this is a very complex issue of 
which far too many people have conclusive opinions as to who 
the villains are, who the contributors are, and what the 
solution is when, in fact, we need more dialog like we are 
having today to start identifying those things we can do and 
recognizing the impracticality, if that is the right word, of 
some of the things that we really can't do.
    I am a businessman. I spent 33 years in the private sector. 
I have never seen corporate America move as much as it has, 
particularly over the last 5 to 10 years, in its greening and 
its conscious effort to make constructive efforts to recognize 
there are things we can do to better improve our environment. 
But there continues to be this element of some who have all 
these absolute beliefs of the absolute solutions to this 
absolute problem when, in fact, people of your intellect.
    I am a politician. I am not a scientist. I was a barely 
good businessman. But I really think, Mr. Chairman, this has 
been very helpful today in getting out the information that we 
all agree with. There are some things that are happening, and 
there are some things that we can do, but some of the absolute 
conclusions that become facts because they get repeated over 
and over again are incontrovertibly not correct. Is that fair, 
Dr. Carter?
    Mr. Carter. I agree with that sentiment.
    Senator Isakson. I apologize for making a speech and then 
leaving, but I have got to be on a conference call in 2 
minutes.
    Senator Inhofe. Thank you. I am sorry it took so long to 
get to you, Senator Isakson. Thank you for your contribution.
    Senator Lautenberg?
    Senator Lautenberg. Thanks very much, Mr. Chairman.
    I thank each of you for expressing yourself, in some 
instances way beyond the things that we would expect from the 
observations that man makes without instruments, without the 
calculations that may confirm that something terrible is 
happening in front of our eyes. That is what concerns me.
    One of them is, and I ask this to Dr. Schrag. Are you aware 
of any reports of government scientists who have had their work 
on global warming altered or suppressed or been prevented from 
speaking to the press, or you, Dr. Oreskes? Any evidence that 
there has been an attempt?
    Mr. Schrag. I am certainly aware of what was published 
widely in the press, and I have talked with Dr. James Hansen 
about his experience at NASA. I think ultimately, he was a 
prominent enough figure that he was able to overcome that.
    Senator Lautenberg. To break through.
    Mr. Schrag. I know other scientists at NOAA of a much 
smaller reputation who have been prohibited from talking about 
or mentioning the words, global warming, when they discuss 
their data on climate science.
    Senator Lautenberg. Dr. Oreskes?
    Ms. Oreskes. Yes, the example that I know about is the 
example of the Environmental Protection Agency reports that 
were altered, which was reported on the front page of the New 
York Times by Andrew Revkin and Kathryn Seelye. I would 
encourage you to invite people from the Environmental 
Protection Agency to discuss what was done to their reports.
    Senator Lautenberg. We don't have any here with us today, 
but I do hope that in the future, we will hear from Government 
witnesses.
    There is a science writer in the major New Jersey paper. 
The paper is the Star Ledger, very widely circulated, with the 
Sunday and the daily in the many hundreds of thousands of 
readers. She was writing a story on NOAA's GFDL laboratory in 
Princeton that she, the reporter, was denied permission to 
interview an important climate scientist named Richard 
Wetherald.
    Should NOAA or any other Government Agency be preventing 
their scientists from speaking to the press and the public 
about global warming? Can any of you think of any logical 
reason to block off that contact with the press?
    Ms. Oreskes. If I might respond to that, obviously, no. But 
if I could add a historical point on that, Professor Wetherald 
is one of the most important people in the history of climate 
science because he was one of the pioneers of the development 
of global climate models. So if you want to understand what 
climate models can and can't tell us, Professor Wetherald would 
be one of the best possible people you could talk to about that 
question.
    Senator Lautenberg. Do any of you know Dr. Wetherald at 
all? Do you know his reputation?
    Dr. Schrag, do you know who he is?
    Mr. Schrag. I taught at Princeton for a few years. I lived 
in Princeton, NJ, for 3\1/2\ years and worked closely with 
people at GFDL. It is a fantastic outfit. I believe they should 
all be encouraged to speak to the press.
    Senator Lautenberg. Dr. Carter, in Australia, do they stop?
    Mr. Carter. In the supporting papers, Senator, you will 
find I have given two examples of that. Of course, they are in 
Australian science so they are not primarily of concern to the 
committee except as an example.
    I would respond to your question. Why would an Agency head 
want to restrict? Did you ask that question.
    Senator Lautenberg. Yes.
    Mr. Carter. Because that Agency head has a primary 
responsibility for garnering next year's budget.
    Senator Lautenberg. That is a very interesting comment. So 
to withhold truth is an acceptable instrumentality to restrict.
    Mr. Carter. No, I didn't say that was acceptable. What I 
said is I can understand why that is a pressure on an Agency 
chief.
    Senator Lautenberg. Someone of your esteem, sir, when you 
say you can understand, it means that it is not so bad.
    Mr. Carter. Oh, well, that is not my intention at all. Let 
me say I think it is very bad, but I can understand why a 
manager in that situation ends up trying to restrict his staff 
talking to the press, and that happens the whole time in major 
Government organizations, scientific organizations, certainly 
overseas.
    Senator Lautenberg. Dr. Oreskes or Mr. Gainor?
    Mr. Gainor. I am a huge believer in the First Amendment, 
and I am a career journalist. So I certainly think that the 
people in the Agencies, I would love for them to talk to the 
media.
    But I would also at the same time like to challenge the 
point about Dr. Hansen who ended up on more TV and print media 
than I think pretty much any of the climate scientists that 
have been mentioned here today.
    Senator Lautenberg. He was forced. He was forced into the 
public eye. He wanted to tell the truth, and they didn't want 
him to. We have seen redactions around here, EPA reports, Dr. 
Oreskes, that say don't tell it like it is; tell it like we 
want you to tell it which is quite different especially coming 
from a distinguished group of scientists as you are. I would 
think that at any cost, dear God, tell the truth. Tell it as 
you see it.
    Ms. Oreskes. If I could just say one more thing, if I could 
respond to something that was in Dr. Carter's written 
testimony, which was that he raised the question of ad hominem 
attacks and libel restraints. I would like to make the point 
that this is issue not only for Government scientists but for 
academics and others as well.
    Since my paper was published in Science magazine in 2004, I 
have received hate e-mail. I have received threatening phone 
calls. I have been threatened with lawsuits by people who deny 
the scientific evidence of climate change. So there has been 
enormous pressure on academics not to speak up on this issue, 
and it is not just a matter of Government science. It goes 
across the board.
    Senator Lautenberg. Dr. Carter, I had the privilege of 
visiting Australia on my way to New Zealand, on my way to 
Antarctica, on my way to the South Pole. My principle mission 
was to meet with our National Science Foundation people and see 
what they saw, what they believed was happening.
    I don't know at what point, Mr. Chairman, there is a 
conclusion drawn from things that you feel, humans feel, see, 
changes in populations of particular species, the diminution of 
the penguin population and, as I mentioned before, the polar 
bear population.
    It was suggested that former Vice President Al Gore did 
this film on his way to another chance at the White House. See 
it before you make that kind of comment and debate it honestly. 
Go to the public and just say: This is wrong. That is wrong. 
The fact is that these ice flows are in your imagination, bad 
dreams for kids and just say seeing what you see is not really 
so as opposed to a discussion that gets us into relatively 
minute details which are important in the science world.
    But on the other hand, do you deny that there is a fire in 
the house and discussion the origination of the fire and how 
high the temperature is going to be before you tell everybody 
to get out of there? I don't think so.
    So, Mr. Chairman, we have to continue to search through 
these problems, and I appreciate your time.
    Senator Inhofe. Thank you, Senator Lautenberg.
    Senator Voinovich.
    Senator Voinovich. Thank you, Mr. Chairman.
    As I have mentioned, I have sat through lots of these 
hearings. Senator Boxer, I understand we have two subcommittees 
now. One is going to be talking about private contributions to 
climate change and public contributions to climate change.
    The real question for me is: What do we do about it that is 
practical, that makes a difference?
    I would like to read and then have the panel comment on a 
couple of things. One of the things we have debated here is cap 
and trade. The European Union introduced a carbon cap and trade 
system in October 2001 which granted carbon permits to 12,000 
powerplants, factories, oil rigs, and refineries. Each permit 
represented the right to produce a ton of carbon dioxide and 
could be traded like any other commodity.
    The system was supposed to motivate companies to reduce 
carbon dioxide and sell their extra permits for profit, but 
according to an article published by Bloomberg England, the 
carbon trading system has led to huge utility price increases 
in Europe's two largest economies--Germany, prices up 61 
percent; England, up 66 percent. These price jumps were higher 
than the increase of crude oil traded in the London Stock 
Exchange, up 46 percent.
    The question is: Why hasn't this generated more attention 
with the mainstream media or is it that it contradicts some of 
the things that are being proposed in this country in terms of 
a cap and trade proposal to deal with reducing greenhouse 
gases?
    Again, I want everyone to understand. I believe that we see 
warming. I am not really sure how much is due to natural causes 
or to manmade causes, but I believe that manmade causes do 
impact on it. The issue is what do we do from a responsible 
policy perspective to deal with the problem?
    So that is one thing, and I want to read one other. I would 
like to one day, Senator Boxer, have an opportunity to let the 
Administration come in here and talk about what they have done 
about climate change.
    Senator Boxer. They will be on the very first group that we 
have before us.
    Senator Voinovich. They joined with China, India, 
Australia, and South Korea to form the Asia-Pacific 
Partnership, and I think personally engaging these nations 
which have the fastest growing economies and sharing our 
technology is one of the best way to address the problem of 
climate change.
    During the debate of the 2005 Energy Act, I worked on with 
Senator Hagle to add a climate change amendment which 
authorized $2 billion in direct loans, loan guarantees, and 
other incentives over 5 years for the adoption of technologies 
that reduce greenhouse gas intensity while directing a Federal 
effort to implement a national climate change strategy. These 
funds would be used to develop new technology to limit 
greenhouse gas intensity and would then be exported to 
developing nations that are burning fossil fuel at increasing 
prices or increasing rates.
    What role do you see technology transfer and development 
playing as the United States and the world move forward?
    Why does this get so little coverage when we know that if 
we are ever going to reduce global carbon emissions, that 
technology development must be the focal point of that 
strategy?
    What it is getting to is the real issue of if you have a 
problem, how do you go--maybe I was a mayor too long or a 
Governor. How do you practically deal with these things and 
invest money and get a return on your investment?
    We just talk about the problem and it is getting worse and 
so on and so forth. But the real issue is: How do we do 
something about the problem?
    Why can't we get more information out about some of these 
things that people are doing, what works and doesn't work, and 
come back with some practical recommendations on what it is 
that we can do here in Congress and what the world can do to 
impact responsibly on this problem?
    Dr. Schrag?
    Mr. Schrag. Senator Voinovich, I think that is a very good 
question. I think the question of what to do about climate 
change, it is about time that we got to that question. While I 
think that a cap and trade is a good way to start perhaps and 
it may be politically inevitable in the Congress, what cap and 
trade does is just let the market decide where the cheapest way 
to reduce carbon emissions. Markets are wonderful in many 
cases, but they don't consider certain things like how certain 
areas will be impacted preferentially to other areas, things 
that are real decisions that you are going to be faced with.
    I think technology is an essential part of the answer. We 
have to become more energy efficient, that is, do the same 
things we are doing now but using less energy. We have to 
develop essentially decarbonizing our fuel sources, and we are 
not going to be as able to get away from fossil fuels. As you 
know, coal is an essential part of what drives this country, 
and it will continue to be for the century. Our Department of 
Energy is working on ways of reducing carbon emission from coal 
plants by carbon capture and then storage in geologic 
repositories. Unfortunately, the funding for that is so low, we 
need to see test projects done now, so that 10 years from now 
we can roll it out on a bigger scale.
    So the sorts of things that you suggested, I think, are 
very much in line with what is needed in leadership from this 
Government.
    Ms. Oreskes. May I join in? Thank you.
    At the University of California, I teach the history of 
20th Century science including the history of the Manhattan 
Project, and I think there is a useful analogy there. In 1942, 
the U.S. Government realized it had a big problem, and that 
problem was the threat that the Nazi Government might build an 
atomic bomb. In response to that threat, the U.S. Government 
mobilized the combined resources of physicists, chemists, and 
engineers across the United States, and from Europe as well, 
and invested unprecedented amounts of money into the Manhattan 
Project to create a new technology, a technology that had never 
existed before to address an immediate, a clear and present 
danger.
    I think there is a useful analogy there. We have a clear 
and present danger. We pretty much have all agreed upon that 
today. The question with which I agree 100 percent is what to 
do about it, and I am in complete agreement with you that the 
centerpiece of that strategy must be based on technology. So I 
believe that one thing that the U.S. Congress can do is the 
same thing that it did in 1942, which is invest money into the 
engineering resources that will be required to develop those 
new technologies.
    Mr. Gainor. Senator, you are also trying to get at how to 
get the word out. Essentially, there are two problems with the 
media as far as this story goes about some of the things you 
are talking about. One of them is quite simple; the scare story 
is an easier one to tell. There is a lot of media group think 
on this issue, and I thank Senator Boxer for proving my case 
for me. It is really quite simple.
    But the other problem is it is a very technical issue, and 
trying to get journalists to tell something in detail is also a 
challenge. It doesn't make good sound bites in the evening 
news. You will see the morning shows will just give you 5 
seconds of a new study that comes out. The media are letting us 
down because they are trying very heavily on the scare issue, 
but then the other half of the story, it is just difficult to 
tell. Only print media are really well equipped to do that, and 
they are not doing it either.
    Mr. Deming. Senator, perhaps I was napping earlier, but if 
I just heard your question to the panel, it was what is the 
responsible thing to do, and it seems to me the responsible 
thing for us as a society now to do is to encourage more 
greenhouse gas emissions. I find myself in opposition to some 
of the other members of the panel here, I think because I have 
a different perspective. I have the geologic perspective, and I 
think that is a proper perspective when you are dealing with 
natural problems.
    We know that the natural state of Earth's climate for the 
past million years is an Ice Age. Ninety percent of the last 
million years has been spent in an Ice Age during which not 
only is the climate colder, it is also more variable. We are 
now in an unusual period. We are in an interglacial period 
where the climate is warm which is good and it is also 
relatively stable. The greatest danger that we face right now 
is moving into another Ice Age.
    When the Little Ice Age took hold in Europe at the 
beginning of the 14th Century, there were massive crop 
failures. There were famines. People resorted to cannibalism to 
stay alive. We have never had a famine in the United States of 
America.
    Mr. Carter. Mr. Chairman, could I just support that? That 
is indeed the geological perspective. Can I just tease out two 
differences? I spoke of the risks of cooling earlier. There are 
two different risks. The one that Dr. Deming just talked about 
is the longer term glacial-interglacial risk. A higher risk at 
the moment is another Little Ice Age.
    You should be aware, Senator Voinovich, that the NASA about 
6 months ago issued a statement that they predict over the next 
couple of decades, we are likely to head into another Little 
Ice Age. That was supported by a piece of research from the 
Russian Academy of Sciences. So there are two quite respectable 
Agencies giving that advice at the moment, that the most likely 
event over the next 20 years is not continued warming driven by 
greenhouse gases but cooling driven by lack of solar activity.
    Mr. Schrag. Excuse me, that is not the consensus.
    Mr. Carter. I didn't say it was the consensus. I said it 
was advice that had been given.
    Mr. Schrag. Fair enough.
    Senator Inhofe. I am afraid time has expired for this 
round. We will go ahead and start with our second round of 
questions.
    I agree with Mr. Gainor. Senator Boxer, I appreciate your 
exhibits that you used because that does make my case. The 
point I am saying is that we have had such a bias in the media, 
and that is what this hearing is about, and I think that does 
pretty well make the case.
    Dr. Deming, I would like to ask you what you think of Dr. 
Oreskes' claim that 100 percent of the scientific consensus is 
on the global----
    Ms. Oreskes. I didn't claim 100 percent.
    Senator Inhofe. Let me read your statement here. The answer 
surprised me. Not one scientific paper in the random sample 
disagreed with the consensus position.
    Ms. Oreskes. In my analysis; I am not saying that there is 
no one on this Earth.
    Senator Inhofe. OK, that is fine. I am asking Dr. Deming.
    Mr. Deming. I read Dr. Oreskes' study. It was published in 
Science, and I am also under the impression that what she said 
was 100 percent.
    I think there are some problems with the study. I think 
there are three primary problems. If we have time, I will 
describe all of them.
    First of all, I am 52 years old now, and it is my 
experience in my life, as probably many people here, that when 
you get a large group of people, if you get 900 scientists or 
any group of 1,000 people together, you are not going to get 
100 percent agreement on anything. In fact, the only other 
examples besides Dr. Oreskes' study that I know of, of 100 
percent agreement, was the last election in Iraq where Saddam 
Hussein received 100 percent of the vote. Now, if you believe 
that was an honest election, perhaps you also believe that Dr. 
Oreskes' study was valid.
    However, I think the fact that she got the results she did 
should have suggested to her that it was an artifact of her 
methodology.
    Senator Inhofe. Dr. Deming, let me again try to stay within 
the timeframe here. I said I would let you respond to Senator 
Boxer's question that she was trying to get a yes or no. What 
would be your best answer to that question?
    Mr. Deming. I believe she asked me if I agreed with the 
statement it was likely that the majority of the warming that 
has been observed is due to human activity, and I guess I would 
say I disagree.
    Senator Inhofe. All right, thank you very much.
    Mr. Deming. Simple answer.
    Senator Inhofe. Yes, Dr. Schrag, again getting back to the 
politics of this, no; I will save that until last here.
    Dr. Carter, you commented about some of the things in the 
past, the cooling periods and the fact that the temperature 
sometimes or always precedes the release. You guys are smart, 
and we are not up here, and we don't have the background you 
have. When I look and see--and I don't think you disagree--that 
in recent history, the largest discharge of CO<INF>2</INF> took 
place in the middle forties right after World War II. As I 
understand, it was something like an 85 percent increase.
    Now, that being the case, one would think that would have 
precipitated a warming period when, in fact, it precipitated a 
cooling period. Do you agree with this? Would that be a good 
example to use, Dr. Carter?
    Mr. Carter. That is a correct statement. Whether it is a 
good example to use is a separate question. The explanation for 
that then, because the implication under the greenhouse 
hypothesis, is that because we have had a big burst of carbon 
dioxide, we should have had warming as a result, and plainly we 
don't see that. So you can view that as a test of the 
greenhouse hypothesis, and you can say quite fairly the 
greenhouse hypothesis fails that test.
    But then you may seek other explanations. The explanation 
that a large number of people have come to and this word, 
consensus, keeps coming up. I do not believe in the use of 
consensus of science. Science is not about consensus. But 
nonetheless, a significant number of scientists have argued 
that it is due to aerosols in the atmosphere over that time 
which after the War were also increasing because of industrial 
activity, and they have the function of reflecting the incoming 
radiation from the Sun, and therefore they cool the Earth. By 
happy coincidence, that just explains the temperature curve.
    Senator Inhofe. All right, thank you very much.
    One real quick yes or no question, Dr. Oreskes, for 
clarification, in your original Science magazine study, I think 
you made a correction, and I just want to see if this is right. 
You claimed that you use the search term, climate change, and 
found 928 papers, but my understanding is that using that 
search term, climate change, pulls up almost 12,000 papers and 
you later published a correction noting that error, is that 
correct?
    Ms. Oreskes. That is correct. It was a typographical error 
on the part of Science magazine that the word, global, was left 
out of the original article, and it was corrected shortly 
thereafter.
    Senator Inhofe. Very good; I am coming down toward the end.
    I would only like to say, Mr. Gainor, some might say that 
you are influenced by being a part of the media, a part of the 
pro-business and anti environment and so forth. Since that 
accusation comes occasionally, how would you respond to that?
    Mr. Gainor. Well, they say Al Gore has always focused on 
his carbon footprint, and yet he flies around the world in what 
even he would say is harmful to the environment. He rides in an 
SUV and owns several houses. I live in an apartment; I walk to 
work; and I took Metro most of the way here today and would 
have finished the trip if it hadn't been for problems there.
    You don't have to be in agreement with other members of 
this committee to be pro-environment, to care about what 
happens to the Earth. Unfortunately, that is the bias that has 
crept into the media, that somehow any disagreement means that 
you are a bad person, and that is patently false.
    Senator Inhofe. Thank you very much.
    A comment was made by Dr. Schrag, and I appreciate that 
very much, concerning the lack of science behind the movie that 
was produced by Al Gore. I would like to read something.
    Mr. Schrag. Excuse me, that wasn't the movie produced by Al 
Gore. That was the movie, The Day After Tomorrow.
    Senator Inhofe. Oh, The Day After Tomorrow, very good.
    I would like to read something here. Dr. Richard Lindzen, 
who is the Alfred P. Sloan Professor of Atmospheric Science at 
MIT in an op-ed on June 26 of this year in the Wall Street 
Journal said, and he was criticizing Al Gore in this case, in 
the scare tactics and so forth. ``A general characteristic of 
Mr. Gore's approach is to assiduously ignore the fact that the 
Earth and its climate are dynamic. They are always changing 
even without any external forcing. To treat all changes as 
something to fear is bad enough; to do so in order to exploit 
that fear is much worse.''
    I believe this has been a political exploitation. I am only 
sharing that with you and not asking you to respond.
    Senator Boxer, before you came in, I read my opening 
statement which ended with several people who had been very 
strong believers back in the middle nineties about manmade 
gases causing global warming. One of them I used was a 
scientist, Claude Allegre, a French geophysicist. You mentioned 
several times the Academies of Sciences. He is on both the 
French and the United States Academies of Sciences, and his 
quote has been that the ``alarmism has become a very lucrative 
business for some people. In short, their motive is money.''
    I agree that a lot of the motive is money. I would only say 
that when you look at the publications and you see, as I 
mentioned before, the pitiful polar bear stepping on the last 
ice cube in Time Magazine and be worried; be very worried. 
Believe me, this is something that sold a lot of copies. We 
understand that. But then how do you equate that with their 
headlines back in 1975 that another Ice Age is coming and we 
are all going to die?
    Last, put that chart up. Let us assume that I am wrong on 
this, that all this stuff is proven, it is all right, and we 
have to do something. Al Gore enlisted the support of a 
scientist named Tom Wigley back during the time that he was 
Vice President, and he said if all countries of the developed 
world--not China and India, and some of the rest of them--all 
the developed nations signed onto and complied with the 
emission requirements of Kyoto, how would that lower the 
temperature over the next 50 years?
    His answer was this chart. This is not my chart. This is 
Dr. Wigley's chart. He said it could reduce it by as six one 
hundredths of one degree centigrade. Does anyone want to 
comment on that?
    Mr. Schrag. Yes, Mr. Chairman, that is absolutely correct. 
I don't think anybody who negotiated Kyoto, and by the way, I 
am not a fan of Kyoto for a variety of other reasons that we 
don't have to talk about, but Kyoto was viewed as a first step 
which would be followed by a series of additional steps that 
would ultimately reduce emissions by a substantial amount more. 
So showing that Kyoto by itself would only make a small 
difference is sort of irrelevant to the point because 
ultimately Kyoto was only viewed as a small step.
    Senator Inhofe. Yes; I don't want to interrupt you, but I 
would say I agree with that. But it aggressively forces a 
reduction in CO<INF>2</INF>, and anything that comes after this 
would have to be more aggressive. I will go back to some of the 
financial analyses as to what would happen to this country, 
this great machine that we call America if, in fact, we were 
even more aggressive than that.
    Now I will let you go ahead and take an extra 2 minutes, 
Senator Boxer. I have tried to be very accommodating, and you 
are recognized at this time.
    Senator Boxer. Thank you so much.
    Where to start? I will start with you, Mr. Gainor, because 
I understand you worked for the Washington Times.
    Mr. Gainor. Yes, I did, Senator.
    Senator Boxer. You know I am shocked that a reporter would 
really take the position to criticize a free press. I am 
stunned by it and shocked by it.
    Now I have been skewered by that paper many a time, and I 
fully expect to be skewered by that paper again. You know what? 
That is the breaks. I don't have a committee hearing talking 
about how I am skewered by the Washington Times, so let us get 
over it. It is a free country, and the papers are going to 
report the truth as they see it.
    Then you said, I disproved my own case. I proved my case. 
What I proved by going through these articles that you seem to 
shun is that in the vast majority of cases, almost every one, 
they are quoting reports, they are quoting organizations, they 
are quoting scientists, and most of all these articles, they 
are quoting the Bush administration. So how you can argue that 
that is inappropriate is beyond me.
    I just hope that a message goes out from this hearing that 
we treasure a free press. It may annoy us. Lord knows, it 
annoys me many times. But we treasure a free press, and I hope 
that is what goes, whatever they write on their opinion pages. 
Yesterday, the Wall Street Journal skewered Olympia Snowe and 
John Rockefeller--it was the day before yesterday--because they 
had the temerity to write a letter to the big oil company and 
say: Why are you funding these anti-global warming theories? We 
think it is time to do something about this rather than deny 
it.
    And talk about big bucks, do you want to talk about the big 
bucks on the other side? That would take a whole hearing in and 
of itself.
    I want to make sure that Senator Voinovich understands 
because he hasn't really seen the list of subcommittees. They 
deal with solutions to the problem, solutions to global 
warming, including private sector and consumer solutions. 
Senator Lieberman will work on that, and I am going to be 
looking at in my subcommittee--and I am sure all of us will do 
this on the full committee--what the public sector is doing 
because there have been, I think it is 13 States now that have 
actually acted. Waiting for us to act, they have decided is 
just too risky, and they have gotten out there. That means from 
Governor Schwarznegger, a Republican Governor, to many other 
Republican and Democratic Governors in the West and all 
throughout the country. We will hear from them, and that will 
be exciting.
    This is what I would like to do in closing. First, I really 
want to thank all of you for coming today. You know you are in 
a tough environment here. There is a lot of tension, and I 
understand for scientists in particular. The media guy is used 
to it, but the rest of you are not. So I want to thank the four 
scientists. I think you have all been just terrific for coming 
and in your expression of your views.
    What I am going to do in my last few minutes here is read 
you--you have to listen carefully, just the scientists in this 
one--a list of statements made by various organizations. If you 
believe that these statements have no reasonable scientific 
basis, so it is not just a yes or no, Dr. Deming. If you 
believe that these statements have no reasonable scientific 
basis, I am asking you to put your hand up. Then at the end, if 
I have time, I will ask you to explain why.
    I am going to start with the U.S. National Academy of 
Scientists: It can be said with a high level of confidence, 
that global warming meaning surface temperatures were higher in 
the last few decades of the 20th Century than during any 
comparable period during the preceding four centuries.
    Does anybody believe these statements have no rationale?
    OK, next, 11 National Academies of Sciences: It is likely 
that most of the warming in recent decades can be attributed to 
human activities. We urge all nations to take prompt action to 
reduce the cause of climate change.
    Raise your hand.
    Mr. Deming. Could you repeat that?
    Senator Boxer. No, you are not being asked.
    Mr. Deming. I am sorry. I don't understand what we are 
doing here.
    Senator Boxer. Just the scientists are being asked a 
question to respond. I think you would want to raise your hand 
because you already said you disagreed with it before.
    We will go on. The American Geophysical Union, an 
organization representing more than 45,000 scientists from 140 
countries who are experts on Earth and science: Human 
activities are increasingly altering the Earth's climate.
    Raise your hand if you believe that these statements have 
no rationale, no rationale. Did you raise your hand?
    Mr. Carter. Do they mean global climate or local climate? 
It is completely ambiguous.
    Senator Boxer. We are talking about global warming in this. 
All of these relate to global warming. I will repeat it again. 
American Geophysical Union: Human activities are increasingly 
altering the Earth's climate.
    Raise your hand if you don't agree with that statement.
    U.S. National Assessment Synthesis Team, a Federal Advisory 
Committee, the U.S. Global Change Research Program: Humanity's 
influence on the global climate will grow in the 21st Century.
    Ad hoc study group on carbon dioxide and climate report 
requested by President Carter, delivered to the National 
Research Council of the National Academy of Scientists: Changes 
will result and no reason to believe that these changes will be 
negligible. A wait and see policy may mean waiting until it is 
too late.
    That is what they wrote? Anybody disagree?
    Recent statements from industry, Shell Oil: It is a waste 
of time to debate it. Policymakers have a responsibility to 
address it.
    If you disagree with that, raise your hand.
    Mr. Carter. Address what?
    Senator Boxer. Shell Oil, global warming; this is all about 
global warming climate change. All right, that is interesting.
    Next, British Petroleum: Companies composed of highly 
skilled and trained people can't live in denial of mounting 
evidence gathered by hundreds of the most reputable scientists 
in the world.
    This is all about global warming and climate change, OK. 
Wal-Mart: Global warming is real, now, and it must be 
addressed.
    Anybody disagree with that?
    Mr. Deming. I am really lost here as to what you are doing 
because----
    Senator Boxer. I am reading to you----
    Mr. Deming [continuing]. I am supposed to participate, and 
I don't know if I agree or disagree or if I am being forced 
into one position or another.
    Senator Boxer. Let me repeat what I asked you to do, sir. I 
hope I am not being unfair. I said if you believe that these 
statements have no rational scientific basis, please raise your 
hand. We are in a very big dispute in this committee between--
--
    Mr. Carter. Mr. Chairman?
    Senator Boxer. Let me just finish here. I want your help 
here. We have a Chairman who says this is all a hoax, all 
right, and we have right now a member, a senior member here 
today who believes it is not a hoax.
    Senator Inhofe. No, let us be sure and characterize my 
statement correctly. We are talking about yes, there is 
increase in temperature. Whether it is the whole globe or not, 
I would disagree because in the Southern Hemisphere, there 
doesn't seem to be a change and the last time I checked, that 
was part of the world.
    But the statement that I have made many times before is we 
recognize there are increases and decreases that have taken 
place, but do not believe that it is due to the cause that you 
believe it is in terms of the release of anthropogenic gases. 
So that is my statement. I don't like to have it shortened.
    Senator Boxer. It may be that the press has misquoted you, 
but that is fair. We are arguing with the press anyway.
    The point I am making is, and I will stop here because 
obviously our witnesses have refused essentially to participate 
in this, and I think there is a reason. I think that everything 
I am reading has merit, has a rational basis. Nobody really has 
disputed that.
    I will continue and I won't ask you to participate in this. 
If you can't do it, I think frankly it says you are not so sure 
of yourself. That is all I am saying. But bottom line here, we 
have DuPont saying: We came to the conclusion, the science is 
compelling and action should be taken.
    We have Swiss Re, the 14th largest insurance company 
saying: Risk of climate change is real. It is here. It is 
affecting our business today.
    We have Fitch Ratings Limited: Global warming is on the 
radar screen of a lot of financial institutions.
    We have AIG, the largest insurance company in the world, 
saying: Climate change is increasingly recognized as an ongoing 
significant global environmental problem with potential risk to 
the global economy and ecology and to human health and well-
being. AIG recognizes the scientific consensus that climate 
change is a reality and is likely in large part the result of 
human activities that have led to increasing concentration of 
greenhouse gases in the Earth's atmosphere.
    I will conclude here. I am getting close to my time. 
Goldman Sachs: We support the need for national policy.
    So there is consensus, gentlemen and ladies. There is 
consensus. Now there are a few people on the edges, of course. 
That is fine. By the way, they should be listened to. I agree 
with you. That is important that they be listened to and that 
Dr. Carter and Dr. Deming be listened to. But we can't, as 
policymakers, it seems to me, turn our backs on the 
overwhelming scientific evidence and opinion as evidenced in 
the Bush administration's own statements on this as late as 
December 6, when the CDC declared that this is a big problem.
    I feel very sad that we have spent time attacking the press 
today. I am glad we didn't just spend all our time doing that. 
I urge the press, you just do what you think is right. You 
report the news as you see it, and you can have any opinion you 
want. Stick it on the opinion page like the Wall Street Journal 
did.
    Senator Inhofe. Thank you, Senator Boxer.
    Senator Boxer. I think that is really very key, and I say 
that as a former journalist.
    Thank you.
    Senator Inhofe. I believe most of those things have been 
answered on the question of consensus.
    Senator Voinovich.
    Senator Voinovich. We are talking about global warming, 
aren't we? We are talking about the media's influence on the 
issue, and there is no question that because of the media, the 
American people are more aware of this problem than they would 
be if the media wasn't involved with all the articles that are 
being written about climate change and so on and so forth.
    The question I have for the panel is this: If we look 
around the world and we see China and we see India and other 
developing nations and we know that they are going to be 
emitting a lot more of this stuff than they are today, what 
kind of environment do we have in the media in China, for 
example, or in India because in all likelihood actions will not 
be taken by those governments unless there is some public 
pressure to do something about it?
    It is expensive for those business that are emitting and 
also expensive in terms of the general economy of the countries 
that they are going to have to allocate more of their GDP to 
dealing with this problem than they are now dealing with it 
today. Where are we globally on this issue?
    I have talked to Tony Blair about this. He talks about 
Kyoto; you have sign it. The fact of the matter is that first 
of all, I think, Dr. Schrag, you pointed out that this is just 
the beginning and it is not going to really make a big 
difference if Kyoto goes forward as the first step. The fact of 
the matter is the countries that have signed aren't even going 
to make the deadlines that they agreed to sign? So where are 
we?
    Mr. Schrag. I think the United States has a key role to 
play, and I think the lack of progress on the countries meeting 
their Kyoto obligations is partially a result of the United 
States not taking a leadership role. We are the technological 
innovators of the world, and we have a critical role to play.
    The good news is the Chinese Government cares about climate 
change. Colleagues of mine at Harvard are working with top 
members of the Chinese Government. They are very concerned 
about the hydrologic changes in China. They worry about a 
peasant uprising, and they are worried about feeding their 
people. Therefore, they worry about climate change.
    However, their official position is they will follow as 
long as the U.S. leads, and I think that is very important. I 
think we have an opportunity to lead here, and we have an 
opportunity, our American businesses have an opportunity for 
huge investment opportunity in rebuilding our world's energy 
infrastructure. That is something that can't be missed. I think 
if you talk to leaders from GE, they will tell you that there 
are huge opportunities.
    I also want to say that there is a window of opportunity 
here. We have about 20 years or so when these rapidly 
developing countries are building powerplants like they are 
going out of style and accumulating cars and infrastructure. 
Once they are finished, it will be much more expensive to 
rebuild it. Therefore, things we do today are going to be much 
cheaper than waiting 20 years and trying to catch up.
    Mr. Gainor. Senator, you were talking about the state of 
journalism in other nations. I have had actually a fair amount 
of contact with Chinese journalists over the last, I guess, 15 
years coming into this country. To characterize China's 
journalist situation as anything other than government-
controlled would be inaccurate. When you are talking about what 
the media will do in that country, it will not put pressure on 
that government do to anything because it is not a free 
country. India is different.
    But, in general, the American concept of media is 
relatively unique in the world, the concept which I hugely 
support, contrary to Senator Boxer's comments, the concept of 
freedom of the press where American media are supposed to be 
neutral and supposed to not take a position, not to be 
advocates for one side or the other. That is relatively unique 
to America. If you look around the world, much of what is 
reported on this issue in other countries is reported by a very 
activist press that is often politically affiliated. So you 
can't look at that information without a jaundiced eye.
    Mr. Schrag. Mr. Gainor, they are supposed to be accurate, 
not neutral. There is a difference. There is a very important 
difference there.
    Mr. Gainor. There is a difference. They should always be 
accurate. But to skew reporting decidedly where you undercut 
people who say one thing, where you don't report important 
facts, or you don't report people who actually dare to disagree 
with your group think, that is not accurate either. That is 
creating a false painting. You are including lots of important 
and maybe accurate data, but by what you leave out, you create 
an inaccurate picture.
    Ms. Oreskes. Can I jump in here because we have actually 
facts about this question of bias and inaccuracy on the 
coverage of global climate change?
    My colleagues at the University of California, Max and 
Jules Boykoff, did a study of print media coverage of the 
climate issue, and what they were able to demonstrate was that 
the press bent over backwards to give space to dissenting 
opinions and that, in fact, the space that was given to the 
dissenting opinions, the minority opinions, were actually quite 
out of proportion to their population in the scientific 
community. So I think that if the press has been biased here at 
all, it has been biased in the direction of giving attention to 
a very small number of people who are outside the mainstream of 
scientific opinion.
    Mr. Gainor. I will be happy to debate that with a study 
that I personally did about media coverage of climate change 
which showed just the opposite in talking about how the 
networks covered climate change, overwhelming one-sided, 
including very few experts from the other side, and when they 
did--with the exception of Bob Jamieson from ABC News who did a 
good job--almost universally they reported it in a one-sided 
way.
    You can have dueling studies all you want, but the reality 
is all you have to do is turn on the network news and look how 
they covered Hurricane Katrina and the linkage of Hurricane 
Katrina to global warming. I have actually a quote from that, 
from Good Morning America, where: ``Scientists have long warned 
that global warming could make Hurricanes increasingly 
destructive. They couldn't prove it until now.'' They can't 
prove it even now, but it doesn't stop the networks from 
reporting it. As much as I am a First Amendment huge believe, 
these networks--ABC, CBS, and NBC--do use the public airwaves. 
So it is right that we at least discuss this in the bully 
pulpit and try to encourage them to do a better job.
    Ms. Oreskes. But, again, to bring some facts into this 
discussion, it is only in the last year or two that the media 
have really stopped giving a lot of attention to skeptics, 
contrarians, deniers, whatever you want to call them. But if 
the media had represented the scientific community in an 
accurate way, they would have done that probably about 10 years 
ago.
    Senator Voinovich. Chairman, I have no further questions.
    Senator Inhofe. Thank you.
    Mr. Carter. Mr. Chairman, may I make a final comment 
regarding some of the things that Senator Boxer said and 
something Senator Voinovich said?
    Senator Inhofe. Yes, you can do it on his time. He has 
another minute.
    Mr. Carter. The difficulty with the quotations that the 
Senator was reading to us is that many of them were not from 
science bodies; they were actually from commercial 
organizations. That doesn't condemn them outright obviously, 
but it means they are not being produced by bodies with science 
credibility. The second problem is because they are chosen 
quotations, nearly all of them are ambiguous. They may not be 
ambiguous in full context, but they are ambiguous as quoted.
    That brings me to you, Senator Voinovich. When you say we 
are all here today to talk about global warming. Now, of 
course, we are, but I am astonished that there has been no 
attempt by anybody to tease that out. No scientist doubts that 
climate change happens. No scientist doubts therefore that 
global warming occurs from time to time.
    But what we are actually here today to talk about is not 
global warming. It is human-caused global warming, and that 
distinction, pedantic as it may seem, is absolutely critical in 
the discussion. The press confused that, not I believe by 
intention but just because that is the way it is, because 
everybody knows we are talking about global warming, that it 
means human-caused global warming. Well, it doesn't.
    To a scientist, global warming means the temperature is 
getting warmer. Why it is getting warmer, that is the question. 
The degree to which the human contribution and nearly all 
scientists will acknowledge there is a human contribution to 
that, but the degree of that with respect to natural climate 
change remains completely unknown and unquantifiable. That is 
where the argument is.
    Ms. Oreskes. May I make a very brief response?
    Senator Inhofe. First of all, in fairness to Senator 
Lautenberg, he is recognized at this time, and I will try to 
give each one of you a little bit of time when it is over.
    Senator Lautenberg. I am willing to have comments repeated 
when Senator Boxer--is she gone? She is finished, OK. I am 
sorry the comments that are critical of her statements are not 
being heard by her.
    Senator Inhofe. Well, Senator Lautenberg, I have to say 
that there was an attempt by almost each member of this panel 
to respond and they were unable to do it. I think it is only 
fair that you let them. They have come a long ways, 
particularly Dr. Carter.
    Senator Lautenberg. Yes, well, we heard. We are pleased 
that they are here, even though there might be some differing 
views and a lot of them are contradictory.
    Let me start off by asking the panel whether or not, I am 
sorry to do this, Mr. Chairman, but I feel compelled to. So I 
will just conclude by saying, wake up America. With all the 
hysteria, all the fear, all the phony science, could it be that 
manmade global warming is the greatest hoax ever perpetrated on 
the American people?
    I will end with the comment, the words that I believe it 
is. Our distinguished Chairman made that speech in July 1903, 
2003, I am sorry.
    [Laughter.]
    Senator Lautenberg. I remember in 1903, we weren't worried 
about global warming.
    Senator Inhofe. Since you are correcting your dates there, 
let me also say I made that on the Senate floor of the Oklahoma 
State Senate in 1975, referring to the coming Ice Age.
    Go ahead.
    Senator Lautenberg. Let us see, OK. Well, it says 03 here, 
so I will throw this away.
    Now, Dr. Deming, I am not Senator Boxer's clone, I promise. 
But in keeping with that, can I ask each one of you your view 
of whether or not this is a bad joke perpetrated on the 
American people, a hoax?
    Mr. Deming. Global warming?
    Senator Lautenberg. Yes.
    Mr. Deming. Well, I wouldn't use the same word that Senator 
Inhofe used. I wouldn't use hoax because hoax implies it is 
deliberate.
    Senator Lautenberg. Implies?
    Mr. Deming. Hoax implies it is a deliberate attempt to 
deceive. Instead, what we are dealing with is a psychological 
phenomenon. It is a mass delusion.
    Earlier, you had mentioned or used the phrase something 
terrible is happening and fire in the house. We have a lot of 
problems in this country and worldwide.
    Senator Lautenberg. You are going to be using more of my 
time than I am feeling applies here.
    Mr. Deming. Let me.
    Senator Lautenberg. Well, then we finished with the 
description of hoax, I think.
    Mr. Deming. OK.
    Senator Inhofe. I kind of like mass delusion. That is a 
good one.
    [Laughter.]
    Senator Lautenberg. Mr. Chairman, no one ever accused you 
of having a lack of words to describe your views, and I always 
enjoy them. It is amazing that we can be good friends and be so 
wrong.
    Anyway, Dr. Schrag, a hoax, I can perhaps ask you.
    Mr. Schrag. A hoax or a mass delusion, I guess if you call 
it a mass delusion, then I would count myself as among the 
deluded. The evidence is so clear. Carbon dioxide causes 
warming. The evidence is absolutely clear that carbon dioxide 
is higher now than it has been for millions of years of our 
history.
    Earlier I heard the geologist on my right and left, and I 
am also a geologist, say that the geological thing to do would 
be to increase greenhouse gas emissions. That is pouring oil on 
fire. That is really big trouble although we today are in an 
Ice Age.
    We have an ice sheet on Greenland. We have an ice sheet in 
Antarctica. We were in a bigger Ice Age 20,000 years ago, but 
we are still in an Ice Age. By warming the Earth as much as we 
are doing over the next century, we risk destabilizing those 
ice sheets, and once they start to go, I am not sure anybody 
can stop them. This sort of thing, this is very serious and it 
is an issue of national security.
    Senator Lautenberg. So you say that it couldn't be a hoax.
    Mr. Schrag. It is certainly not a hoax.
    Senator Lautenberg. Dr. Carter.
    Mr. Carter. I mentioned some of the players in this drama 
earlier, the IPCC, individual scientists, and I can't remember 
the third one, but there are a lot of them. Amongst that range 
of players, yes, there are some people who are deliberately 
perpetrating what they know to be untrue.
    Senator Lautenberg. Do you think that global warming is a 
hoax being perpetrated?
    Mr. Carter. I am answering that, Senator Lautenberg. Yes, I 
think there are some people in the very large group of people 
that are commenting.
    Senator Lautenberg. No; I asked, sir, if you think that it 
is a hoax.
    Mr. Carter. I think that in some cases, people are 
deliberately spreading misinformation on climate change yes, 
but that is not everybody and it is a small number of people.
    Senator Lautenberg. Thank you.
    Ms. Oreskes. And some of them are the people who deny it, 
so we could just say that.
    Global warming is not a hoax, and it is not a mass 
delusion. I am not a psychologist, but if there is a 
psychological factor involved here, it is denial. We have 
overwhelming scientific evidence of the changes taking place on 
our planet, but some of us are reluctant to admit that because 
it has consequences that we need to deal with.
    I am also a geologist, and I worked for several years as an 
exploration geologist in Australia. I think that the great 
insight that Roger Revelle had on this issue was his geological 
insight which is to say that as geologists, we were all trained 
to believe that humans were insignificant compared to the 
vastness of geological time and the magnitude of geophysical 
forces. But what Revelle realized in 1957 was that we had 
reached a historic moment where that was no longer true and 
where human activities were having an impact on a planetary 
scale. We have changed the chemistry of the atmosphere, and 
there are consequences across the board.
    Senator Lautenberg. I think you also do not believe that it 
is a hoax.
    Ms. Oreskes. I do not believe that it is a hoax.
    [Laughter.]
    Senator Lautenberg. Mr. Gainor, I was interested that your 
representation here is not simply as a reporter for the 
Washington Times.
    Mr. Gainor. Sir, I haven't worked for the Washington Times 
for more years than I care to count.
    Senator Lautenberg. Oh, I didn't realize that.
    Whose views do you represent?
    Mr. Gainor. I am director of the Business & Media 
Institute, and that is what it says on the invite. I obviously 
promote and what I am advocating for, I think, is very clear 
which is trying to get more and better journalistic coverage on 
this issue to do a more balanced job.
    Senator Lautenberg. OK, and I heard you describe things 
that you influenced your view in the news. It was that you live 
in an apartment and you don't drive an SUV, and therefore Al 
Gore is discredited a----
    Mr. Gainor. No, I am simply saying, Senator, that----
    Senator Lautenberg. Well, that is what you are saying.
    Mr. Gainor [continuing]. Portraying me as somebody who 
hates the environment runs counter to that whole media mind set 
that everyone----
    Senator Lautenberg. If the ownership of a particular car or 
type of house is the yardstick by which we measure that, I 
think you are on weak ground.
    Last year, Phil Cooney, a career oil industry lobbyist, 
then serving as Chief of Staff at the Council of Environmental 
Quality was caught editing scientific findings on global 
warming to inject uncertainty where none was intended by the 
authors. That is a fairly inappropriate thing for the White 
House to approve, modifying findings of the Federal scientists. 
When we talk about Government control of the press, Mr. Gainor, 
and we talk about Government control of information that was 
produced being redacted or modified before it gets to the 
public, that is Government control also, is it not?
    Mr. Gainor. All governments control the information that 
comes out of their agencies.
    Senator Lautenberg. So then it is all right if China----
    Mr. Gainor. If you try to disagree, you get killed.
    Senator Lautenberg. Well, since you don't want to get 
killed, I don't want my grandchildren to get killed, then I 
don't want people who are affected by climate change to die 
earlier because the air is unsuitable, et cetera.
    Is it correct to say that control by Government is an 
unacceptable condition and control is represented by massaging 
the data that is there in reports, repressing it, from a 
scientist's viewpoint?
    Mr. Gainor. You are asking if the Government Agencies can't 
modify reports from their own agency. I think you are asking 
the wrong person, but as far as injecting uncertainties----
    Senator Lautenberg. Redaction is an acceptable process for 
making sure that the information that is being given to the 
public is modified in some way.
    Mr. Gainor. To cite actually a quote from Dr. Schrag, 
nobody knows what is going to happen about climate change.
    Mr. Schrag. Exactly; nobody knows exactly what is going to 
happen.
    Mr. Gainor. The quote I have is nobody knows what is going 
to happen, specifically.
    Senator Inhofe. Senator Lautenberg, your time has expired, 
and I think we have been fair to everyone.
    Senator Lautenberg. Well, I think it was 30 seconds.
    Senator Inhofe. Well, if you want 30 seconds.
    A reminder, well, there is no one here to remind when we 
are going to have our business meeting.
    [Laughter.]
    Senator Inhofe. Let me do this. I know you have come from a 
long ways. We are actually 25 minutes over the time I said that 
this would come to a conclusion. I hope that hasn't caused an 
inconvenience to anyone.
    I would like to give each one of you another minute, if you 
would like to, to respond to anything that was said here today. 
I would remind you that this hearing is not on the science of 
global warming. We have looked at it. We know that there is a 
differing opinion. We have had many hearings on this, many 
speeches on the floor.
    But insofar as how it is being reported, if there are any 
further comments that this distinguished panel, each member, 
would like to make, I will give you the opportunity to do that 
at this time. Let us start with you, Mr. Gainor, and work the 
other way.
    Mr. Gainor. OK, well, first of all, thank you for this 
opportunity.
    I think the big point that gets lost in all of this 
coverage is that there are competing opinions. You will hear 
journalists periodically admit to this. Andrew Revkin will talk 
about the murk or the uncertainties involved in the science. 
You will hear scientists about it. But somehow or another, we 
are supposed to view that there is a consensus when, in fact, 
there isn't.
    For the scientists who dare disagree or for the pundits or 
public policy people who dare disagree, it is the 
responsibility of the media to do a better job covering that, 
trying to get that side out because this is a democracy and if 
we are going to possibly make the right decision on this issue, 
then we need to do so as well informed as possible.
    I think it is the great opportunity for the committee to 
raise this issue, raise this opportunity for everyone to look 
at it and say this is not being done right; how can we do it 
better?
    Senator Inhofe. Good, thank you.
    Dr. Oreskes.
    Ms. Oreskes. Thank you. I have enjoyed being here, and I am 
thrilled to discover that the U.S. Senate has a sense of humor.
    I just want to say that----
    Senator Inhofe. I could probably put you in front of some 
committees who don't.
    Ms. Oreskes. Please don't.
    I want to just emphasize, as a historian of science, that 
there is always uncertainty in any science, but the task of the 
Government, it seems to me, when it makes policy is to base 
those decisions on the best available scientific information. 
At this point in time, that information says that global 
warming is real and caused by human activities.
    Now, Mr. Chairman, you raised the point of other causes 
such as the heat island effect and deforestation. Those are 
important, and I am in complete agreement with you about those 
causes. We know that those issues have to be addressed as well. 
But it is the consensus of our own United States National 
Academy of Sciences, the most distinguished group of scientists 
in America if not the world, that most, most, not only just a 
little bit but most of the observed warming of the last 50 
years is likely--and they are careful; they are not alarmist; 
they are saying the best they can based on what we know--is 
likely to have been due to the increase in greenhouse gas 
concentrations.
    Thank you.
    Senator Inhofe. Thank you very much.
    Dr. Carter?
    Mr. Carter. Senator Inhofe, I would really just like to say 
thank you for the privilege of participating in this discussion 
today, and I would like to pay your tribute to your 
chairmanship, not only today but over the last several years of 
this committee. I would like people to understand that this 
committee worldwide has had an impact, and though Senator 
Inhofe is leaving, it has been instrumental in making sure that 
some of the other side of the story on climate change remains 
in the public domain. I think that is an enormous achievement, 
sir, and I congratulate you for it.
    I hope that under Senator Boxer, the committee is going to 
continue to be looked at worldwide for leadership and advice on 
this issue of climate change, and I wish you well in seeking a 
national policy which is an incredibly difficult thing to do, 
to grapple with this issue.
    Last, I commend to you the partnership that you were 
instrumental in starting, the Asia-Pacific partnership, as one 
of the ways forward. I think that is a very good solution.
    Senator Inhofe. Thank you. I commented about that, and I 
believe it is too, and that it brings in the undeveloped 
nations.
    Dr. Schrag.
    Mr. Schrag. Senator Inhofe, thank you.
    The idea that in terms of media reporting, there has been a 
concern that somehow scientists are afraid to speak out if they 
oppose the consensus view, and I think that is important to 
address here. I can only address it in a personal sense which 
is my own career. I am a tenured professor at Harvard, and I 
owe that success in my career partially to speaking out, going 
against my community on several hypotheses, and I was able to 
defend those hypotheses with observations, with calculations 
that ultimately convinced the community that I was correct. So 
it was, in fact, the opposition to the consensus view that 
actually gave me fame and it is why I am here today.
    Therefore, I think it is very important to recognize that 
the motivation for most of the scientific community is not to 
just follow the party line but, in fact, if you can support 
those views, you encouraged to speak out because if you do so, 
you are considered a great hero.
    Senator Inhofe. Well, thank you very much, Dr. Schrag?
    Dr. Deming.
    Mr. Deming. As I make a final comment, I am kind of in 
astonishment. We are sitting here at the apex of 10,000 years 
of human civilization. The United States and the rest of the 
developed world is the most prosperous, most knowledgeable, 
most technological society as ever existed on Earth, and we sit 
here scared to death of something that doesn't even really 
exist.
    Senator Lautenberg talked about something terrible is 
happening, fire in the house. As far as I know, there isn't a 
single person anywhere on Earth that has ever been killed by 
global warming. There is not a single species that has gone 
extinct. In fact, I am not aware really of any deleterious 
effects whatsoever. It is all speculation.
    We have on the other hand, throughout the world and in this 
country, real problems. We have poverty. We have disease. We 
have things that we could do to really help people. Global 
warming is human folly.
    Senator Inhofe. Thank you very much, Dr. Deming.
    Let me thank all five of you for taking the time and for 
extending the time that you committed to make it here and thank 
you for your input.
    We are adjourned.
    [Whereupon, at 12:20 p.m., the committee was adjourned.]
    [Additional statements submitted for the record follow:]

 Statement of David Deming, Ph.D., University of Oklahoma, College of 
                            Earth and Energy

    Mr. Chairman, members of the committee, and distinguished 
guests, thank you for inviting me to testify today. I am a 
geologist and geophysicist. I have a bachelor's degree in 
geology from Indiana University, and a Ph.D., in geophysics 
from the University of Utah. My field of specialization in 
geophysics is temperature and heat flow. In recent years, I 
have turned my studies to the history and philosophy of 
science. In 1995, I published a short paper in the academic 
journal Science. In that study, I reviewed how borehole 
temperature data recorded a warming of about 1 C in North 
America over the last 100 to 150 years. The week the article 
appeared, I was contacted by a reporter for National Public 
Radio. He offered to interview me, but only if I would state 
that the warming was due to human activity. When I refused to 
do so, he hung up on me.
    I had another interesting experience around the time my 
paper in Science was published. I received an astonishing email 
from a major researcher in the area of climate change. He said, 
``We have to get rid of the Medieval Warm Period.''
    The Medieval Warm Period (MWP) was a time of unusually warm 
weather that began around 1000 AD and persisted until a cold 
period known as the ``Little Ice Age'' took hold in the 14th 
century. Warmer climate brought a remarkable flowering of 
prosperity, knowledge, and art to Europe during the High Middle 
Ages.
    The existence of the MWP had been recognized in the 
scientific literature for decades. But now it was a major 
embarrassment to those maintaining that the 20th century 
warming was truly anomalous. It had to be ``gotten rid of.''
    In 1769, Joseph Priestley warned that scientists overly 
attached to a favorite hypothesis would not hesitate to ``warp 
the whole course of nature.'' In 1999, Michael Mann and his 
colleagues published a reconstruction of past temperature in 
which the MWP simply vanished. This unique estimate became 
known as the ``hockey stick,'' because of the shape of the 
temperature graph.
    Normally in science, when you have a novel result that 
appears to overturn previous work, you have to demonstrate why 
the earlier work was wrong. But the work of Mann and his 
colleagues was initially accepted uncritically, even though it 
contradicted the results of more than 100 previous studies. 
Other researchers have since reaffirmed that the Medieval Warm 
Period was both warm and global in its extent.
    There is an overwhelming bias today in the media regarding 
the issue of global warming. In the past 2 years, this bias has 
bloomed into an irrational hysteria. Every natural disaster 
that occurs is now linked with global warming, no matter how 
tenuous or impossible the connection. As a result, the public 
has become vastly misinformed on this and other environmental 
issues.
    Earth's climate system is complex and poorly understood. 
But we do know that throughout human history, warmer 
temperatures have been associated with more stable climates and 
increased human health and prosperity. Colder temperatures have 
been correlated with climatic instability, famine, and 
increased human mortality.
    The amount of climatic warming that has taken place in the 
past 150 years is poorly constrained, and its cause--human or 
natural--is unknown. There is no sound scientific basis for 
predicting future climate change with any degree of certainty. 
If the climate does warm, it is likely to be beneficial to 
humanity rather than harmful. In my opinion, it would be 
foolish to establish national energy policy on the basis of 
misinformation and irrational hysteria.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     Statement of Daniel Schrag, Ph.D., Laboratory for Geochemical 
   Oceanography, Department of Earth and Planetary Sciences, Harvard 
                               University
    Thank you to the Senators and to the staff members of the committee 
for inviting me to speak here today. I am a professor at Harvard 
University in the Department of Earth and Planetary Sciences and in the 
Division of Engineering and Applied Sciences. I also direct the Harvard 
University Center for the Environment, which allows me to work with 
faculty in public health, public policy, economics, business, law and a 
variety of other disciplines.
    The questions before this committee today are whether press 
coverage of global warming in this country has portrayed accurately the 
state of scientific knowledge and whether the press has properly framed 
the issue for the public and for decision makers like yourselves. I am 
hesitant to generalize, as reporting on this issue is quite variable. I 
think it is safe to say that press reports are accurate when they 
present the strong consensus that exists among climate scientists that 
global warming is occurring, and when they describe some of the risks 
we face. When I have taken issue with press coverage of global warming, 
it is usually because the issue is presented as a debate between 
``believers'' and ``skeptics.'' Articles often give a voice to extreme 
views, rarely evaluating credentials or credibility. The public is left 
trying to decide whether global warming is real based on highly 
technical arguments, and left uncertain whether corrective action is 
necessary.
    I think the proper framing of this issue is quite different: There 
is no serious debate about whether the earth will warm as carbon 
dioxide levels increase over this century--it will. What is difficult 
to predict is exactly how much warming will occur, and exactly how that 
will affect human society. The media does not usually explain this 
distinction very well. I would like to see the press raise the same 
question used for other issues of national security: Are the risks of 
severe consequences sufficient to warrant taking preventative action?
    Humans are changing the amount of carbon dioxide in the atmosphere, 
mostly from burning of coal, oil and gas, with deforestation also 
playing a significant role. The current level, in excess of 380 parts 
per million (ppm), is higher than it has been for at least the last 
650,000 years, and perhaps for tens of millions of years (Fig. 1). To 
put it differently, we are experiencing higher CO<INF>2</INF> levels 
now than any human being has ever seen in the history of the earth; and 
over the next 100 years, without substantial changes in the trajectory 
of energy technology or economic development, we will see atmospheric 
CO<INF>2</INF> rise to 800 to 1000 ppm, roughly triple the pre-
industrial level. Carbon dioxide is a greenhouse gas. Its presence in 
planetary atmospheres causes warming of planetary surfaces; an extreme 
example is the CO<INF>2</INF>-rich atmosphere of Venus, which is 
responsible for its surface temperature in excess of 460 C.
    The question that confronts us now is how the rise of 
CO<INF>2</INF> on this planet will affect our climate, not over 
millions or even thousands of years but over decades and centuries. We 
know that, coincident with the unprecedented rise in CO<INF>2</INF> 
over the last century, we have seen a rise in global temperatures. We 
know from Lonnie Thompson's work on tropical glaciers that this warming 
is not part of any natural cycle (Fig. 2). But this does not address 
the question of what will happen as CO<INF>2</INF> levels continue to 
rise. To answer this question, climate scientists have constructed 
models that represent the best understanding of the climate system from 
the last century of observations. These models tell us that climate 
change in this century may be dramatic, and perhaps even catastrophic. 
These models are not perfect--but this is not surprising as they are 
attempting to make predictions about an atmospheric state that no human 
being has ever seen. They remain an essential tool for exploring future 
scenarios, but we must also consider evidence for climate change from 
the geologic past. This is the major area of my research. I cannot 
cover it today in much detail, but let me simply say that lessons from 
earth history are surprisingly consistent, whether from warm climates 
or cold, whether over millions of years or thousands: our climate 
system is very sensitive to small perturbations (Fig. 3). And human 
activities represent a large perturbation, sending our atmosphere to a 
state unlike any seen for millions of years.
    The important point is that the uncertainty in the climate models 
should not comfort us--just the opposite. Our best observations from 
earth history suggest that the earth is more sensitive to an increase 
in greenhouse gases than most of the models, and therefore that climate 
change may be worse than most of the models predict.
    A good example comes from the question of whether Europe was 
slightly warmer than it is today during the medieval warm period, 
roughly 1,000 years ago. Some have suggested that such natural 
variability means that we don't need to worry about anthropogenic 
climate change in the future. Ironically, the logical conclusion, if 
indeed Europe was slightly warmer 1,000 years ago, is that we should be 
terrified about the next 100 years. We know that the natural forcing 
1,000 years ago, mostly changes in solar and volcanic activity, was 
small relative to the rise in CO<INF>2</INF> over the last 100 years, 
and tiny compared to what will happen in the next 100 years. So if 
Europe became much warmer 1,000 years ago in response to such miniscule 
forcing, we are in very, very big trouble.
    Getting back to the question of the media, I think that the press, 
in general, could do a much better job in explaining to the public that 
uncertainty in our predictions of future climate change does not cast a 
shadow on the science, but rather is inevitable given the scale of the 
experiment we are doing on our planet. A notable exception is a recent 
cover article on global warming in The Economist in which the author, 
Emma Duncan, portrays global warming as an insurance problem. We buy 
insurance for our house not because we expect it to burn down, but 
because we could not afford the consequences if it did. Similarly, we 
should take immediate action to protect ourselves from future climate 
change not because we know it will be catastrophic, but because it a 
consensus of experts think that there is a substantial likelihood it 
will be catastrophic if no actions are taken. Moreover, the response 
time of oceans, glaciers, the atmosphere, and even our own energy 
technology means that we are confronting systems with huge momentum, 
and we will not have time to avoid a catastrophe once we are absolutely 
certain that one will occur.
    Many possible tipping points have been identified in the climate 
system, each with large uncertainty about exactly when they will happen 
but also carrying enormous costs to our society. Good examples include 
the collapse of the Greenland Ice Sheet, causing more than 20 feet of 
sea level rise (Fig. 4), the early melting of mountain snow that 
provides the natural water storage for a large fraction of the world's 
population (including most of our western states), or the melting of 
permafrost in the tundra which might release hundreds of billions of 
tons of carbon dioxide to the atmosphere currently stored in frozen 
soils.
    In light of these dangers, and in light of the growing evidence 
that serious harm from human-caused climate change is already 
occurring, I'd like to ask the climate skeptics here today this 
question: Do you really expect us to gamble our planet, our entire way 
of life, on your arguments that climate change will be gentle on our 
society? What are the consequences if you are wrong? If the Greenland 
Ice Sheet began to show signs of abrupt collapse, do you really think 
we could engineer a way to stop it? Whatever the probability, and I 
fear that it is much higher than many people think, the point is that 
it represents an unacceptable risk.
    A more responsible question would be to ask what is the insurance 
premium? How much do we have to sacrifice today to prevent a 
catastrophe in the future? We do this sort of analysis all the time 
with homeland security and other issues that, like global warming, also 
affect our national security. With terrorism, we cannot be sure when, 
where, or even if an attack will occur, but we make great effort to 
reduce the risk at a huge cost to our economy. Relative to these costs, 
the price of climate change mitigation through investment in our energy 
infrastructure is minor, probably amounting to a continuing investment, 
over time, of less than 1 percent of our gross domestic product. And 
like many such actions, there are additional benefits to our military 
and to our economy that we obtain as we reduce our dependence on 
foreign sources of oil and gas. Developing and implementing advanced 
energy technologies that do not put carbon dioxide into the atmosphere 
is a grand challenge facing our society, but is also a remarkable 
business opportunity. America should lead in this new global market; we 
cannot afford to do otherwise.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      Statement of Robert M. Carter, Ph.D., James Cook University,
                         Townsville, Australia
                           biographical notes
    I am an Adjunct Research Professor at James Cook University 
(Queensland). I have 35 years training and experience as a 
palaeontologist, stratigrapher, marine geologist and environmental 
scientist, and hold degrees from the University of Otago (New Zealand; 
BSc Hons) and the University of Cambridge (England; Ph.D.). During my 
career I have held tenured academic staff positions at the University 
of Otago (Dunedin) and James Cook University (Townsville), where I was 
Professor and Head of School of Earth Sciences between 1981 and 1999.
    I have wide experience in research management and administration, 
including service as Chair of the Earth Sciences Discipline Panel of 
the Australian Research Council, Chair of the national Marine Science 
and Technologies Committee, Director of the Australian Office of the 
Ocean Drilling Program, member of the international Planning and 
Technical Operations Committees, and Co-Chief Scientist on ODP Leg 181 
(Southwest Pacific Gateways).
    My current research on climate change, sea-level change and 
stratigraphy is based on field studies of Cenozoic sediments (last 65 
million years) from the Southwest Pacific Ocean region, especially the 
Great Barrier Reef and offshore eastern New Zealand, and includes the 
analysis of marine sediment cores collected during ODP Leg 181. I am 
involved in helping to plan future IODP drilling legs to collect high-
resolution climate data from the Pacific Ocean.
    Throughout my career, my research has been supported by grants from 
competitive public research agencies, especially the Australian 
Research Council (ARC). I have received no research funding from 
special interest organisations such as environmental groups, energy 
companies or government departments.
    I am the author of more than 100 papers in refereed scientific 
journals. I also contribute regular letters, opinion pieces and 
interviews to newspapers, national magazines and other media, and 
regularly engage in public speaking on matters related to my research 
knowledge. In 2005 I was appointed by the Australian Minister of the 
Environment to the judging panel for the Eureka Prize in Environmental 
Journalism, awarded annually by the Australian Museum, Sydney.
                                abstract
    There is a strong conflict between current public alarm regarding 
human-caused climate change and the science justification for that 
alarm. The media serve to convey to the public the facts and hypotheses 
of climate change as provided by individual scientists, government and 
international research agencies and NGO lobby groups. In general, the 
media have propagated an alarmist cause for climate change, and they 
have certainly failed to convey to the public both the degree of 
uncertainty that is characteristic of climate science and many 
essential facts that are relevant to considerations of human causation. 
Ways in which the public debate is directed along alarmist lines are 
discussed. It is concluded that natural climate change is a hazard 
that--like other similar natural hazards--should be dealt with by 
adaptation. Attempting to mitigate human-caused climate change is an 
expensive exercise in futility.
          introduction--the three realities of climate change
    Climate change knows three realities. Science reality, which is 
what working scientists deal with on a daily basis. Virtual reality, 
which is the wholly imaginary world inside computer climate models. And 
public reality, which is the socio-political system within which 
politicians, business people and the general citizenry work.
    The science reality is that climate is a complex, dynamic, natural 
system that no one wholly comprehends, though many scientists 
understand different small parts. Science provides no unambiguous 
empirical data that dangerous or even measurable human-caused global 
warming is occurring (e.g. Khilyuk & Chilingar, 2006). Second, the 
virtual reality is that deterministic computer models predict future 
climate according to the assumptions that are programmed into them. 
There is no ``Theory of Climate'', and the potential output of all 
realistic GCMs therefore encompasses a range of both future warmings 
and coolings. The difference between these outputs can be changed at 
will, simply by adjusting such poorly known parameters as the effects 
of cloud cover. And third, public reality in 2006 is that there exists 
a widespread but erroneous belief amongst citizens, businessmen and 
politicians that dangerous global warming is occurring and that it has 
human causation.
    Three main agents have driven the public to believe in dangerous 
global warming. They are reports from the Intergovernmental Panel on 
Climate Change (IPCC), incessant lobbying by environmental NGOs and 
allied political groups, and the obliging conveyance of selectively 
alarmist information by the media. Alarmist writing displays two 
invariable characteristics. First, it is mostly concerned with the 
minutiae of meteorological measurements and trends over the last 150 
years and the absence of a proper geological context. Second, there is 
an over-reliance on the outputs of unvalidated computer model scenarios 
and attribution studies, i.e., virtual reality is favoured over 
empirical testing.
    I summarise first several arguments against the conventional IPCC 
view that dangerous warming is occurring. I then comment on ancient 
temperature records, greenhouse theory and computer modeling, and 
conclude by discussing the role of the media in relaying science 
information about global warming to the public.
      four arguments against dangerous human-caused global warming
    IPCC concentrates its analyses on climate over the last few hundred 
years, and fails to give proper weight to the geological context of 
modern climate change. The following facts, most of which draw on 
geological data, all militate against the IPCC argument that dangerous 
greenhouse warming is being caused by the accumulation of industrial 
carbon dioxide in the atmosphere:

          1. As recorded in Antarctic ice cores, changes in temperature 
        precede parallel changes in carbon dioxide by many hundred 
        years or more (Mudelsee, 2001).
          2. As recorded in the Greenland GRIP core (Grootes et al., 
        1993), the late 20th century warm period corresponds to a 
        cyclic warming peak within a 1500 year periodicity of probable 
        solar origin (Bond et al., 2001), and was cooler than the 
        preceding Minoan and Mediaeval Warm Periods.
          3. In Antarctica, the late 20th century warming is as much as 
        5 C cooler than were recent interglacial climate optimums 
        (e.g., Watanabe et al., 2003).
          4. As compared with high quality site-specific datasets such 
        as GRIP (Grootes et al., 1993), neither the rate of temperature 
        change nor the magnitude of the peak reached at the end of the 
        20th century lies outside the limits of recent natural climate 
        change (Davis & Bohling, 2001).
          5. Using the global average surface temperature record 
        compiled by the Climate Research Unit of the U.K. Hadley Centre 
        from thermometer measurements, temperature at the Earth's 
        surface has flatlined since 1998 (Fig. 1). Temperature in the 
        troposphere is virtually unchanged since 1979 once El Ninos and 
        volcanic eruptions are taken into account (Fig. 2) (Gray, 
        2006).
             the importance of ancient temperature records
    The modern radiosonde and satellite MSU data provide an accurate, 
truly global temperature statistic. But to compare the late 20th 
century warm period with earlier geological warm events requires the 
use of local proxy data, for no truly global temperature statistics are 
available pre-1958 (or perhaps pre-1860, if you wish to trust the 
earlier parts of the surface thermometer record). Meaningful 
comparative judgements about climate change cannot be made on the basis 
of the trivially-short, 150-year-long thermometer surface temperature 
record, much less on the 26-year-long satellite tropospheric record, 
for long-term climate change occurs over spans of many thousands to 
millions of years.
    One of the highest resolution proxy datasets that extends over an 
adequate period of time to record natural climate change is the oxygen 
isotope record from the Greenland ice core (Grootes et al., 1993). 
These data show, first, that the 1-2 C/century rate of late 20th 
century warming in Greenland falls well within the Holocene envelope of 
rates of temperature change between ^2.5 and +2.5 C/century (Fig. 3). 
And, second (Fig. 4), that in Greenland the late 20th century warm 
period was cooler than the Mediaeval and Roman warm periods, and 
reflects a regular millennial solar temperature cycle. In addition, ice 
cores from Antarctica (Watanabe et al., 2003) show also that late 20th 
century temperature is up to 5 C cooler there than temperature highs 
associated with earlier but geologically recent interglacial periods 
(Fig. 5).
    Prompted by the invalidation of the Mann et al. hockey stick study, 
there has been much dispute over statements like ``The rate and 
magnitude of 20th century warming is unprecedented for at least the 
past 1,000 years''. A recent report by the National Academy of Sciences 
was able to conclude only that the 20th century warming was the 
greatest for several hundred years, a scarcely surprising conclusion.
    In summary, as judged against ice core and other high resolution 
geological proxy records, the late 20th century warming (which as yet 
has not continued into the 21st century) is unusual in neither rate nor 
magnitude.
                           greenhouse theory
    Carbon dioxide is a colorless, odorless gas that has been present 
in earth's atmosphere through time in trace amounts ranging from a few 
hundred to a few thousand parts per million (ppm). Together with 
oxygen, it is the staff of life for earth's biosphere because the 
metabolism of plants depends upon its absorbtion. Increasing carbon 
dioxide in the range of about 200-1000 ppm has repeatedly been shown to 
be beneficial for plant growth, and to increase the efficiency of water 
use. Atmospheric carbon dioxide is therefore a benefice.
    The currently favoured hypothesis of dangerous global warming 
includes the presumption that the warming is caused mainly by human 
emissions of the greenhouse gas carbon dioxide. This theory has failed 
the three main tests that it has been subjected to. Namely:
    <bullet> late 20th century rates of temperature change and 
magnitude do not exceed previously known natural limits;
    <bullet> no close relationship exists between the 20th century 
pattern of increasing carbon dioxide and changing temperature; and
    <bullet> computer models using greenhouse radiation theory have 
proved unable to predict the course of temperature change 1990-2005, 
let alone to 2100.
    Nonetheless, it is the case that carbon dioxide absorbs space-bound 
infrared radiation, thereby increasing the energy available at Earth's 
surface for warming or increased evaporation. This physical theory 
accepted, there are four problems with turning a human-driven increase 
in atmospheric carbon dioxide into global warming alarmism. They are as 
follows.
    <bullet> The relationship between increasing carbon dioxide and 
increasing temperature is logarithmic, which lessens the forcing effect 
of each successive increment of carbon dioxide (Fig. 6).
    <bullet> In increasing from perhaps 280 ppm in pre-industrial times 
to 380 ppm now, carbon dioxide has already produced 75 percent of the 
theoretical warming of about 1 C that would be caused by a doubling to 
560 ppm; as we move from 380 to 560 ppm, at most a few tenths of a 
degree of warming remain in the system; claims of greater warming, such 
as those of the IPCC, are based upon arbitrary adjustments to the 
lambda value in the Stefan-Boltzmann equation, and untested assumptions 
about positive feedbacks.
    <bullet> The ice core data show conclusively that, during natural 
climate cycling, changes in temperature precede changes in carbon 
dioxide by several hundred to a thousand or so years (Mudelsee, 2001).
    <bullet> In contrast to the 280 ppm levels indicated by averaged 
ice-core results, measurements of fossil plant stomata indicate that 
natural, pre-industrial carbon dioxide levels reached 350 ppm or higher 
during the Holocene (Kouwenberg et al., 2005).
    So, yes, there is agreement that carbon dioxide increases will 
probably cause gentle feedback warming, but opinion remains strongly 
divided as to how great the warming will be for a real world doubling, 
and also whether any such warming is likely, on balance, to be 
beneficial or harmful.
                            computer models
    General circulation computer models (GCMs) are deterministic. 
Because many climate processes occur at a scale below that of the 
modelling grid, these processes have to be parameterized within the 
model. The modellers themselves acknowledge that they are unable to 
predict future climate, preferring the term ``scenario'' to describe 
the output of their experiments. Individual models differ widely in 
their output under an imposed regime of doubled carbon dioxide. In 
2001, the IPCC cited a range of 1.8-5.6 C warming by 2100 for the 
model outputs that they favoured, but this range can be further varied 
to even include negative outputs (i.e. cooling) by minor adjustment of 
some of the model parameters.
    A second use of computer modelling is in climate attribution 
studies, whereby the known 20th century meteorological record is 
simulated using models fed with known or presumed forcings, such as 
increasing carbon dioxide, volcanic eruptions and other aerosols. After 
many years of trials, the IPCC in 2001 reported simulations that 
mimicked the historic temperature record if and only if human emissions 
were included in the forcings. These results have later been widely 
misrepresented as being evidence for human-caused global warming. They 
are, of course, evidence only that a curve matching exercise involving 
many degrees of freedom has plausibly mimicked the 20th century 
temperature curve. They are exercises in virtual reality, and not 
evidence of any type.
    A major problem with all GCMs is that they rest upon the Kelvin 
fallacy, i.e., the assumption that the physics of the system is fully 
known. Though computer modelling and attribution studies are valuable 
heuristic tools, GCMs are not suitable for use as predictive tools for 
climate policy.
    In contrast with GCMs, other empirical computer models have been 
trained using elapsed data up to the present. Such models have been 
constructed using the 150 year-long surface temperature record 
(Klyashtorin & Lyubushin, 2003), 3,500 year-long proxy records from a 
Sargasso Sea marine core and a South African speleothem (Loehle, 2004), 
and the 10,000 year-long Holocene proxy record from the GRIP ice core 
(Kotov, 2001). Virtually all forward projections using these fitted 
models project cooling during the early decades of the 21st century 
(e.g., Fig. 7).
                         the role of the media
    Given the many uncertainties and inadequacies in our understanding 
of climate science, some of which are outlined above, and the lack of 
empirical evidence for human causation, how has it come about that 
public opinion in western nations is convinced that dangerous human-
caused warming is occurring? The answer is that the public have been 
conditioned by the relentless repetition of alarmist climate messages 
through the media, to whose role I now turn.
    The media play a primary role in reporting the results of 
scientific research to the general public. They do this today against 
the following background:
    1. A rapidly changing media landscape. Formerly, there were three 
neatly separated categories of print, radio and television. With the 
late 20th century development of the world wide web there has been a 
dramatic rise in the number of professional websites and blog sites, 
and the development of parallel printed/web newspaper editions plus 
interactive discussion sites.
    With such a miasma of sources of information now competing for 
public attention, the inevitable result has been an increasing 
shrillness and a loss of nuanced expression across all media. This does 
not serve science reporting well.
    2. Because of the lack of legal libel restraint over blog sites in 
particular, character assassination and ad hominem attacks on so-called 
climate skeptics have become common. In the climate science area, sites 
such as Exxon's Secrets, Source Watch and De Smog Blog have developed 
such denigration into an art form, and apparently a well funded art 
form at that.
    3. Over roughly the same time period as the Internet developed, 
western countries have seen the emergence of the public relations (PR) 
industry as a powerful force in society. It has been estimated that in 
the 1990s the USA had 130,000 media reporters and 150,000 PR personnel. 
The job of these PR people is to ensure that their employers' 
activities figure in the news in a positive way; a polite name for them 
is spinmeisters, and Prime Minister Tony Blair's Alistair Campbell was 
their acknowledged crown prince.
    At the same time that they now employ PR professionals, large 
scientific employers often exert further control over the message that 
reaches the public by forbidding individual scientists to talk to the 
press and requiring that all comment be channeled through chosen PR 
representatives. Thus Nature's correspondent in Australia, Peter 
Pockley, reported (Australasian Science, Dec. 2004, p. 45):
    ``CSIRO's marine scientists have been ``constrained'' on the 
scientific advice and interoperation they can provide to the 
government's conservation plans for Australia's oceans. Likewise, 
climate scientists have been told not to engage in (public) debate on 
climate change and never to mention the Kyoto Accord on greenhouse gas 
emissions.''
    Morrison (2006) reports a survey showing, not surprisingly, that 
science stories provided with hyperbole rated 20 percent higher in 
terms of news-worthiness compared with factual reports on what had 
actually been achieved, and suggested that a Code of Conduct was needed 
to help guide science communicators.
    4. It was learned by all media proprietors long ago that 
sensational or alarmist news sells. As one of Australia's most 
experienced science journalists has remarked (Julian Cribb, 
Australasian Science, August 2002, p. 38):
    ``The publication of `bad news' is not a journalistic vice. It's a 
clear instruction from the market. It's what consumers, on average, 
demand. . . . As a newspaper editor I knew, as most editors know, that 
if you print a lot of good news, people stop buying your paper. 
Conversely, if you publish the correct mix of doom, gloom and disaster, 
your circulation swells. I have done the experiment.''
    It is a rare day that any metropolitan newspaper now fails to carry 
one or more alarmist stories on climate change and other like 
environmental causes.
    5. A belief that good reporting is ``balanced'' reporting, and that 
the balance is discharged by providing ``both'' sides of any particular 
story.
    Unfortunately, though taught in every journalism school, this 
technique is a travesty when applied to matters of science--which deals 
with testable hypotheses not ``balance''. First, because there are not 
two but usually a multiplicity of sides to any complex scientific 
debate, such as that regarding global warming. Second, because--as 
practised--such journalistic balancing quickly becomes an excuse for 
not exercising personal knowledge and judgement about complex topics. 
``He says, she says'' substitutes for ``I, the reporter, judge that the 
data best support . . .''.
    6. A belief that environmental reporting is different from science 
reporting. Nearly all major media sources today employ an environmental 
reporter, but only a handful have a science reporter as well.
    A little thought shows that there is a critical difference between 
the jobs of these two types of reporters. It goes without saying that a 
science reporter is charged with narrating the science truth, so far as 
that can be identified. But what is the primary role of an 
environmental reporter? Judging from their giddy effusions in the daily 
press, one might infer that their job description reads: ``identify the 
baddies (alleged polluters or desecrators), and support the goodies 
(office-bearers in environmental NGOs) in pursuit of ever stricter 
public environmental regulation of all types''.
    It is my experience that the typical environmental reporter is 
marked less by her scientific expertise and more by her zeal for 
politically correct environmental causes. That is not a good recipe for 
objective reporting.
    The result of this media landscape is that, with some exceptions, 
science reports in the news often lean heavily on PR copy provided by 
the employing agency of the scientists. Busy journalists are 
understandably pleased when they receive an interesting and well-
written story on a topic identified as of public importance. The 
outcome--which I term frisbee science--is that the results delivered to 
the public carry a strong spin which, in the case of global warming, is 
invariably alarmist in nature.
                    playing the man and not the ball
    The means by which the public has been convinced that dangerous 
global warming is occurring are therefore not subtle. Indeed, the 
combined alarmist activities of the IPCC, crusading environmental NGOs, 
some individual leading climate scientists and many science academies 
can only be termed a propaganda campaign. But because all of these 
interest groups communicate with the public primarily through the 
press, it is the press that carries the prime gatekeeper responsibility 
for the unbalanced state of the current public view.
    When doubts are raised about the legitimacy of a particular piece 
of climate alarmism--say that Tuvalu is being swamped by a rising sea-
level--it is vanishingly rare for any ensuing press discussion to be 
primarily about the science question at issue. Rather, rhetorical 
devices are used to negate the doubts or the doubter. Assertions 
commonly made about skeptics or their views include the following.
    1. ``The science is settled''; or, there is a ``consensus'' on the 
issue.
    A typical recent statement of this type by Governor Schwarzenegger, 
on Sunday Meet the Press, reads: ``The science is in, we know the 
facts, there's not any more debate as to global warming or not''.
    The Governor is deluding himself, because the science of climate 
change has never been more uncertain. Furthermore, science is about 
facts, experiments and testing hypotheses, not consensus; and science 
is never ``settled''.
    As Margaret Thatcher famously observed (``The Downing Street 
Years'', p. 167):
    ``Consensus is the process of abandoning all beliefs, principles, 
values and policies in search of something in which no one believes, 
but to which no one objects; the process of avoiding the very issues 
that have to be solved, merely because you cannot (otherwise) get 
agreement on the way ahead''.
    2. He is paid by the fossil fuel industry, and is merely repeating 
their desired story.
    An idea is not responsible for those who believe in it, and neither 
is the validity of an scientific hypothesis determined by the character 
or beliefs of the person who funded the research. Science discussions 
are determined on their merits, by using tests against empirical or 
experimental data. Who paid for the data to be gathered and assessed is 
simply irrelevant.
    3. She works for a left wing/right wing think tank, so her work is 
tainted.
    Think tanks serve an invaluable function in our society. On all 
sides of politics they are the source of much excellent policy 
analysis. They provide extended discussion and commentary on matters of 
public interest, and have made many fine contributions towards 
balancing the public debate on climate change. To be associated with a 
high-quality think tank, as I am with the Melbourne Institute of Public 
Affairs, is a privilege and a matter for pride, not shame.
    That think tanks receive funding from industry sources is an 
indication that those that survive are delivering value for money, and 
does not impugn their integrity.
    4. He is just a climate sceptic, a contrarian, a denialist.
    These terms are used routinely as denigratory badges. The first two 
are amusingly silly.
    First, because most people termed climate ``skeptics'' are in fact 
climate ``agnostics'', they have no particular axe to grind as to 
whether or not humans are having a dangerous influence on global 
climate. However, they prefer not to raise unnecessary alarms about 
dangerous climate change unless and until there is some solid empirical 
evidence in support. And, second, because all good scientists are 
skeptics: that is their professional job. To not be a skeptic of the 
hypothesis that you are testing is the rudest of scientific errors, for 
it means that you are committed to a particular outcome: that's faith, 
not science.
    Introduction of the term ``denialist'' into the public climate 
debate, with its deliberate connotations with holocaust denial, serves 
only to cheapen those who have practiced the custom.
    5. ``Six Nobel Prize winners, and seven members of the National 
Academy of Sciences say . . .''.
    Argument from authority is the antithesis of the scientific method. 
That earlier this year the Royal Society of London tried to restrict 
the public debate on climate change through intimidation of Esso U.K. 
is a complete betrayal of all that the Society stands for. As John Daly 
commented on his website regarding a 2001 U.S. National Academy of 
Sciences report on global warming:
    ``The (2001) NAS committee made many assertions, none of which they 
chose to justify or explain other than to state it was ``their view''--
as if their mere authority as representing the National Academy of 
Science were enough to prevail in the argument.
    Well it isn't. The days when mere `authority' could win an argument 
or debate are long gone. Such deference is more characteristic of a 
mediaeval priesthood, not a modern science where every important claim 
must be justified and explained. Only evidence counts in this modern 
world.''
    6. The ``precautionary principle'' says that we should limit human 
carbon dioxide emissions because of the risk that the emissions will 
cause dangerous warming. Thus the science argument should be 
subservient to the risk argument.
    The precautionary principle is intended to assist governments and 
peoples with risk analysis of environmental issues. First formulated at 
a United Nations environment conference at Rio de Janiero in 1992, it 
stated that ``Where there are threats of serious or irreversible 
damage, lack of full scientific certainty shall not be used as a reason 
for postponing cost-effective measures to prevent environmental 
degradation''.
    In order to take precautions, it is necessary to understand what 
one is taking them against. But at the moment global average 
temperature is flat-lining, and empirical predictions are for cooling. 
As Dick Lindzen recently pointed out in an article in the U.K. 
Telegraph: ``After all, like Hurricane frequency or the price of oil, 
global mean temperature is as likely to go down as up''.
    The precautionary principle is oftentimes a moral precept 
masquerading under a scientific cloak. True scientific principles 
acknowledge the supremacy of experiment and observation, and do not bow 
to untestable moral propositions. Adhering to a moral principle through 
thick and thin is certainly a part of the precautionary principle as 
practiced by many environmentalists, and as such it is a principle of 
the wrong type to be used for the formulation of public environmental 
policy.
    After comprehensive analysis, the Science and Technology Committee 
of the U.K. House of Commons recently came to a similar conclusion, 
commenting that ``we can confirm our initial view that the term 
``precautionary principle'' should not be used, and recommend that it 
cease to be included in policy guidance''. The committee added that 
``In our view, the terms ``precautionary principle'' and 
``precautionary approach'' in isolation from . . . clarification have 
been the subject of such confusion and different interpretations as to 
be devalued and of little practical help, particularly in public 
debate''.
    7. The Kyoto protocol is only a small first step towards a more 
comprehensive carbon emission regimen.
    This argument has always been ridiculous. To expend trillions of 
dollars on measures that are predicted only to delay by 6 years a small 
fraction of a degree rise in hypothetical temperature is irrational 
behaviour. If it is a step, it is a step in the wrong direction, for--
as Bjorn Lomborg never tires from pointing out--the same monies could 
be applied with much greater effect to other pressing environmental 
problems. The futility of the Kyoto approach has recently been 
underlined by the complete failure of the COP-13 talks at Nairobi to 
make progress towards a post-Kyoto carbon emissions agreement.
    8. It is irresponsible of the press to be playing up the views of a 
small handful of contrarian scientists. In searching for formulaic 
``balance'', the press overemphasizes the views of a few maverick 
scientists, and thereby delays the public acceptance of essential 
mitigation measures.
    Quite to the contrary. Not only are there thousands of such 
``mavericks'', including many of high scientific ability, but press 
coverage of climate change is generally dominated by one-sided alarmist 
reports which pay little or no attention to contrary views.
    The small handful of quality newspapers that provide balanced 
coverage of the climate change issue include the U.S. Wall Street 
Journal, the U.K. Telegraph and the Australian. These publications are 
playing both a responsible and an essential role in keeping the public 
informed.
          other techniques used to influence the public debate
    Most of the matters just discussed relate to the denigration or 
neutralization of arguments from climate skeptics. In addition to these 
techniques, environmental writers and editors have developed their own 
armoury of weapons for influencing the public debate on climate change. 
These weapons include the following.
    1. Couldism, mightism and perhapsism, fuelled by computer modelling
    If, could, may, might, probably, perhaps, likely, expected, 
projected . . .
    Wonderful words. So wonderful, in fact, that environmental writers 
scatter them through their articles on climate change like confetti. 
The reason is that--in the absence of empirical evidence for damaging 
human-caused climate change--public attention is best captured by 
making assertions about ``possible'' change. And, of course, using the 
output of computer models in support, virtually any type of climatic 
hazard can be asserted as a possible future change.
    As an example, a 2005 Queensland State Government report on climate 
change used these words more than 50 times in 32 pages. That's a rate 
of almost twice a page. A typical ``could probably'' run in this report 
asserts that Queensland's climate could be more variable and extreme in 
the future ``with more droughts, heatwaves and heavy rainfall'' and 
probably with ``maximum temperatures and heavy downpours . . . beyond 
our current experiences''.
    Reading further into the report reveals that these statements are 
all ``climate change projections . . . developed from a range of 
computer-based models of global climate, and scenarios of future global 
greenhouse gas emissions''.
    In another similar example from Australia, Dr Penny Whetton, Leader 
of the Climate Impacts Group, was quoted in a CSIRO press release as 
saying ``By 2070 Victoria is likely to be 0.7 to 5.0 C warmer, 
compared to 1990. . . . Climate change in Victoria is likely to lead to 
more hot days, fewer frosts, more heavy rainfall and drier conditions 
leading to greater bushfire risk.''
    All this might be well and good if it had been established that the 
models being used possessed actual skill in predicting regional 
changes. That that is not the case is confirmed by the disclaimer that 
the CSIRO puts in all their climate modeling reports (e.g. ``Climate 
Change in Queensland Under Enhanced Greenhouse Conditions'' Final 
Report 1997-2002, 84 pp.).
    ``This report relates to climate change scenarios based on computer 
modelling. Models involve simplifications of the real processes that 
are not fully understood. Accordingly, no responsibility will be 
accepted by CSIRO or the QLD government for the accuracy of forecasts 
or predictions inferred from this report or for any person's 
interpretations, deductions, conclusions or actions in reliance on this 
report.''
    Needless to say, despite such caveats the press treat the outputs 
of modeling exercises as firm predictions of future climate. In truth, 
they are exercises only in virtual reality.
    2. Data that are judged to be harmful to the global warming cause 
are simply ignored.
    From amongst many possible examples, I note the two that I have 
discussed in more detail earlier. They are (i) that ice core data from 
Greenland show that neither the magnitude nor the rate of late 20th 
century warming falls outside previous natural limits; and (ii) that in 
ice cores generally, changes in temperature lead their parallel changes 
in carbon dioxide by at least several hundred years.
    3. Enthusiastic reporting is undertaken of new science with 
alarmist implications, and no reporting of counter arguments.
    In 2005, in a paper in Nature, Bryden and co-authors reported 
observations of flow-speeds in the Overturning Meridional Circulation 
in the North Atlantic ocean, and inferred a significant slowdown of the 
overturning circulation. The paper received wide publicity in the 
press, with much attention to the alarmist possibilities that it opened 
up. This year, papers by Schott et al. (2006) and Meinen et al. (2006) 
have described in more detail some of the natural fluctuations in flow 
strength of the Atlantic DWBC system, and Schott et al. conclude that 
their results ``do not support suggestions of a basin-wide ``slowdown'' 
of the Atlantic Meridional Overturning Circulation''. This revision of 
interpretation, not raising any alarm, was predictably largely ignored 
by the press.
    A second recent example of press selectivity is provided by the 
enormous press coverage accorded to North Atlantic storms in 2005--a 
year which saw 15 hurricanes develop, including Katrina, accompanied by 
a tremendous amount of alarmist speculation that human-caused global 
warming was the cause. In contrast, 2006, with only 5 hurricanes, 
turned out to be a quiet year both for hurricanes and for press 
speculation about global warming being their cause.
    4. Award winning journalists or public celebrities, mostly with no 
expertise in science, write ignorant polemics that are designed to 
encourage public alarm on climate change.
    For example, Ian Henschke, a current affairs journalist with the 
Australian Broadcasting Corporation, and holder of a Reuters Fellowship 
to study global warming at Oxford University in 1999, wrote recently 
(Adelaide Review, March 2004, p. 7):
    ``The long-term effects of global warming are just beginning to 
become evident. . . . The impact of global warming means a warmer, 
wilder, wetter world where there will be winners and losers. We are 
carrying out an unauthorized experiment with the planet's weather 
system . . . that is and will continue to bleach and kill the Great 
Barrier Reef and gives us even bigger El Nino events that saw our 
national capital's suburbs ablaze last year. The rest of the world will 
also have its own chaotic response, from increasing heat waves in 
Europe to worse snow storms in Texas. Australia has become a pariah on 
this issue. Along with the U.S. we are seen as coming out with 
incoherent and inconsistent policies that make us part of the problem, 
not part of the solution.''
    This farrago of nonsense, which has been customized to stir 
particular local environmental fears, is of a genre that can be read in 
newspapers or watched on television around the world. Such pieces are 
presented by reporters whose political correctness and moral pretension 
greatly outstrips their scientific understanding.
    5. Discrimination is exercised by both the popular and specialist 
scientific press against articles on climate change that are written 
from a balanced, rationalist or skeptical point of view.
    Most long-standing climate skeptics have experienced this type of 
discrimination, and there are many examples listed on the internet.
    Particularly worrisome is that two leading general science 
publications, Science and Nature, have developed a habit of not 
accepting short papers that are critical of earlier (demonstrably 
unsound) environmental papers that they have published. Three more 
popular and very widely distributed magazines, namely National 
Geographic, New Scientist and Scientific American, also display a great 
lack of balance in the material that they publish on climate change 
issues.
                       discussion and conclusions
    I have discussed briefly above a number of arguments and practices 
that are applied widely throughout the public media in order to 
influence the public debate on climate towards alarmism. These 
techniques are used most often by doctrinaire persons who are bereft of 
scientific support for their strong personal belief that damaging, 
human-caused warming is occurring.
    With some rare exceptions, the performance of the media, and 
especially the scientific press, on the global warming issue has been 
lamentable. Editors need to resist the daily temptation for alarmism, 
greatly improve their vigilance over publishing such weak rhetorical 
arguments as those outlined above, and insist that their reporters 
assess mainly the science issues at hand.
    Driven by their addiction to alarmism, and a false belief that the 
causes of climate change are understood, environmental lobby groups 
worldwide urge the adoption of the precautionary principle to solve the 
``global warming problem''. They argue that the world needs to move to 
a ``post-carbon'' economy as soon as possible, in order to curtail 
drastically the carbon dioxide emissions that they allege are causing 
warming. Yet it is only unvalidated computer models that suggest 
dangerous warming will occur, the observable facts being quite 
implacable that additional carbon dioxide brings mild warming only, 
most of which has already occurred because of the logarithmic nature of 
the relationship between increased carbon dioxide and increasing 
temperature.
    Environmental campaigners for the mitigation of human greenhouse 
emissions appear to be blind to facts such as:
    <bullet> that no amount of precaution is going stop natural climate 
change;
    <bullet> that there is a 100 percent risk of damage from natural 
climate events, which happen every day;
    <bullet> that we cannot measure, much less isolate, any presumed 
human climate signal globally;
    <bullet> that extra atmospheric carbon dioxide causes mild warming 
only, and given its other properties is at least as likely to be 
beneficial as harmful; and
    <bullet> that the causes of climate change are many, various and 
very incompletely understood.
    It is a remarkable fact that despite the worldwide expenditure of 
perhaps U.S. $50 billion since 1990, and the efforts of tens of 
thousands of scientists worldwide, no human climate signal has yet been 
detected that is unambiguously distinct from natural variation. After 
the discrediting of the iconic ``hockey stick'' curve of recent 
temperature change, the IPCC's alarmist case for dangerous human 
climate change now rests not on empirical data of any sort but on 
misunderstood computer attribution models, failed greenhouse theory, 
and anecdotal accounts of climate changes--such as glaciers melting--
that may well be of wholly or largely natural origin.
    A goal to ``stabilise world climate'' is misplaced, not to mention 
unattainable. Climate is a dynamic system within which extreme events 
and dramatic changes will always occur, irrespective of human actions 
or preferences. Witness hurricane Katrina. The real danger of the 
current public global warming hysteria is that it is distracting 
attention and resources away from the need to develop a sound policy of 
adaptation to future natural climate vicissitudes.
    Climate change is as much a geological as it is a meteorological 
issue. Geological hazards are mostly dealt with by providing civil 
defense authorities and the public with accurate, evidence-based 
information regarding events such as earthquakes, volcanic eruptions, 
tsunamis and floods, and by adaptation to the effects when an event 
occurs.
    As for other major natural disasters, the appropriate preparation 
for extreme climate events is to mitigate and manage the negative 
effects when they occur. Careful planning will be needed to identify 
when a dangerous weather or climate event is imminent (or has started), 
and to foster ongoing research for the development of predictive tools 
for both sudden and long term climatic coolings and warmings. Climate 
impacts are generally slower to appear than those of other 
``instantaneous'' disasters like earthquakes, tsunami, storms, volcanic 
eruptions, landslides or bushfires. This difference is not one of kind, 
and neither should be our response plans.
    NOTE: Opinions, findings and conclusions expressed in this 
testimony are those of the author, and are not attributable to either 
his organization (James Cook University) or research fund provider 
(Australian Research Council).
                               References
    Bond, G., Kromer, B., Beer, J., Muscheler, R., Evans, M.N., 
Showers, W., Hoffmann, S., Lotti-Bond, R., Hajdas, I. & Bonani, G. 2001 
Persistent solar influence on North Atlantic climate during the 
Holocene. Science 294, 2130-2136.
    Davis, J.C. & Bohling, G.C. 2001 The search for patterns in ice-
core temperature curves. In: Gerhard, L.C. et al. (eds.), Geological 
Perspectives of Global Climate Change, American Association of 
Petroleum Geologists, Studies in Geology 47, 213-229.
    Gray, V. 2006 Temperature trends in the lower atmosphere. Energy & 
Environment 17, 707-714.
    Grootes, P.M., Stuiver, M., White, J.W.C., Johnsen, S. & Jouzel, J. 
1993 Comparison of oxygen isotope records from the GISP2 and GRIP 
Greenland ice cores. Nature 366, 552-554.
    Khilyuk, L.F. & Chilingar, G.V. 2006 On global forces of nature 
driving the Earth's climate. Are humans involved? Environmental Geology 
50, 899-910.
    Klyashtorin, L.B. & Lyubushin, A.A. 2003 On the coherence between 
dynamics of the world fuel consumption & global temperature anomaly. 
Energy & Environment 14, 733-782.
    Kouwenberg, L., Wagner, R., Kurschner, W. & Visscher, H. 2005 
Atmospheric CO<INF>2</INF> fluctuations during the last millennium 
reconstructed by stomatal frequency analysis of Tsuga heterophylla 
needles. Geology 33, 33-36.
    Loehle, C. 2004 Climate change: detection and attribution of trends 
from long-term geologic data. Ecological Modelling 171, 433-450.
    Meinen, C.S., Baringer, M.O. & Garzoli, S.L. 2005 Variability in 
Deep Western Boundary Current transports. Preliminary results from 26.5 
N in the Atlantic. Geophysical Research Letters 33, L17610, 
doi:10.1029/2006GL026965.
    Morrison, R. 2005 Does CRC R&D spell PR? Australasian Science, May, 
p. 40-42.
    Mudelsee, M. 2001 The phase relations among atmospheric 
CO<INF>2</INF> content, temperature & global ice volume over the past 
420 ka. Quaternary Science Reviews 20, 583-589.
    New Zealand Climate Science Coalition 2006 Response of the New 
Zealand Climate Science Coalition to comments by Dr. David Wratt. 
Attachment B: Inadequacies and criticisms of the Intergovernmental 
Panel on Climate Change. http://www.climatescience.org.nz/assets/
2006930201100.ResponseToRSNZ.pdf
    Schott, F.A., Fischer, J., Dengler, M. & Zantopp, R. 2006 
Variability of the Deep Western Boundary Current east of the Grand 
Banks. Geophysical Research Letters 33, L21S07, doi:10.1029/
2006GL026563.
    U.S. Climate Change Science Program, 2006 Temperature Trends in the 
Lower Atmosphere: Steps for Understanding and Reconciling Differences.
    Watanabe, O., Jouzel, J., Johnsen, S., Parrenin, F., Shoji, H. & 
Yoshida, N. 2003 Homogeneous climate variability across East Antarctic 
over the past three glacial cycles. Nature 422, 509-512.
                               __________
   Statement of Naomi Oreskes, Professor, University of California, 
                             San Diego, CA
    Thank you very much. It is an honor to have the opportunity to 
speak to you today about the history of climate science. I am a 
professor of history at the University of California, San Diego, where 
I teach, and research, the history of modern science. I hold a Bachelor 
of Science in Mining Geology from the Royal School of Mines, part of 
the University of London, and a Ph.D., from Stanford University, where 
I completed a graduate special program in geological research and 
history of science.
    In recent months, the suggestion has been made that concern over 
anthropogenic global warming is a just a fad or a fashion. The history 
of science shows otherwise. Scientific attention to global warming has 
lasted over a century, involved thousands of scientists, and extended 
across six continents. It has spanned the disciplines of physics, 
chemistry, meteorology, and oceanography, and included some of the most 
illustrious and trusted scientists of the 20th century. And it has 
included scientific advisors to several U.S. Presidents--both 
Democratic and Republican.
    Let me explain.
    Scientists have been studying carbon dioxide and climate for a long 
time. John Tyndall first established in 1859 that carbon dioxide is a 
greenhouse gas. From this, Swedish geochemist Svante Arrhenius deduced 
in the 1890s that CO<INF>2</INF> released to the atmosphere by burning 
fossil fuels could alter Earth's climate. By the 1930s British engineer 
Guy Callendar had compiled empirical evidence that this effect was 
already discernible.\1\
---------------------------------------------------------------------------
    \1\ Callendar, G.S. (1938). ``The Artificial Production of Carbon 
Dioxide and Its Influence on Temperature.'' Quarterly J. Royal 
Meteorological Society 64: 223-40. See also James Roger Fleming (2006). 
The Callendar Effect: The Life and Work of Guy Stewart Callendar, the 
Scientist Who Established the Carbon Dioxide Theory of Climate Change, 
Boston: American Meteorological Society.
---------------------------------------------------------------------------
    Callendar's concern was pursued in the 1950s by American physicist 
Gilbert Plass, a pioneer in upper atmosphere spectroscopy, by 
geochemist Hans Suess, a pioneer of radiocarbon dating who worked 
closely with the U.S. Atomic Energy Commission, and by oceanographer 
Roger Revelle, a one-time commander in the U.S. Navy Hydrographic 
Office. By the 1960s, Charles David Keeling's systematic measurements 
demonstrated that atmospheric CO<INF>2</INF> was, indeed, steadily 
rising. (For this work, Keeling was awarded the National Medal of 
Science in 2002).
    These basic facts of history are well known.\2\
---------------------------------------------------------------------------
    \2\ James Rodger Fleming (1998). Historical Perspectives on Climate 
Change. New York: Oxford University Press; Weart, Spencer R. (2004). 
The Discovery of Global Warming. Cambridge, MA: Harvard University 
Press.
---------------------------------------------------------------------------
    What is less well known is that by the mid 1960s, a number of 
scientific advisory panels had expressed concern about global warming, 
and this concern was communicated by some of America's most illustrious 
scientists to Presidents Lyndon Johnson, Richard Nixon, and Jimmy 
Carter.
    One early warning came in 1965 from the Environmental Pollution 
Board of the President's Science Advisory Committee, who warned that 
``by the year 2000 there will be about 25 percent more CO<INF>2</INF> 
in our atmosphere than at present [and] this will modify the heat 
balance of the atmosphere to such an extent that marked changes in 
climate could occur.''\3\ Accordingly, President Lyndon Johnson stated 
In a Special Message to the Congress: ``This generation has altered the 
composition of the atmosphere on a global scale through . . . a steady 
increase in carbon dioxide from the burning of fossil fuels.''\4\
---------------------------------------------------------------------------
    \3\ Restoring the Quality of Our Environment, Report of the 
Environmental Pollution Panel, President's Science Advisory Committee, 
The White House, December 1965, on p. 9.
    \4\ President Lyndon B. Johnson's ``Special Message to the Congress 
on Conservation and Restoration of Natural Beauty'' on Feb. 8, 1965. 
see: http://www.presidency.ucsb.edu/ws/index.php?pid=27285. This 
appears to be the first time ``carbon dioxide'' appeared in a 
presidential speech; thanks to Professor Zuoyue Wang of California 
State University, Pomona, for drawing my attention to this.
---------------------------------------------------------------------------
    A second warning came in 1966 from the U.S. National Academy of 
Sciences Panel on Weather and Climate Modification, headed by 
geophysicist Gordon MacDonald, who later served on President Nixon's 
Council on Environmental Quality (1970-1972).\5\
---------------------------------------------------------------------------
    \5\ ``Weather and Climate Modification Problems and Prospects,'' 
Vol I. Final report of the Panel on Weather and Climate Modification, 
NAS-NRC Publication 1350, Washington, DC: NAS Press, 1966, particularly 
discussion on p. 10. See also ``Scientific Problems of Weather 
Modification,'' A report of the Panel on Weather and Climate 
Modification, Committee on Atmospheric Sciences, NAS-NRC Publication 
1236, Washington, DC: NAS Press, 1964. On Gordon MacDonald, see Munk, 
Walter, Naomi Oreskes, and Richard Muller, 2004. ``Gordon J.F. 
MacDonald,'' National Academy of Sciences Biographical Memoirs 84: 3-
26.
---------------------------------------------------------------------------
    In 1974, in the wake of the Arab Oil Embargo, Alvin Weinberg, 
Director of the Oak Ridge National Laboratory, realized that 
climatological impacts might limit oil production before geology 
did.\6\ In 1978, Robert M. White, the first administrator of NOAA and 
later President of the National Academy of Engineering, put it this 
way:
---------------------------------------------------------------------------
    \6\ Weinberg, Alvin (1974). ``Global Effects of Man's Production of 
Energy.'' Science 186: 205.
---------------------------------------------------------------------------
          We now understand that . . . carbon dioxide released during 
        the burning of fossil fuels, can have consequences for climate 
        that pose a considerable threat to future society.  . . . The 
        potential . . . impacts [are] ominous.''\7\
---------------------------------------------------------------------------
    \7\ White, Robert M. (1978). Oceans and Climate: An Introduction, 
Oceanus 21: 2-3.
---------------------------------------------------------------------------
    In 1979 the subject was addressed by the JASON committee--the 
reclusive group of highly cleared scientists who gather annually to 
evaluate scientific and technical problems for the U.S. Government--and 
whose members have included some of the most brilliant scientists of 
our era, including physics Nobel Laureates Hans Bethe and Murray Gell-
Mann.
    The JASON scientists predicted that atmospheric CO<INF>2</INF> 
might double by the year 2035, resulting in mean global temperature 
increases of 2-3 C, and polar warming of as much as 10-12 C. This 
report also reached the White House, where Frank Press, Science Advisor 
to President Carter, asked the National Academy of Sciences for a 
second opinion. An Academy committee, headed by MIT meteorologist Jule 
Charney, affirmed the JASON conclusion: ``If carbon dioxide continues 
to increase, [we] find no reason to doubt that climate changes will 
result, and no reason to believe that these changes will be 
negligible.''
    It was precisely these concerns that led in 1992 to the U.N. 
Framework Convention on Climate Change, which called for immediate 
action to reverse the trend of mounting greenhouse gas emissions. One 
early signatory was U.S. President George H.W. Bush, who called on 
world leaders to translate the written document into ``concrete action 
to protect the planet.'' Three months later, the Convention was 
unanimously ratified by the U.S. Senate.
    Since then, scientists around the world have worked assiduously to 
flesh out the details of this broadly affirmed picture. The purpose of 
my 2004 study of the scientific literature, published in the peer-
reviewed journal Science, was to assess how much disagreement remained 
in the scientific community about the basic reality of global warming 
and its human causes. The answer surprised me: not one scientific paper 
in the random sample disagreed with the consensus position. Scientists, 
my study showed, are still arguing about the details, but the overall 
picture is clear. There is a consensus among both the leaders of 
climate science and the rank and file of active climate researchers.
    I should acknowledge that one skeptic has challenged my study, and 
others have repeated his claim. This man is a social anthropologist in 
Liverpool, who, to my knowledge, has never published his arguments 
regarding my study in a peer-reviewed journal. This past October, he 
admitted that he made significant mistakes in his criticisms, and he 
now agrees with my general conclusion about the state of climate 
science.\8\ In an interview with the Australian Broadcasting 
Commission, he acknowledged, ``I do not think anyone is questioning 
that we are in a period of global warming. Neither do I doubt that the 
overwhelming majority of climatologists is agreed that the current 
warming period is mostly due to human impact.''
---------------------------------------------------------------------------
    \8\ This was recently reported by the Australian Broadcasting 
Commission, see http://www.abc.net.au/mediawatch/transcripts/
s1777013.htm
---------------------------------------------------------------------------
    The scientific evidence is clear: the predictions made decades ago 
by Arrhenius, Callendar, Plass, Suess, Revelle, Charney, MacDonald, 
Weinberg, White, the JASON committee, and many others, have come true.
    One prediction, however, did not come true.
    In 1983, the National Academy formed a committee chaired by 
physicist William Nierenberg to look in greater detail at the issues 
raised by the JASON and Charney reports. The Nierenberg committee 
accepted their scientific conclusions, but declined to view global 
warming as a problem, predicting that any adverse effects would be 
adequately remedied by technological innovation driven by market 
forces.
    This prediction, I think it is fair to say, has not come true. 
Technological innovation has not saved the homes of the citizens of 
Shishmaref, Alaska, nor stopped the acidification of the world's 
oceans, nor prevented the melting of polar ice.
    Thank you very much for your time.
                               __________
    Statement of Dan Gainor, The Boone Pickens Free Market Fellow, 
                  Director, Business & Media Institute
    Thank you Mr. Chairman, Senators, ladies and gentlemen. We're here 
to discuss the media coverage of the climate change debate. But there's 
only one problem, there is almost none of that debate actually in the 
media.
    Journalists pledged to be neutral, long ago gave up their watchdog 
role to become lapdogs for one position. The media became alarmist 
claiming the planet is at a ``tipping point'' as if at any moment 
everything would go over the edge. An April 2006 issue of Time magazine 
pushed readers over that edge with 24 pages of advocacy, claiming: 
``The debate is over. Global warming is upon us with a vengeance.''
    CBS's Scott Pelley, who covers the environment, actually compared 
climate change skeptics with Holocaust deniers and claimed: ``There 
becomes a point in journalism where striving for balance becomes 
irresponsible.''
    In an effort to provide balance to that irresponsible position, 
let's recall the media's record on climate change. Reporters told us 
roughly 30 years ago that a similar fate awaited mankind. Then, 
journalists were convinced we would all freeze to death.
    In an April 1975 article entitled ``The Cooling World,'' Newsweek 
advised us that ``the earth's climate seems to be cooling down.'' A May 
1975 New York Times piece cautioned: ``Scientists Ponder Why World's 
Climate is Changing: A Major Cooling Widely Considered to Be 
Inevitable.''
    The Washington Post, U.S. News & World Report and Science News all 
chimed in that cool was suddenly very hot. One award-winning piece in 
Fortune said if the trend continued, it could ``affect the whole human 
occupation of the earth.''
    The irony of this scare is that just years before, we had been 
warned the earth was warming. In March 1929, the Los Angeles Times told 
readers ``Most geologists think the world is growing warmer, and that 
it will continue to get warmer.'' The New York Times took a similar 
approach with a headline that said ``America in Longest Warm Spell 
Since 1776.'' And less than 10 years before that, the Times had 
detailed the exploits of Capt. Donald MacMillan's Arctic expedition and 
how ``MacMillan Reports Signs of New Ice Age.''
    In more than 100 years, the major media have warned us of at least 
four separate climate cataclysms--an ice age, warming, another ice age 
and another bout of warming. If you count the current catch-all term of 
``climate change,'' that would be five separate media predictions. Even 
by their count, they're 0-3.
    The hubris that convinces supposedly unbiased journalists they are 
providing the ``truth'' on climate change has led them to criticize 
America for its stance on the issue including the Kyoto treaty. But 
they typically leave out the 95-0 vote against Kyoto by this very 
Senate or the many billions of dollars such an agreement would cost 
America. This attitude has resulted in a media obsession with Al Gore's 
film ``An Inconvenient Truth.'' At least 75 TV shows covered Gore or 
the film in just 3 months this summer--more than 3\1/2\ times the 
length of his movie.
    The Today Show's Matt Lauer even lent his status to a Sci-Fi 
Network program that listed global warming among other potential 
threats to our species including asteroids, aliens and evil robots.
    Scientists who dare question the almost religious belief in climate 
change, and yes, they do exist, are ignored or undermined in news 
reports as are policymakers and pundits who take similar views. The few 
journalists who sometimes give another side, like the New York Times' 
Andrew Revkin, emphasize funding sources for that side of the debate 
and rarely bother to question the billions of dollars that go into 
promoting global warming.
    This goes against the basic tenets of journalism to be skeptical of 
all sides of an issue. It also violates the ethical code of the Society 
of Professional Journalists which urges the media to ``Support the open 
exchange of views, even views they find repugnant.'' That code calls 
for reporters to ``Distinguish between advocacy and news reporting.''
    But that wasn't the media response when Chairman Inhofe read some 
of our report ``Fire & Ice'' on the Senate floor in September. Newsweek 
responded with a roughly 1,000 word clarification of its 1975 global 
cooling report, but added it made the mistake as recently as 1992. 
Newsweek still claimed ``the story wasn't `wrong' in the journalistic 
sense of `inaccurate.' '' But at least it owned up to the error--after 
31 years.
    In the New York Times editorial that responded to Sen. Inhofe's 
comments, the Times summarized: ``Cooling, warming--we never get it 
right.''
    That's the inconvenient truth.
    Thank you.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                  <all>

</pre></body></html>
